                                                                                                         NERAL
                                                                                             INSPECTOR GEDEFENSE
                                                                                                       OF
                                                                                         DEPARTMENT
                                                                                                          Y DRIVE
                                                                                            400 ARM AV
                                                                                                   Y  N
                                                                                                                   4704
                                                                                                     RGINIA 22202-
                                                                                       ARLINGTON, VI

                                                                                                                                                                  nnual Report to
                                                                                                                               to r   General Semia                                       o
                                                                            epartment of D
                                                                                                        efen  se   In   sp ec                                         are dedicated t
                                                  pr  es   en  t  th  e  D                                    th   ro  ug  h  M   a rc  h 31, 2011. We                         d ab us e; and
                           I am pleased to                                io d   O  ct  ob  er    1, 2010,                             en   ti f y  fr au   d,  waste, an
                                             e reporting per                                          and taxpayers to
                                                                                                                                  id
                                                                                                                                                                  ograms.
                         Congress for th                 th  e  N  at  io  n’s warfighters                             en  t’s op   erations and pr
                                ng on  b  eh  al f of                                       of    th  e D  ep ar  tm
                         worki                                               tiveness
                                              ciency and effec                                                                                                           ives to move
                         improve the effi                                                                                      d  hi   s  efficiency initiat                                 g
                                                                               Robert M. Gat
                                                                                                          es an   no   un  ce                                          ious way of doin
                                                   ar  y   of   D  ef  en  se                                   en   t,  effec  tiv  e,   and cost-consc                       n, o ve rh e ad  ,
                             In 2010, Secret                             s  “t o w  ar  d  a  m    ore effici                          es   to   r ed  uc   e  du   plicatio
                          America’s defen
                                               se institution                                             ditional initiativ                                              Department.
                                                     , Se   cr  et ar   y  G  ates directed ad                      st  ac co  un   ta  b  i lity” across the
                                                11                                                             co
                          business.” In 20                                           of savings and
                                  ce ss , an d   to   “i  nstill a culture                                                                                       rm     audits, investig
                                                                                                                                                                                            ations,
                          and ex                                                                                                       lit ie  s  to  pe    rfo
                                                                                                                                abi                                                         e
                                                                                                        e oversight cap                                                 rting period, w
                                                    oD      IG    ex  er  ci ses its extensiv                     op   er at io ns   . D   uring this repo                       e. Th es e  reports
                               To this end, D                           ts  of   ke  y   pr og    rams and                                ul   d   be   pu   t t o  better us
                                                                                                                                                                                          proper
                                                d assessmen                                                                  ially co
                           inspections, an                                     d  $1   93   m   i l lion that potent                           st  s, co   n t ra ct prices, and im
                                                   s that identi          fie                                               onable        co                                             r use as a
                           issued 85 report                                   ci es  in   ar  ea   s such as questi                            il lio n   in   fu nds put to bette
                                                    s and effici         en                                                 d $572        m                                             ive efforts
                            identified saving                              re po   rt in  g  pe   riod we achieve                        io  d  s.   F ur   th er , our investigat
                                                    during this                                          ious reporting
                                                                                                                                 per
                            payments. Also                    ed   d ur   in  g this and prev
                                                     is  su                                                      ill io  n.
                             result of reports                                         another $1.5 m
                                 to th e  s ei zu  re   and recovery of                                                                                       t  of  Overseas Conti
                                                                                                                                                                                           ngency
                             led                                                                                              lated      to   ov   er si  gh                               ong our
                                                                             h t o  ur   m   os  t   recent efforts re                        ci  es  in    th e  D   epartment. Am
                                                         we highlig                                                            effici    en
                                 In this report,                                                       d maintaining
                                                                  re , an   d achieving an                                                                                                  $147.3
                              Operations, he
                                                    al  th    ca
                                                                                                                                               y  O   p er  at io ns    and identified
                                                                                                                                            c
                              accomplishmen
                                                       ts:                                                   rseas Contingen                                                 funds.
                                                            a ud   it  r ep  or  ts related to Ove                        q ue  st io   ne   d   use of taxpayer                       ons, and 99
The Honorable Gordon           • We issued her potential monetary benefits ments, 140 convictions, 87 suspensi ts resulted in
                                                      12                                                              or
Heddell testifies before            million of eit                                                          7 indict                                                        settlemen
                                                       ig  at  io ns    w  er e  the basis for 12                     w  ith  ci v i l  an   d   administrative
Congress.                      • Our invest The criminal convictions along                                                                                                                   otective
                                     debarments.                                         U .S .  go   vernment.                                        ce  d ur  es   for warfighter pr
                                                                urned       t o  t he                                              ran    ce    p  ro                                        ers in Iraq.
                                     $1.4 billion ret                          se  s in   t es  t in  g and quality assu                       in   fu e  l co  nt  ra  cts for warfight
                                                                weaknes                                                     .7 billion
                                • We identified d inadequate price analyses for $2                                                                                                        including
                                      equipmen          t  an
                                                                                                                                                   ou  r  co   un  te  rpart agencies
                                                                                                                                 tly w     it  h                                              estigation
                                                                                      nt   m   i s si o n, we work join                                  n  cy ,  A rm    y Criminal Inv
                                                                our impo         r ta                                            e Aud        it  A  ge                                        ions. The
                                    To accomplish                                      l A  ud   i t  Se rvice, Air Forc                             O   ffi ce   of  S  pecial Investigat
                                                          it Agency,         N   a va                                               ir For      ce                                               encies.
                                 the Army Aud                                      In   ve st ig   at iv e Service, and A                          ac  co   m  pl  is hm    ents of these ag
                                                           val Crimin          a l                                                         th   e
                                  Command, Na                                                                   lights some of
                                                                  se  ct io  n  of   this report high                                                                                           ployees
                                  services oversi
                                                           gh   t
                                                                                                                                                   of es  si on   al is m of DoD IG em
                                                                                                                                     and      pr                                              and the
                                                                                        ci at io   n  fo r the hard work                                su  p  po  r t  o f the Congress
                                                                    s my a     pp   re                                            contin        ue  d                                           e efficiency
                                      I want to expres                            m   is si on   .  W  e  appreciate the                         t ra ns  p  ar en   cy  , and improve th
                                                             our crucial                                                                      e
                                   who carry out                                                                tability, enhanc
                                                               w  e  w  o  rk  to   promote accoun
                                   Department             as                                                   erations.
                                                            es  s  of   D  oD     pr  ograms and op
                                   and effectiven


                                                                                                                                    dell
                                                                                                                      Gordon S. Hed
                                                                                                                                Gen er al
                                                                                                                      Inspector
STATISTICAL HIGHLIGHTS


SUMMARY OF AUDIT ACTIVITIES

Reports Issued                                                              64
Monetary Benefits
         Recommendations Made on Funds Put to Better Use         $187 million
         Achieved Monetary Benefits (Funds Put to Better Use)    $572 million

SUMMARY OF INVESTIGATIVE ACTIVITIES

Total Returned to the U.S. Government                              $1.4 billion
Seizures and Recoveries                                           $1.5 million
Civil Judgments                                                 $705.7 million
Criminal Judgments                                              $730.2 million
Administrative Judgments                                          $2.9 million
Investigative Cases
         Indictments                                                       127
         Convictions                                                       140
         Suspensions                                                        87
         Debarments                                                         99

Administrative Investigations
Cases Received                                                             567
Cases Closed                                                               461
        Senior Official Investigations                                     213
        Reprisal Cases                                                     248

SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES

Existing and Proposed Regulations Reviewed                                174
Evaluation Reports Issued                                                    8
Inspector General Subpoenas Issued                                        104
Recommendations Made on Funds Put to Better Use                     $6 million


SUMMARY OF INTELLIGENCE ACTIVITIES

Intelligence Reports Issued                                                  7

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES

Assessment Reports Issued                                                    6

SUMMARY OF DEFENSE HOTLINE ACTIVITIES

Contacts                                                               11,062
       Cases Opened                                                     1,418
       Cases Closed                                                     1,144




  ii SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                                                       CONTENTS


1. OVERVIEW

        MISSION & ORGANIZATION ............................................................................................................................................2

        EXECUTIVE SUMMARY........................................................................................................................................................4

        IG HIGHLIGHTS................................................................................................................................................................... 10

                   OVERSEAS CONTINGENCY OPERATIONS............................................................................................... 10

                   HEALTH CARE .................................................................................................................................................. 11

                   EFFICIENCIES IN THE DEPARTMENT......................................................................................................... 13

2. CORE MISSION AREAS

        AUDITS .................................................................................................................................................................................. 16

                   ACQUISITION PROCESSES AND CONTRACT MANAGEMENT.......................................................... 16

                   FINANCIAL MANAGEMENT......................................................................................................................... 24

                   HEALTH AND SAFETY ................................................................................................................................... 27

                   INFORMATION ASSURANCE, SECURITY, & PRIVACY........................................................................... 28

                   JOINT WARFIGHTING & READINESS......................................................................................................... 29

        INVESTIGATIONS................................................................................................................................................................ 31

                   PUBLIC CORRUPTION ................................................................................................................................... 31

                   PROCUREMENT FRAUD ............................................................................................................................... 33

                   PRODUCT SUBSTITUTION ........................................................................................................................... 35

                   TECHNOLOGY PROTECTION ...................................................................................................................... 35

                   HEALTH CARE FRAUD ................................................................................................................................... 37

                   COMPUTER CRIME ......................................................................................................................................... 39

        INSPECTIONS ...................................................................................................................................................................... 39

                   HEALTH AND SAFETY...................................................................................................................................... 39

                   JOINT WARFIGHTING AND READINESS.................................................................................................. 41

                   COMPLIANCE .............................................................................................................................................. 43

3. ENABLING MISSION AREAS

        HOTLINE ............................................................................................................................................................................... 46

        WHISTLEBLOWER PROTECTION ................................................................................................................................... 48

        SENIOR OFFICIALS ............................................................................................................................................................ 50

        CONGRESSIONAL TESTIMONY...................................................................................................................................... 51 

        OUTREACH ACTIVITIES.................................................................................................................................................... 52


4. SERVICES

         ARMY ..................................................................................................................................................................................... 56

                      ARMY AUDIT AGENCY .................................................................................................................................. 56

                      ARMY CRIMINAL INVESTIGATION COMMAND..................................................................................... 62

         NAVY ...................................................................................................................................................................................... 64

                      NAVAL AUDIT SERVICE ................................................................................................................................. 64

                      NAVAL CRIMINAL INVESTIGATIVE SERVICE ........................................................................................... 70

         AIR FORCE............................................................................................................................................................................ 74

                      AIR FORCE AUDIT AGENCY......................................................................................................................... 74

                      AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS............................................................................... 84


5. APPENDICES
        A. AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED ........................................................................... 88

        B. REPORTS CONTAINING POTENTIAL MONETARY BENEFITS........................................................................... 97

        C. FOLLOW-UP ACTIVITIES ............................................................................................................................................. 98

        D. CONTRACT AUDIT REPORTS ISSUED ..................................................................................................................100

        E. STATUS OF ACTION ON POST-AWARD CONTRACTS .....................................................................................101

        F. STATUS OF REPORTS WITH ACTION PENDING ................................................................................................102

        G. CONTRACT AUDITS WITH SIGNIFICANT FINDINGS........................................................................................107

        H. RESULTS OF PEER REVIEWS....................................................................................................................................110

        I. ACRONYMS..................................................................................................................................................................111





                                                                                                                                     OCTOBER 1, 2010 TO MARCH 31, 2011 iii
REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended, states that each inspector general shall no later than April 30 and October 31 of each
year prepare semiannual reports summarizing the activities of the office during the immediately preceding six-month periods ending
March 31 and September 30. The IG Act specifies reporting requirements for semiannual reports. The requirements are listed below and
indexed to the applicable pages.

REFERENCES          REQUIREMENTS                                                                                                      PAGE
Section 4(a)(2)     “review existing and proposed legislation and regulations...make recommendations...”                              N/A

Section 5(a)(1)     “description of significant problems, abuses, and deficiencies...”                                                15-44

Section 5(a)(2)     “description of recommendations for corrective action...with respect to significant problems, abuses, and         15-44
                    deficiencies...”

Section 5(a)(3)     “identification of each significant recommendation described in previous semiannual reports on which cor­         N/A
                    rective action has not been completed...”
Section 5(a)(4)     “a summary of matters referred to prosecutive authorities and the prosecution and convictions which have          15-44
                    resulted.”
Section 5(a)(5)     “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances where infor­     N/A
                    mation requested was refused or not provided”
Section 5(a)(6)     “a listing, subdivided according to subject matter, of each audit report, inspection report, and evaluation re­   88-96
                    port issued” showing dollar value of questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)     “a summary of each particularly significant report...”                                                            15-44

Section 5(a)(8)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     98
                    the total dollar value of questioned costs...”
Section 5(a)(9)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     98
                    the dollar value of recommendations that funds be put to better use by management...”
Section 5(a)(10)    “a summary of each audit report, inspection report, and evaluation report issued before the commencement          98
                    of the reporting period for which no management decision has been made by the end of reporting period...”
Section 5(a)(11)    “a description and explanation of the reasons for any significant revised management decision...”                 N/A

Section 5(a)(12)    “information concerning any significant management decision with which the Inspector General is in                N/A
                    disagreement...”
Section 5(a)(13)    “information described under Section 05(b) of the Federal Financial Management Improvement Act of 1996...” N/A
                    (instances and reasons when an agency has not met target dates established in a remediation plan)
Section 5(a)(14)    “An Appendix containing the results of any peer review conducted by another Office of Inspector General           110
                    during the reporting period...”
Section 5(a)(15)    “A list of any outstanding recommendations from any peer review conducted by another Office of Inspector          N/A
                    General that have not been fully implemented, including a statement describing the status of the implemen­
                    tation and why implementation is not complete...”
Section 5(a)(16)    “Any peer reviews conducted by DoD IG of another IG Office during the reporting period, including a list of       110
                    any outstanding recommendations made from any previous peer review...that remain outstanding or have
                    not been fully implemented...”
Section 5(b)(2)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     99
                    the dollar value of disallowed costs...”
Section 5(b)(3)     “statistical tables showing the total number of audit, inspection, and evaluation reports and the dollar value    99
                    of recommendations that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)     “a statement with respect to audit reports on which management decisions have been made but final action          102-106
                    has not been taken, other than audit reports on which a management decision was made within the preced­
                    ing year...”
Section 8(f )(1)    “information concerning the number and types of contract audits...”                                               97
5 USC app. 5 note “an annex on final completed contract audit reports...containing significant audit findings.”                       107-110

  iv SEMIANNUAL REPORT TO THE CONGRESS
            1


Overview

Mission



                                  Serving the Congress
                                  and the Department
                                  Department of Defense Inspector General is an
                                  independent, objective agency within the U.S.
                                  Department of Defense that was created by the
                                  Inspector General Act of 1978, as amended. DoD
                                  IG is dedicated to serving the warfighter and the
                                  taxpayer by conducting audits, investigations,
                                  inspections, and assessments that result in
                                  improvements within the Department. DoD IG
                                  provides guidance and recommendations to the
                                  Department of Defense and the Congress.

                                  Mission
                                  Promote integrity, accountability, and improve­
                                  ment of Department of Defense personnel, pro­
                                  grams, and operations to support the Depart­
                                  ment’s mission and serve the public interest.

                                  Vision
                                  One professional team strengthening the
                                  integrity, efficiency, and effectiveness of the
                                  Department of Defense.

                                  Core Values
                                  Accountability • Integrity • Efficiency

                                  Goal 1
                                  Improve the economy, efficiency, and
                                  effectiveness of Department of Defense
                                  personnel, programs, and operations.

                                  Goal 2
                                  Eliminate fraud, waste, and abuse in the
                                  programs and operations of the Department of
                                  Defense.

                                  Goal 3
                                  Ensure the efficiency and effectiveness of DoD
                                  IG products, processes, and operations.




2 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                              Organization



                                                           Secretary of Defense



                                                             Inspector General




                                                      Administrative                                                       Special Plans &
       Auditing             Investigations                                    Intelligence       Policy & Oversight
                                                      Investigations                                                         Operations




Auditing                                                Intelligence
The Office of the Deputy Inspector General for          The Office of the Deputy Inspector General for
Auditing conducts audits on all facets of DoD           Intelligence provides oversight (audits, evalua­
operations. The work results in recommenda­             tions, and inspections) across the full spectrum
tions for reducing costs; eliminating fraud, waste,     of programs, policies, procedures, and functions
and abuse of authority; improving performance;          of the Intelligence Enterprise, Special Access
strengthening internal controls; and achieving          Programs, Nuclear Enterprise, and related secu­
compliance with laws, regulations, and policy.          rity issues within DoD.

Investigations                                          Policy and Oversight
The Office of the Deputy Inspector General for          The Office of the Deputy Inspector General
Investigations is the criminal investigative arm        for Policy and Oversight provides oversight
of DoD IG. The Defense Criminal Investigative           and policy for audit, investigative, and hotline
Service protects America’s warfighters by               activities within the DoD; provides technical
conducting criminal and civil investigations in         advice and support to DoD IG projects; and
support of crucial national defense priorities.         operates the DoD IG subpoena program.

Administrative Investigations                           Special Plans and Operations
The Office of the Deputy Inspector General for          The Office of the Deputy Inspector General for
Administrative Investigations conducts and              Special Plans and Operations provides assess­
oversees investigations of allegations regarding:       ment oversight to facilitate informed decision-
the misconduct of senior DoD officials, civilian        making by senior civilian and military leaders
and military; whistleblower reprisal against            of the Department of Defense and U.S. Congress
service members, defense contractor employees,          in order to accomplish priority national security
and DoD civilian employees (appropriated                objectives.
and non-appropriated fund); and improper
command referrals of service members for
mental health evaluations.



                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 3
Executive Summary



“Auditing issued 64
reports with 245
                                       Overview                                              Intelligence issued seven reports that addressed
                                                                                             management challenges of the intelligence en­
                                       The Inspector General Act of 1978, as amended,        terprise as it supports joint warfighting and
recommendations                        states that the inspector general is responsible      readiness and compliance.
for improving DoD                      for conducting audits, investigations, and in­
operations.”                           spections, and for recommending policies and          Policy and Oversight issued eight evaluation re­
                                       procedures to promote economic, efficient, and        ports primarily addressing its oversight of the
                                       effective use of agency resources and programs        Defense Contract Audit Agency. P&O also is­
                                       that prevent fraud, waste, abuse, and misman­         sued three Department-wide policies, reviewed
                                       agement. The IG Act also requires the inspector       174 existing and proposed regulations, and is­
                                       general to keep the Department and Congress           sued 204 IG subpoenas.
                                       fully and currently informed about problems
                                       and deficiencies in the Department’s operations       Special Plans and Operations issued six assess­
                                       and the need for corrective action.                   ment reports with 161 recommendations that
                                                                                             addressed a wide range of issues, including the
                                       DoD IG continued directing its resources to­          development of the logistics sustainment capa­
                                       ward those areas of greatest risk to the Depart­      bility of the Iraqi Security Forces; U.S. efforts to
                                       ment of Defense. We are dedicated to serving          train, equip, and mentor the Afghan National
                                       the warfighter and the taxpayer by conducting         Police; allegations concerning traumatic brain
                                       audits, investigations, and inspections that result   injury research integrity in Iraq; and the War­
                                       in improvements to the Department. The work           rior Care and Transition program at the Brooke
                                       of each component as of March 31, 2011 is sum­        Army Medical Center located on Ft. Sam Hous­
                                       marized below:                                        ton, Texas.
 Inspector General Heddell addresses
 oversight needs in Southwest Asia.    Auditing issued 64 reports with 245 recom­            As of March 31, 2011, the DoD IG workforce
                                       mendations for improving DoD operations. Of           totaled 1,606 employees. The FY 2011 budget is
                                       those reports, 41 percent addressed the Ameri­        $306.8 million.
                                       can Recovery and Reinvestment Act, 19 percent
                                       addressed acquisition processes and contracting
                                       issues, 30 percent addressed financial manage­
                                       ment issues, 6 percent addressed joint warfight­
                                                                                             Priorities
                                                                                             As a Department-wide priority, the secretary of
                                       ing and readiness issues, 3 percent addressed         defense identified the need to improve effective­
                                       health and safety issues, and 2 percent addressed     ness and efficiencies in business operations in
                                       information assurance, security, and privacy is­      order to sustain mission-essential activities. In
                                       sues.                                                 support of this focus, DoD IG utilizes its exten­
                                                                                             sive oversight capabilities to promote economy,
                                       Investigations opened 309 cases, closed 394, and      effectiveness, and efficiency throughout the
                                       has 1,564 ongoing investigations. These cases         Department. DoD IG performs audits, investi­
                                       primarily addressed criminal allegations of pub­      gations, and inspections to support the Depart­
                                       lic corruption, procurement fraud, product sub­       ment’s goals to:
                                       stitution, illegal transfer of technology, health     •		 Prevail in today’s wars.
                                       care fraud, and computer crimes.                      •		 Prevent and deter conflict.
                                                                                             •		 Prepare to defeat adversaries and succeed
                                       Administrative Investigations reported that the            in a wide range of contingencies.
                                       Department received 567 cases, closed 461, and        •		 Preserve and enhance the all-volunteer
                                       has 770 ongoing cases involving whistleblower              force.
                                       reprisal and senior official misconduct. Twenty-
                                       seven percent of civilian reprisal, 20 percent of     We performed audits, inspections, and assess­
                                       military reprisal and 21 percent of senior official   ments of key programs and operations. Our
                                       misconduct cases were substantiated.                  investigations resulted in criminal, civil, and ad­
                                                                                             ministrative actions. We also consulted on a va­

  4 SEMIANNUAL REPORT TO THE CONGRESS
riety of Department initiatives and issues in or­   challenges identified in Overseas Contingency
der to make improvements. DoD IG is focusing        Operations including identifying about $147.3
work efforts on preventing and detecting fraud,     million of either potential monetary benefits
waste, and abuse; and improving efficiency and      or questioned use of taxpayer funds. We identi­
effectiveness in critical areas for the Depart­     fied weaknesses in testing and quality assurance
ment, such as:                                      procedures for warfighter protective equipment,
•		 Acquisition Processes and Contract              inadequate price analyses for $2.7 billion in fuel
     Management                                     contracts for warfighters in Iraq, contractors
•		 Financial Management                            performing inherently governmental functions,               DoD IG primary oversight focus is
•		 Health and Safety                               potential overpayment of a contractor by more               operations in Afghanistan.

•		 Information Assurance, Security, and            than $124 million in transportation and goods
     Privacy                                        charges, failure to document whether $454.9
•		 Joint Warfighting and Readiness                 million in airlift costs were fair and reasonable,
                                                    as well as other contracting administration and
The Defense Criminal Investigative Service          oversight challenges impacting theater opera­
identified the following investigative priorities   tions.
for crimes impacting the Department:
•		 Public corruption
•		 Procurement fraud                               Health Care
•		 Product substitution                            The DoD budget for health care costs in FY 2010
•		 Technology protection                           was approximately $50 billion, a 61 percent in­
•		 Health care fraud                               crease from FY 2005 ($31 billion). With the
•		 Computer crime                                  United States engaged in Overseas Contingency
                                                    Operations in Iraq and Afghanistan, and other
Our report highlights three overarching areas of    efforts in the Middle East, the medical care re­
work: Overseas Contingency Operations, health       quired by military personnel is expected to in­
care, and efficiencies in the Department.           crease over the next several years.

                                                    To this end, DoD IG has begun a series of evalu­
Overseas Contingency                                ations of the U.S. Army and Marine Corps War­
                                                    rior Care and Transition programs. In addition,
Operations                                          DCIS is holding drug companies accountable for
As of March 31, 2011, we continued to operate       substandard products and misconduct related to
at a high tempo with 50 personnel deployed to       illegal marketing of their drugs for unapproved
Iraq, Afghanistan, Kuwait, and Qatar. In addi­      off-label uses. It is critical that we maintain vig­
tion, teams of auditors, agents, inspectors, and    orous oversight of the health care challenges fac­
engineers traveled to Southwest Asia on tempo­      ing the Department. One of our top priorities               DoD IG is focused on health care
rary duty assignments. Inspector General Hed­       is improving efficiency and effectiveness in the            challenges facing the Department.
dell and several members of his senior leadership   critical area of the health and safety of service
also visited the region. DoD IG had one senior      members and employees.
executive (the special deputy inspector general
for Southwest Asia), 33 auditors and evaluators,
12 special agents, and four administrative sup­     Efficiencies in the
port personnel deployed to the region.
                                                    Department
Matching the Department’s current Southwest         The secretary of defense announced a series of
Asia operational tempo and focus, DoD IG’s pri­     initiatives designed to reduce overhead, dupli­
mary oversight focus is operations in Afghani­      cation, and excess in the Department, and, over
stan while maintaining necessary oversight in       time, instill a culture of savings and restraint
Iraq and its remaining operations and transition    in America’s defense institutions. The goal is to
to the Department of State. During the reporting    significantly reduce excess overhead costs and
period, we issued 12 audit reports related to the   apply the savings to force structure and modern-

                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 5
Executive Summary



                                          ization. These initiatives are intended to balance         lift price was fair and reasonable. Further,
                                          the priorities of the department and reform the            DLA Troop Support did not know or vali­
                                          way the Pentagon does business.                            date whether the $103.6 million in triwall
                                                                                                     costs were accurate and chargeable to the
“DCIS investigations                      As the primary oversight organization for the              contract.
were the basis for                        Department, DoD IG is supporting these ini­          •		   We identified that TRICARE Management
                                          tiatives by conducting reviews that identify sig­          Activity and U.S. Army Medical Command
127 indictments,                          nificant savings and efficiencies in areas such as         personnel did not properly plan and sup­
140 convictions, 87                       excess inventory and spare parts, questionable             port the cost or scope of the Recovery Act
suspensions, and 99                       costs and contract prices, and improper pay­               project, “Modernization of Third Floor
debarments, which                         ments. We identified $193 million in potential             Utilities—Center for Health Promotion and
                                          monetary benefits and seized and recovered an­             Preventive Medicine,” at Aberdeen Proving
resulted in $1.4 billion
                                          other $1.5 million. Through a series of acquisi­           Ground, Md., to ensure appropriate use of
returned to the U.S.                      tion and contracts audits and investigations of            Recovery Act funds. Based on our audit
government.”                              procurement and health care fraud, we continue             findings, TRICARE Management Activ­
                                          to focus on identifying and reducing redundan­             ity officials canceled the project and made
                                          cies and eliminating fraud, waste, and abuse.              $15.7 million in Recovery Act funds avail­
                                                                                                     able for other projects.
                                                                                               •		
                                          Core Mission Areas
                                                                                                     We identified problems with the testing and
                                                                                                     product quality surveillance related to body
                                          During the reporting period, we issued 85 re­              armor. We determined that the Army low­
                                          ports that identified $193 million in funds that           ered the minimum velocity requirements
                                          could be put to better use. In addition, DCIS in­          and waived the lot acceptance testing re­
                                          vestigations were the basis for 127 indictments,           quirements, which were not documented
                                          140 convictions, 87 suspensions, and 99 debar­             at the time the decision was made. Also,
                                          ments, which resulted in $1.4 billion returned to          support contractors approved the lot accep­
                                          the U.S. government.                                       tance test results, an inherently governmen­
                                                                                                     tal function. Further, the Defense Contract
                                          Below are highlights of reports issued this re­            Management Agency Orlando did not use a
 Secretary Robert Gates at a press        porting period that identify inefficiencies and            statistical sampling methodology to ensure
 briefing on the efficiency initiative.
                                          waste within the Department:                               a valid representative sample was selected
                                                                                                     for lot acceptance testing and product qual­
                                                                                                     ity surveillance records were not retained
                                          Audits                                                     as required. The Army and DCMA could
                                          •		 We reported on the need for the Defense                provide only limited assurance that the vest
                                              Logistics Agency Troop Support to improve              components acquired through the five con­
                                              contract management of the subsistence                 tracts met the contract requirements.
                                              contract for Afghanistan. Since the contract
                                              was awarded in 2005, DLA Troop Support
                                              paid the prime vendor about $1.6 billion         Investigations
                                              for food and water and $1.4 billion for non­     •		 We investigated Louis Berger Group, Inc.,
                                              food items such as transportation and stor­            for intentionally charging inflated overhead
                                              age costs. DLA Troop Support overpaid                  rates on reconstruction contracts in Iraq
                                              the prime vendor potentially $98.4 million             and Afghanistan. As a result, the contrac­
                                              for transportation costs and approximately             tor paid the U.S. government $50.6 million
                                              $25.9 million for triwall costs. Additionally,         to resolve the allegations, and paid an ad­
                                              DLA Troop Support paid the prime vendor                ditional $18.7 million in criminal penalties
                                              approximately $454.9 million for services              and fines.
                                              to airlift fresh fruit and vegetables without    •		   We investigated Chitron Electronics for il­
                                              incorporating the airlift requirement in               legally exporting Department technology
                                              the contract or documenting that the air­              related to military radars and satellite com­

  6 SEMIANNUAL REPORT TO THE CONGRESS
      munications to affiliate companies in the           ferring detainees from DoD custody in Af­                    “We assessed U.S.
      People’s Republic of China. As a result, the        ghanistan and Iraq. A total of 4,781 detain­             government efforts to
      company was fined and $15.5 million was             ees were reported transferred from DoD
      returned to the U.S. government.                    custody during the inspection time frame.
                                                                                                                    develop the logistics
•		   We investigated GlaxoSmithKline for dis­                                                                    sustainment capability
                                                                                                                     of the Iraq Security
                                                      Areas of Focus
      tribution of adulterated and substandard
      drugs to a variety of users, including TRI­                                                                               Forces...”
      CARE. GlaxoSmithKline agreed to pay the         The following categories show where we focused
      U.S. government $750 million to settle the      our resources during this reporting period, and
      allegations, of which approximately $51.5       highlight information contained in the main
      million was returned to TRICARE.                body of this report.


Inspections                                           Acquisition Processes and
•		 We identified that the Warrior Transition         Contract Management
      Battalion at the Brooke Army Medical Cen­       Over the last several years, DoD has recognized
      ter did not have an operational definition      and taken action to reform how it does business,
      of a successful transition end-state for war­   purchases goods and services, and manages tax­
      riors who are transitioning to civilian life    payer dollars. DoD has initiated reforms such as
      instead of returning to our military forces.    increasing the number of acquisition profession­
      The command concurred with our recom­           als to support deployed forces, and increasing
      mendation to define this end-state, which       the emphasis of the Department on obtaining
      will have a positive impact on how wound­       greater efficiency on and productivity in De­
      ed warriors prepare themselves for life after   fense spending, to include targeting affordability
      military service.                               and controlling cost growth and promoting real
•		   We assessed U.S. government efforts to de­      competition. However, even with these reforms
      velop the logistics sustainment capability      and increased emphasis, DoD continues to ex­
      of the Iraq Security Forces and identified      perience shortfalls in its management of acquisi­
      shortcomings in the areas of requirements       tions and contracts. For example:
      generation for logistics support, budgeting,    •		 DLA Energy contracting officers did not
      for that support, and execution through              perform an adequate proposal analysis for
      contracting. Based on our recommenda­                three of four contracts valued at about $2.7
      tion, U.S. Forces-Iraq planned to address            billion to supply fuel to U.S. troops in Iraq.
      the mobilization of tiger teams to reinforce         The contracting officer had limited data to
      planning, programming, budgeting, and ex­            support about $1.1 billion in costs for the
      ecution processes at the Iraqi Ministries of         non-fuel component (such as transporta­
      Interior and Defense.                                tion), and failed to obtain adequate support
•		   We inspected the DoD release or transfer of          to ensure the agreed to fuel prices were fair         DoD IG reviewed contracts to supply
      detainees to and from the Guantanamo Bay             and reasonable. We estimated that DLA                 fuel to U.S. troops in Iraq.
      Detention Facility between August 24, 2009,          Energy paid approximately $160 to $204
      and August 24, 2010, to determine if assur­          million (6 to 7 percent) more for fuel than
      ances were obtained that the transferred in­         could be supported by price or cost analysis.
      dividuals would not be tortured. We found       •		 TACOM awarded a sole-source, time-and­
      that DoD has policies and procedures de­             materials contract for instructor services,
      scribing humane treatment of detainees               when a competitive, fixed-price contract was
      while in DoD custody. The inspection was             a better alternative. TCC officials inappro­
      conducted concurrently and coordinated               priately claimed an urgent and compelling
      with the Department of State and the De­             need to circumvent competition and award­
      partment of Homeland Security OIGs. We               ed a sole-source contract to a preferred
      determined that policies and procedures are          source on a high-risk time-and-materials
      less structured and less formal when trans­          basis. TCC officials did not adequately plan

                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 7
Executive Summary



“We are assessing                         for competing the procurement and did not        We will continue to assess DoD cybersecurity
DoD’s weapon                              assess the historical data of the contractor’s   and privacy efforts to include controls over DoD
                                          performance under a prior firm-fixed-price       information in the possession of non-DoD enti­
systems acquisition
                                          contract. The contract award may not have        ties, management of information assurance vul­
processes and contract                    provided the best value to the government.       nerabilities, DoD’s efforts to support the presi­
management...”                                                                             dent’s cybersecurity initiatives, and the adequacy
                                      We will continue to focus oversight efforts on       of physical access controls.
                                      critical acquisition and contracting to support
                                      the Department’s efforts in achieving greater ef­    Public Corruption
                                      ficiency and productivity in defense spending,       Public corruption is the breach of public trust by
                                      to include affordability. We are assessing DoD’s     elected or appointed U.S. government officials
                                      weapon systems acquisition processes and con­        who ask, demand, solicit, seek, accept, receive,
                                      tract management to include requirements             or agree to receive anything of value in return for
                                      definition, contract award, administration, and      preferred treatment. Two cases of note, detailed
                                      oversight, vendor payments, and to ensure the        further in the investigations section, resulted in
                                      contractor actually provided the specified item.     the conviction of a former U.S. Army staff ser­
                                                                                           geant for accepting bribes to allow a defense
                                      Information Assurance,                               contractor to steal U.S. fuel from operational
                                      Security, and Privacy                                sites in Afghanistan, and the conviction of a Ma­
                                      One of the most daunting challenges DoD faces        rine Corps captain who benefited from a scheme
                                      is defending its information and information         involving substandard equipment provided to
                                      systems against mounting cyber threats. On a         U.S. military contingents in Iraq.
                                      daily basis, DoD information technology infra­
                                      structure is attacked by those wanting to not        DoD IG remains committed to providing the
                                      only steal DoD information but also do harm to       resources to combat fraudulent schemes impact­
                                      DoD programs, operations, and personnel. Cy­         ing warfighter readiness.
                                      bersecurity is one of the most serious economic
 DoD IG assesses cybersecurity and
 privacy efforts of the Department.
                                      and national security challenges we face as a na­    Technology Protection
                                      tion. As stated in the Quadrennial Defense Re­       DCIS protects the acquisition process by inves­
                                      view, “In the 21st century, modern armed forces      tigating thefts of sensitive military commodities
                                      simply cannot conduct effective high-tempo           and the illegal diversion or export of strategic
                                      operations without resilient, reliable informa­      technologies and U.S. Munitions List items to
                                      tion and communication networks and assured          proscribed nations, criminal enterprises and
                                      access to cyberspace. DoD must actively defend       terrorist organizations. Using a variety of tools,
                                      its networks.”                                       including undercover operations, DoD IG part­
                                                                                           ners with Immigration and Customs Enforce­
                                      During this reporting period, we determined          ment, the Federal Bureau of Investigation, the
                                      that DoD did not execute enforcement actions         Department of Commerce, military criminal in­
                                      for noncompliance with web site policies and         vestigative organizations, and other law enforce­
                                      procedures, and components did not fully dis­        ment partners to ensure military technologies,
                                      seminate required policies and procedures gov­       sensitive data and information, and components
                                      erning publicly accessible web sites. As a result,   that could potentially be utilized to construct
                                      sensitive information continued to be posted to      improvised explosive devices or weapons of
                                      DoD public web sites, putting DoD missions and       mass destruction do not fall into the wrong
                                      personnel at risk. DoD was not maintaining a         hands. Two cases of note, detailed further in the
                                      Department-wide inventory of all its public web      investigations section, include the conviction of
                                      sites, as required by law. Individual organiza­      an Orion Telecom employee who conspired to
                                      tions were not maintaining accurate inventories      provide digital microwave radios to Iran, and the
                                      of web sites and could not ensure that all infor­    indictment and suspension of Marsh Aviation
                                      mation posted received proper review.                Company for conspiring to export T-76 aircraft

  8 SEMIANNUAL REPORT TO THE CONGRESS
engines to Venezuela in violation of a U.S. arms
embargo.
                                                     Whistleblower                                                “The Defense Hotline
                                                                                                                      received 11,062
                                                     Protection                                                      contacts from the
Recent investigations highlight the need for con­    During the period, we received 354 complaints
tinued vigilance, as countries possessing aged       of whistleblower reprisal through the Defense
                                                                                                                    general public and
U.S. equipment seek to replenish or refurbish        Hotline and other sources, and closed 248.                   members of the DoD
their inventories. DoD IG and partner agencies       Of the 248 closed, 60 were full investigations,                    community...”
take a proactive stance by initiating undercover     with 13 complaints substantiated (22 percent).
operations designed to prevent and deter the il­     We conducted a total of 29 outreach and
legal export of critical DoD technologies so as      training events attended by 496 military and
to avoid exposing our warfighters to potential       civilian IG representatives. Highlights include
harm.                                                a substantiated allegation of reprisal involving
                                                     an Army employee who provided testimony to

Enabling Mission Areas                               the House Armed Services Committee and a
                                                     substantiated allegation of reprisal involving a
                                                     Navy officer who reported inappropriate conduct
Defense Hotline                                      and misuse of government property to his chain
                                                     of command and congressional representative.
The Defense Hotline received 11,062 contacts
from the general public and members of the
DoD community: 44 percent via telephone, 36          Congressional
percent via e-mail, 10 percent via the internet, 7
percent via mail, 2 percent via the Government       Testimony & Briefings
Accountability Office, and 1 percent from con­       During the reporting period, Inspector General
gressional inquiries. Based on these contacts the    Heddell testified before the Subcommittee on
Hotline initiated 1,418 cases. The Defense Hot-      Contracting Oversight, Senate Committee on
line closed 1,144 cases this reporting period.       Homeland Security and Governmental Affairs,
                                                     on “Oversight of Reconstruction Contracts in
                                                     Afghanistan and the Role of the Special Inspec­
Senior Official                                      tor General.”
Accountability                                       DoD IG received 140 new congressional in­                 Inspector General Heddell testifies on
As of March 31, 2011, there were 303 ongoing                                                                   contracting in Afghanistan.
                                                     quiries and closed 136 cases. New inquires in­
investigations into senior official misconduct
                                                     volved issues such as requests related to reprisal
throughout the Department, representing a 3
                                                     investigations, concern about the award of the
percent increase from September 30, 2010, when
                                                     Air Force tanker contract, requests related to re­
294 open investigations were reported. Over
                                                     views of senior DoD officials, and requests for
the past six months, the Department closed 213
                                                     investigations related to defective fuses in gre­
senior official cases, of which 45 (21 percent)
                                                     nades and gyroscopes in Blackhawk and Chi­
contained substantiated allegations. Highlights
                                                     nook helicopters.
include investigation into the circumstances
surrounding a possible violation of the
Procurement Integrity Act on the Air Force’s
$35 billion procurement of 179 new KC-X aerial
refueling tankers, and several substantiated
findings against senior officials.




                                                                                                          OCTOBER 1, 2010 TO MARCH 31, 2011 9
IG Highlights



                                                                                              •		 Safety and force protection needs of the
                                         Background
Overseas                                 In Iraq, the Department continues to plan for
                                                                                                    military, civilians, and contractors are met.
                                                                                              •		 Fraud, waste, abuse, and corruption are
Contingency                              the transition of its activities to the Department
                                         of State under Operation New Dawn. While the
                                                                                                    identified.
                                                                                              •		 Property is properly accounted for and
Operations                               transition of activities will end for the Depart­
                                         ment of Defense-led activities on December
                                                                                                    there is visibility over the location of equip­
                                                                                                    ment and supplies.
                                         31, 2011, DoS continues to identify multiple re­
                                                                                              •		   Contractors are providing quality products
                                         quirements for a successful transition.
                                                                                                    and services, contracts are properly written
                                                                                                    and executed, and there is proper oversight
                                         The transition is an integral component of the
                                                                                                    of contractors supporting U.S. government
                                         drawdown of U.S. forces from Iraq. The com­
                                                                                                    activities.
                                         plexity of the transition requires DoS to plan
                                                                                              •		   Programs related to training and equipping
                                         for new and expanded functions to sustain,
                                                                                                    the Iraqi and Afghan security forces are ef­
                                         maintain, engineer, communicate, transport, re­
                                                                                                    fective, efficient, and sustainable.
                                         source, receive, provide life support, train, and
                                                                                              •		   Controls are in place and functioning with­
                                         equip staff and contractors. Adding to the com­
                                                                                                    in the processes and procedures used to
                                         plexity, these requirements include a determina­
                                                                                                    manage and expend funds.
                                         tion of what will remain government activities
DoD IG is reviewing Iraqi and Afghan
                                                                                              •		   Logistic operations are optimized to achieve
Security Forces training programs.       and what contractor support will be required to
                                                                                                    effective results and those that need equip­
                                         achieve the State Department mission after De­
                                                                                                    ment and supplies are receiving the right
                                         cember 31, 2011. While DoD and DoS plan for
                                                                                                    equipment and supplies when needed to
                                         an orderly transition, the Department continues
                                                                                                    carry out their missions.
                                         to reduce its footprint in Iraq and, at the same
                                         time, continues to train, equip, and mentor the
                                         Iraqi Security Forces. DoD also continues to         Recent Activities
                                         conduct operations in Afghanistan while train­       As of March 31, 2011, DoD IG was continuing
                                         ing, equipping, and mentoring the Afghan Na­         to operate at a high tempo with 50 personnel de­
                                         tional Security Forces.                              ployed to Iraq, Afghanistan, Kuwait, and Qatar.
                                                                                              In addition, teams of auditors, agents, inspec­
                                         As all of this activity is underway, Congress, the   tors, engineers, and others regularly enter and
                                         Department, and the military departments are         exit Southwest Asia on temporary duty assign­
                                         asking for increased oversight of about $27 bil­     ments. Inspector General Heddell and several
                                         lion FY 2011 Overseas Contingency Operations         members of his senior leadership also visited the
                                         funding managed by the U.S. Army Central             region. DoD IG has one senior executive (the
                                         Command and the Army’s estimated $43 billion         special deputy inspector general for Southwest
                                         worth of property in Afghanistan, Iraq, Kuwait,      Asia), 33 auditors and evaluators, 12 special
                                         and Qatar. During the first six months of FY         agents, and four administrative support person­
DoD IG leadership and personnel at the
                                         2011, DoD IG continued its oversight efforts to      nel deployed to the region.
IG field office in Baghdad, Iraq.        ensure that U.S.-funded assets were properly ac­
                                         counted for and that there was an effective pro­     DoD IG’s primary oversight focus is operations
                                         cess for the proper transfer, reset, and disposal    in Afghanistan while maintaining necessary
                                         of these assets from military units as they were     oversight in Iraq and its remaining operations
                                         deployed or redeployed.                              and transition to the Department of State. Dur­
                                                                                              ing the reporting period, DoD IG issued 12 au­
                                         Consistent with DoD IG oversight responsibili­       dit reports related to the challenges identified
                                         ties in reviewing policies, programs, plans, and     in Overseas Contingency Operations including
                                         processes related to Overseas Contingency Op­        identifying approximately $147.3 million of ei­
                                         erations, DoD IG conducts audits, assessments,       ther potential monetary benefits or questioned
                                         inspections, and investigations to ensure:           use of taxpayer funds.



10 SEMIANNUAL REPORT TO THE CONGRESS
DoD IG identified weaknesses in testing and           addition, DoD IG opened 115 new hotline cases
quality assurance procedures for warfighter pro­      related to Southwest Asia.
tective equipment, inadequate price analyses for
$2.7 billion in fuel contracts for warfighters in
Iraq, performance of inherently governmental          Moving Forward
functions by contractors, potential overpayment       In FY 2011, DoD IG will continue to provide
to a contractor of over $124 million in transpor­     oversight of the U.S. efforts to train, equip, and
tation and goods charges, failure to document         mentor the Afghan National Security Forces.
whether $454.9 million in airlift prices were fair    The United States continues to invest significant
                                                                                                                 DoD IG reviewed testing and quality of
and reasonable, as well as other contracting ad­      resources into these efforts, which are critical to        warfighter protective equipment.

ministration and oversight challenges impacting       enable U.S. combat forces to start a condition-
theater operations.                                   based drawdown this summer.

One of the primary missions directly impacting        DoD IG will continue to focus on protecting the
the ability of the Department to achieve national     warfighter by investigating significant fraud and
strategic goals in Iraq and Afghanistan is the        corruption impacting crucial DoD operations
development of effective security forces in each      throughout Southwest Asia. The areas of partic­
country. Specific focus areas for DoD IG over­        ular emphasis are schemes that potentially affect
sight in Iraq include monitoring the training,        the health, safety, welfare, and mission-readiness
mentoring, and equipping of the Iraqi security        of U.S. troops assigned to theater.
forces, and the transition of the management of
this mission to DoS. In November, DoD IG is­          In addition to continuing oversight of Overseas
sued a report identifying challenges related to       Contingency Operations contract administra­
the U.S. government efforts to develop the logis­     tion and oversight, other primary areas of em­
tics capability of the Iraqi Security Forces. DoD     phasis during the remainder of FY 2011 are: in
IG also monitors the development of the Afghan        Iraq-- asset accountability, base closure process,
National Security Forces and issued a report as­      and contractor demobilization; and in Afghani­
sessing the efforts to train, equip, and mentor the   stan-- safety and protection of forces, training of
expanded Afghan National Police.                      the Afghan National Police, management and
                                                      execution of the approximate additional $14.2
DoD IG conducts investigations in its continu­        billion designated for the Afghan Security Forc­           DoD IG leadership at International
ing effort to support the U.S. mission in Afghani­    es Fund, logistics challenges in moving goods              Security Assistance Force headquarters.

stan and Iraq. For example, DoD IG committed          and supplies into and out of Afghanistan, mili­
criminal investigative resources to Task Force        tary construction projects, training Afghans to
2010 and Task Force Shafafiyat, which are DoD­        maintain infrastructure projects, and financial
led initiatives to combat corruption in Afghani­      management issues such as the Commander’s
stan. A recent investigation involved an invest­      Emergency Response Program and vendor pay­
ment company targeting deployed members and           ments.
defrauding them in a Ponzi scheme. DoD civil­
ians were conned out of more than $80 million         Background
with none of the funds invested as promised. An­
other investigation resulted in the imprisonment
                                                      The Department’s military enterprise, along with           Health Care

                                                      its personnel footprint, spans the globe and is a
of a DoD contractor for selling the Department        critical foundation of the United States’ abil­
expired or nearly expired food for personnel as­      ity to project power in support of national pri­
signed to various locations in the Middle East.       orities. Consequently, the DoD Military Health
                                                      System must be able to provide quality care for
Further, as of March 31, 2011, DoD IG had a           approximately 9.5 million beneficiaries. Because
total of 235 open investigations related to Over­     the Military Health System provides health care
seas Contingency Operations and agents in             support for the full range of military operations,
Southwest Asia were actively working 45 inves­        DoD’s challenge is magnified. The increased
tigative cases or proactive projects in theater. In   frequency and duration of military deployment

                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 11
IG Highlights



                                          further stresses the Military Health System in         DoD IG proactively targets health care fraud
                                          both the active and reserve components.                through task forces, strike teams, and under­
                                                                                                 cover operations.
                                          The DoD budget for health care cost in FY
                                          2010 was approximately $50 billion, a 61 per­          Health care fraud costs the country an estimated
                                          cent increase since FY 2005 ($31 billion). With        $60 billion a year. Health care fraud is a rising
                                          the United States engaged in Overseas Contin­          threat, with national health care spending top­
                                          gency Operations in Iraq and Afghanistan, and          ping $2 trillion and expenses continuing to out­
 DoD IG provides oversight of health      support to other efforts in the Middle East, the       pace inflation.
 care challenges facing the Department.   medical care required by military personnel is
                                          expected to increase over the next several years.      A health care fraud investigation resulted in the
                                                                                                 return of $750 million to the U.S. government
                                          DoD IG expends resources to ensure the ef­             by GlaxoSmithKline and Roche Holding for
                                          fectiveness of programs designed to protect the        violations of current Good Manufacturing Pro­
                                          health and safety of DoD personnel. This in­           cedures at their manufacturing plant in Puerto
                                          cludes focusing on warfighters, civilians, coali­      Rico. The violations included product mix-ups,
                                          tion partners, defense contractors, and wounded        sub-potent and over-potent products, inade­
                                          warrior care, not only during contingency oper­        quate or non-existent calibration of equipment
                                          ations, but also in planning for the realignment       and instruments, and microbial contamination
                                          of forces to Guam and anywhere else the Depart­        of the products.
                                          ment has a presence.
                                                                                                 Another joint DoD IG investigation determined
                                          In Southwest Asia, DoD IG has issued reports on        that Allergan promoted Botox for off-label in­
                                          unauthorized traumatic brain injury research in        dications that were not medically accepted and
“ The DoD budget                          Iraq. Recent investigations by DoD IG examined         therefore not covered by federal health care
                                          the death of military and civilian personnel in        programs. Allergan pled guilty to the unlawful
for health care costs                     Southwest Asia, and the introduction of tainted        promotion of off-label uses and paid the U.S.
in FY 2010 was                            drugs into the DoD health care system.                 government $375 million in fines and forfeited
approximately $50                                                                                assets.
billion, a 61 percent                     While DoD must be actively engaged to be suc­
increase since FY 2005                    cessful in this effort, it must do so during a time    DoD IG made recommendations to enhance a
                                          of growing fiscal austerity, budget constraints,       U.S. Army Warrior Care and Transition Unit
($31 billion).”                           legislative imperatives, and inflation, all of which   program. WTUs, established by both the U.S.
                                          make cost control difficult. In this environment,      Army and the Marine Corps, were designed to
                                          it is critical for DoD IG to maintain vigorous         manage the care and transition either back to
                                          oversight of the health care challenges facing the     military units or into civilian life of wounded,
                                          Department. During this reporting period, the          ill, and injured from Operation Iraqi Freedom
                                          oversight efforts of DoD IG focused on medical         and Operation Enduring Freedom. There are
                                          support to U.S. troops involved with operations        29 Warrior Transition Units in the Army with
                                          in Southwest Asia and health care fraud investi­       approximately 10,000 soldiers and two Marine
                                          gations.                                               Corps Wounded Warrior Battalions with ap­
                                                                                                 proximately 1,000 Marines.
                                          Recent Activities                                      DoD IG identified a number of significant chal­
                                          The primary focal points of health care investi­       lenges in the WTU at Fort Sam Houston that, if
                                          gations are harm to the patient, and health care       addressed by Brooke Army Medical Center man­
                                          providers involved in corruption or kickback           agement, would increase program effectiveness.
                                          schemes. Investigations also examine allegations       These challenges included developing an opera­
                                          of overcharging for medical goods and services,        tional definition of, and measurable criteria for
                                          off-label marketing of drugs, and unauthorized         a “successful” end-state for a Warrior; carefully
                                          individuals receiving TRICARE health benefits.         and consistently applying Army eligibility crite­

 12 SEMIANNUAL REPORT TO THE CONGRESS
ria to individuals considered for assignment or
                                                    Background
attachment to the WTU; and determining case
loads by the complexity of Warriors’ care and
                                                    The secretary of defense announced a series of            Efficiencies 

needs, rather than by numerical staffing ratios.
                                                    initiatives designed to reduce overhead, dupli­
                                                    cation, and excess in the Department, and, over                  in the
DoD IG also assessed allegations that a military
physician conducted sub-standard human sub­
                                                    time, instill a culture of savings and restraint in
                                                    America’s Defense institutions. The purpose is to         Department
                                                    significantly reduce excess overhead costs and
ject research on deployed, injured U.S. Service
                                                    apply the savings to force structure and modern­
members at Camp Al Taqaddum, Iraq, between
                                                    ization. These initiatives represent the latest ef­
December 2008 and March 2009. The U.S. Navy
                                                    forts to balance the priorities of the department
physician appeared to have misled research au­
                                                    and reform the way the Pentagon does business.
thorities and executed a defective medical re­
                                                    The secretary called on the Department to take
search protocol, which may have injured par­
                                                    a hard, unsparing look at how it is staffed, orga­
ticipating personnel. This research involved
                                                    nized, and operated.
potential medical research misconduct, possible
sub-standard patient care, and revealed weak­
                                                    The under secretary of defense for acquisition,
nesses in the process used during the review and
                                                    technology and logistics, in response, issued
approval of the medical research in Iraq.
                                                    guidance for DoD acquisition professionals to
                                                    obtain greater efficiency and productivity in
Moving Forward                                      Defense spending. The guidance dealt with the
DoD IG will continue to focus resources on the      roughly $400 billion of the Defense budget spent
critical area of providing care for Department      on goods (weapons, electronics, and fuel) and
personnel. The challenge to DoD resources will      services (IT, knowledge based, facilities, trans­
remain significant in the near future as increas­   portation). The under secretary focused on five            DoD IG provides oversight of DoD
                                                    target areas: establish affordability and control          weapons systems acquisitions.
ing numbers of service members return from
deployments with psychological health issues        cost growth, incentivize productivity and inno­
and traumatic brain injuries.                       vation in industry, promote real competition,
                                                    improve tradecraft in services acquisitions, and
The Department will also continue to address        reduce non-productive processes and bureau­
the psychological effects of deployment on fam­     cracy.
ily members and non-active duty personnel.
                                                    As the primary oversight organization for the
DoD IG is planning to assess Warrior Care and       Department, DoD IG is supporting these ini­
Transition programs to manage the care and          tiatives by conducting reviews that identify ad­
transition of at Fort Drum, N.Y.; Camp LeJeune,     ditional, significant savings and efficiencies in
N.C.; Joint Base Lewis-McChord, Wash.; Fort         areas such as excess inventory and spare parts,
Riley, Kan. and Camp Pendleton, Calif.              questionable costs and contract prices, and im­
                                                    proper payments. DoD IG identified $193 mil­
Other health care focus areas will include en­      lion in potential monetary benefits and seized
suring the efficiency and effectiveness of health   and recovered another $1.5 million. DoD IG,
care programs in place to support the Guam re­      through a series of acquisition and contract
alignment, and continuing to hold health care       audits and investigations of procurement and
professionals and drug companies accountable        health care fraud, continues to focus on reducing
for actions that detract from the quality of care   redundancies and eliminating fraud, waste and
provided to members of the Department, their        abuse. Particularly with contingency contract­
families, and other eligible recipients.            ing, audits and investigations have found that the
                                                    pace and urgency associated with the war effort
                                                    often leads to shortcuts in contracting controls
                                                    which leads to fraud and waste of Department
                                                    and taxpayer dollars. Corrective action based on


                                                                                                          OCTOBER 1, 2010 TO MARCH 31, 2011 13
IG Highlights



                                       DoD IG recommendations will support Depart­           Of all the forms of white-collar crime, procure­
                                       ment efforts to reduce redundancy and eliminate       ment fraud investigations are probably the least
                                       waste.                                                visible, yet the most costly. In part, procure­
                                                                                             ment fraud is a hidden byproduct of seemingly
                                                                                             legitimate transactions often involving millions
                                       Recent Activities                                     of dollars. As these crimes are investigated and
                                       DoD IG focuses oversight efforts on DoD ac­           successfully prosecuted, they also serve as a de­
                                       quisition, contract, and financial management         terrent for future fraud, contributing to efficien­
                                       processes to identify risks and vulnerabilities to    cies and preventing the government from doing
 DCIS investigates procurement fraud
 within the Department.                the operations and programs of the Department.        repeated business with companies that fail to
                                       Through previous IG oversight efforts, DoD IG         comply with FAR requirements.
                                       is routinely making recommendations to the
                                       Department on how to purchase goods and ser­          DoD IG is focusing resources to assist the De­
                                       vices more efficiently, how to better manage the      partment in improving its efforts to eliminate
                                       taxpayers’ money, and how to reform the way it        improper payments. Improper payments are
                                       does business in general.                             payments to the wrong person, for the wrong
                                                                                             amount, or for the wrong reason. During this
                                       DoD IG continues to report inefficient contract­      reporting period, DoD IG reported that the De­
                                       ing practices such as limited competition, and        partment did not review approximately $167.5
                                       failure to determine price reasonableness and         billion of the $303.7 billion in gross outlays for
                                       appropriate contract oversight. For example,          high dollar overpayments nor did DoD report
                                       lack of adequate oversight of contract costs and      all overpayments. Unless DoD implements im­
                                       performance by DLA resulted in potential over­        provements with the data collection methodol­
                                       payment to the contractor about $124.3 million        ogy and oversight, DoD will continue to under­
                                       for transportation and material costs, and pay­       state the Department’s high dollar overpayments
                                       ment of approximately $454.9 million without          and error rate.
                                       incorporating the requirement in the contract
                                       or documenting whether the price was fair and
                                       reasonable. Ensuring that the Department gets         Moving Forward
                                       it right in the beginning – accurately defining       DoD IG will continue to support Department
                                       requirements, selecting the appropriate contract      initiatives to reduce overhead, duplication, and
                                       type, allowing competition, obtaining fair and        excess in the Department by focusing oversight
                                       reasonable prices, and then providing appropri­       on areas where DoD IG can assist the Depart­
                                       ate contractor oversight will reduce the occur­       ment to mitigate the risk of financial losses from
                                       rences of inefficient contracts and the failure of    fraud, waste, and abuse. DoD IG oversight will
                                       contractors to provide what the Department re­        include reviews of military construction con­
                                       quired.                                               tracts, subsistence, maintenance, and service
“ DoD IG is focusing                                                                         contracting, material purchases made through
resources to assist                    DoD IG continues to identify contract adminis­        partnership agreements, weapon systems acqui­
                                       tration and oversight issues that, if corrected and   sition, improper payments, and procurement
the Department in                      a more proactive approach is used, should sup­        fraud.
improving its efforts                  port the Department efforts to achieve greater
to eliminate improper                  efficiencies. For example, reports on contract­       In addition to supporting DoD in identifying
payments.”                             ing identified inadequate review of invoices to       efficiencies, DoD IG is reviewing its priorities,
                                       ensure contractors are entitled to the payments       staffing, and operations to identify efficiencies
                                       requested. Also identified were purchases of un­      and costs savings. DoD IG will continue to mon­
                                       approved equipment and the failure to definitize      itor and adjust contracts, facilities, and resources
                                       contract actions in a timely manner, which re­        as we identify cost reduction opportunities and
                                       sulted in DoD assuming greater risk of increased      the most efficient maximization of IG resources.
                                       costs and payment of excess profit.



 14 SEMIANNUAL REPORT TO THE CONGRESS
                  2


Core Mission Areas

Core Mission Areas



                                         The following are highlights of DoD IG audit          program worth more than $19 billion.

Audits
                                  work during the reporting period. DoD IG
                                         performed audits in the following categories:
                                                                                               Findings: BAMS contracting officials did not
                                                                                               review 39 contractor bills or validate whether
                                         •		 Acquisition Processes and Contract                the contractor was entitled to $329.3 million in
                                             Management                                        payments; create or maintain a complete govern-
                                         •		 Financial Management                              ment-furnished property listing; or properly plan
                                         •		 Health and Safety                                 to share more than 5,000 specialized tools and
                                         •		 Information Assurance, Security, and              testing equipment, worth more than $150 mil­
                                             Privacy                                           lion, with the Air Force Global Hawk program.
                                         •		 Joint Warfighting and Readiness                   As a result, the program was at risk for increased
                                                                                               costs, schedule delays, and not meeting the
                                                                                               needs of the warfighter. Additionally, based on
                                         Acquisition Processes &                               DoD IG inquiries, Northrop Grumman reduced
                                         Contract Management                                   costs on the contract by $206,000 for unallow­
                                                                                               able travel expenses. Defense Contract Manage­
                                         DoD IG continues to focus its efforts on DoD
                                         acquisition and contract management processes         ment Agency officials did not create an adequate
                                         as well as the risks and vulnerabilities identified   quality assurance plan, perform inspections of
                                         by the Department and through previous over­          contractor work, re-validate changes to Earned
                                         sight efforts. Over the last several years, DoD       Value Management systems or perform surveil­
DoD IG reviewed the contract for Broad   has recognized and taken action to reform how         lance of the systems. As a result, contract quality
Area Maritime Surveillance program.
                                         it does business, purchases goods and services,       requirements may not be met and Navy and Of­
                                         and manages taxpayer dollars. However, even           fice of the Secretary of Defense acquisition offi­
                                         with reforms such as increasing the size of the       cials’ decisions based on contractor systems that
                                         cadre of acquisition professionals to support de­     may not be fully reliable.
                                         ployed forces and humanitarian operations, the        Result: DoD IG recommended the Defense
                                         Department continues to experience shortfalls         Contract Audit Agency, DCMA, and Naval Air
                                         in its management of acquisitions and contracts.      Systems Command officials:
                                                                                               •		 Expedite the incurred cost audits.
                                         During this reporting period, DoD IG issued           •		 Conduct an administrative review of the
                                         reports with recommended corrective actions                Broad Area Maritime Surveillance contract­
                                         for improving requirements definition, con­                ing officials.
                                         tract selection, price reasonableness, contract       •		 Create and maintain a complete and audit-
                                         administration and oversight, and performance              able government-furnished property listing.
                                         of inherently governmental functions. DoD IG          •		 Perform contractor surveillance and devel­
                                         oversight efforts continue to indicate that the            op an acceptable quality assurance surveil­
                                         pace and urgency associated with Overseas Con­             lance plan.
                                         tingency Operations often leads to shortcuts in       •		 Re-validate outdated or previously acquired
                                         contracting controls. Additionally, periodic re­           Earned Value Management systems.
                                         views of interagency contracting and the use and      •		 Perform surveillance of the systems.
                                         administration of undefinitized contract actions      Report No. D-2011-028
                                         continue to reveal recurring deficiencies and the
                                         need for improvements with their use.                 Competition Issues and Inherently
                                                                                               Governmental Functions Performed by
                                         Contract Oversight for the Broad Area                 Contractor Employees on Contracts to Supply
                                         Maritime Surveillance Contract Needs                  Fuel to U.S. Troops in Iraq
                                         Improvement                                           Overview: Congressman Henry Waxman, for­
                                         Overview: DoD IG issued the second report on          mer chairman of the House Committee on Over­
                                         the Broad Area Maritime Surveillance program.         sight and Government Reform, raised concerns
                                         The program contract with Northrop Grumman,           relating to prices paid on a series of fuel supply
                                         valued at $1.8 billion, was in the third year of a    contracts awarded to the International Oil Trad­
                                         7-year contract and is part of a major acquisition    ing Company.

16 SEMIANNUAL REPORT TO THE CONGRESS
Findings: DLA Energy contracting officers did        reasonableness of the offerors’ proposed prices
not perform an adequate proposal analysis for        to supply fuel to contingency operations, and
three of four contracts valued at approximately      designate and use qualified government person­
$2.7 billion that were awarded to the company to     nel to accept the fuel.
supply fuel to U.S. troops in Iraq. The proposal     Report No. D-2011-049
analyses for the three contracts were inadequate
because the contracting officer for those con­       Improvements Needed in Contract
tracts:                                              Administration of the Subsistence Prime
•		 Primarily used adequate price competition        Vendor Contract for Afghanistan                            DoD IG reviewed contracts to supply
     as the justification to support price reason­   Overview: The director, DLA, is the executive              fuel to U.S. troops in Iraq.

     ableness even though the company may            agent for procuring, managing, distributing, and
     have reasonably anticipated no competition      ensuring the wholesomeness of the subsistence
     because no one else could transport the fuel    products throughout the supply chain. DLA
     through Jordan.                                 Troop Support which has overall responsibil­                       “The contracting
•		 Did not identify the unusual circumstances       ity for providing worldwide dining hall support
                                                                                                                officer....failed to obtain
     of these procurements, which dictated that      to authorized customers, to include providing
     some type of cost or pricing data and appro­    contract administration. To assist them in ac­               adequate support that
     priate field pricing support were needed to     complishing their mission, DLA used the Prime                     the agreed-to fuel
     support price reasonableness.                   Vendor Program. Prime vendor is a concept of                   prices were fair and
The contracting officer had limited data to sup­     support whereby a single commercial distribu­                            reasonable.”
port costs for the non-fuel component, such as       tor serves as the major provider of products to
transportation, of approximately $1.1 billion        various federal customers within a geographi­
and failed to obtain adequate support that the       cal region or zone. Usually, the prime vendor is
agreed-to fuel prices were fair and reasonable.      required to deliver the items within a specified
DoD IG estimated that DLA Energy paid the In­        period after the order is placed. The prime ven­
ternational Oil Trading Company approximately        dor provides the items either at the cost paid to
$160 to $204 million (or 6 to 7 percent) more        obtain them or at a price agreed to in advance.
for fuel than could be supported by price or cost    As of May 31, 2010, DLA Troop Support person­
analysis. DLA Energy contracting officers inap­      nel paid the prime vendor about $3 billion, in­
propriately used the Logistics Civil Augmenta­       cluding $1.6 billion for food and water and $1.4
tion Program contractor to accept fuel at three      billion for nonfood items, such as transportation
Defense Fuel Support Points located in Iraq. Al­     and storage costs.
though a contractor may be used to receive ship­     Findings: The subsistence prime vendor for Af­
ments of government-owned fuel, a contractor         ghanistan provided the food products required
may not be used to accept title to fuel on behalf    by the contract. However, subsistence contract­
of the government. The LOGCAP contractor             ing officials at DLA Troop Support did not pro­
was accepting the fuel because DLA Energy con­       vide sufficient oversight of contract costs and
tracting officers did not:                           performance. Specifically, the contracting offi­
•		 Assign responsibility for acceptance to a        cer did not adhere to certain provisions of the
     contracting officer representative, a cogni­    Federal Acquisition Regulation and the DoD
     zant contract administration office, or an­     supplement, or develop a Quality Assurance
     other agency.                                   Surveillance Plan and written procedures to
•		 Adhere to contract terms requiring the use       monitor contractor costs and performance. The
     of the DD Form 250 receiving report.            review showed that troop support personnel:
•		 Negotiate an agreement with the Army Sus­        •		 Overpaid the prime vendor potentially
     tainment Command for government accep­                $98.4 million in transportation costs.
     tance of the fuel that the company delivered    •		 Overpaid the prime vendor approximately
     to the contractor-operated fuel sites.                $25.9 million for packaging costs.
Result: DoD IG recommended the commander,            •		 Paid $454.9 million to the prime vendor for
DLA Energy, obtain cost or pricing data and ap­            airlifting fresh fruit and vegetables without
propriate field pricing assistance to support the          incorporating the airlift requirement in the

                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 17
Core Mission Areas



                                         contract and without documenting whether         71 non-LOGCAP contract requirements valued
                                         the airlift price was fair and reasonable.       at approximately $1 billion. Further, LOGCAP
                                    •		 Did not validate whether $103.6 million in        officials did not appropriately address potential
                                         packaging costs was accurate and charge­         organizational conflicts of interest or the sup­
                                         able to the contract.                            port contractor’s access to proprietary informa­
                                    •		 Did not monitor the accountability of gov­        tion with regard to non-LOGCAP contracts.
                                         ernment-furnished material.                      Army contracting officials allowed the support
                                    Also, troop support personnel billed the Army         contractor to assist in developing requirements
DoD IG found improvements were      $56.5 million in transportation, triwall packag­      for non-LOGCAP contracts on which the sup­
needed in prime vendor contracts.   ing, and storage costs to the incorrect fiscal year   port contractor could have potentially compet­
                                    appropriation for FYs 2006 through 2009. Cor­         ed. This could have violated federal regulations
                                    recting the billing problems may cause Antidefi­      by providing support contractors with other
                                    ciency Act violations.                                contractors’ proprietary information. The pro­
                                    Result: The commander, DLA Troop Support,             curing contracting officer issued a task order
                                    should direct responsible officials to:               for base closure assistance teams, valued at $9.3
                                    •		 Establish fair and reasonable prices for          million, that was outside the scope of the sup­
                                         transportation, triwall packaging, and airlift   port contract. Rock Island Contracting Center
                                         costs; and modify the contract to incorpo­       and LOGCAP officials concluded that the task
                                         rate those prices.                               order could be executed to support LOGCAP
                                    •		 Compute and recover overpayments for              even though the work was to support the Multi-
                                         transportation and packaging costs.              National Corps-Iraq. However, the requirements
                                    •		 Refund $56.5 million to the Army that was         were not competed. The procurement contract­
                                         not charged to the correct FY appropria­         ing officer did not provide adequate oversight,
                                         tions and bill the Army $56.5 million using      and the contracting officer’s representative in-
                                         the correct FY appropriations.                   theater did not adequately monitor the contrac­
                                    Report No. D-2011-047                                 tor’s performance. The PCO did not develop a
                                                                                          requirements-based quality assurance surveil­
                                    LOGCAP Support Contract Needs to Comply               lance plan and did not effectively communicate
                                    With Acquisition Rules                                with the representative.
                                    Overview: DoD IG reviewed the management              Result: The procurement contracting officer has
                                    and administration of the Army Logistics Civil        no assurance that the Army received services in
                                    Augmentation Program support contract, val­           accordance with contract requirements or that a
                                    ued at approximately $117 million. The Army           portion of the contractor’s $2.3 million in per­
                                    determined the government needed an indepen­          formance-based award fees was justified. DoD
                                    dent planning contractor in order to avoid the        IG recommended:
                                    real or perceived conflict of having one of the       •		 The LOGCAP support contract officer com­
                                    LOGCAP IV performance contractors plan and                 pete non-LOGCAP requirements.
                                    develop task order performance work statements        •		 Non-LOGCAP contract officers should also
                                    that would be competed on by all LOGCAP                    advise bidders that a third-party contractor
                                    IV performance contractors. According to the               may have access to their proposals.
                                    LOGCAP IV acquisition plan, the independent           •		 The LOGCAP support contract officers pro­
                                    contractor would work closely with government              hibit the support contractor from perform­
                                    staff in developing the plans and coordinate with          ing work on any contract resulting from
                                    the performance contractors on those plans.                their services, not exercise the option year
                                    Findings: Army contracting officials did not               for the base closure assistance team task
                                    properly manage this contract, instructed the              order, write acceptable quality assurance-
                                    contractor to perform work outside the scope               surveillance plans for each task order, and
                                    of the contract, and did not provide adequate              develop and implement a process for com­
                                    oversight and surveillance. LOGCAP officials               municating more effectively with the con­
                                    instructed the support contractor to provide re­           tracting officer’s representative.
                                    quirements development assistance for at least        Report No. D-2011-032

18 SEMIANNUAL REPORT TO THE CONGRESS
Competition Should Be Used for Instructor Ser­         mended that the assistant secretary of the Army                      “The TACOM
vices for the Mine Resistant Ambush Protected          (financial management and comptroller) initiate                Contracting Center
Vehicles                                               a preliminary review of the potential Antidefi­
                                                                                                                  awarded a sole-source,
Overview: This is the second report in a se­           ciency Act violation; and the executive director,
ries addressing the maintenance support con­           TCC, develop procedures and train contract­                   time-and-materials
tracts for the mine resistant ambush protected         ing officials on the requirement to treat option            contract for instructor
vehicles. To facilitate the sustainment of the         periods as separate contracts from base periods                 services, valued at
MRAP vehicles and because requirements for             when obligating funds for severable services.               $55.5 million, when a
the MRAP vehicles were new and unfamiliar,             Report No. D-2011-036
                                                                                                                 competitive, fixed-price
Marine Corps Systems Command contracting
officials procured instructor services to provide      Marine Corps Response to Nonlethal Laser                     contract was a better
MRAP vehicle operator and field-level main­            Dazzler Urgent Request                                                alternative.”
tainers new equipment training and cross-train         Overview: DoD IG reviewed the Marine Corps
other original equipment manufacturer field            decision-making process regarding the urgent
service representatives, instructors, mechanics        need for a nonlethal laser dazzler capability. Ma­
and government support personnel.                      rines needed this capability to more effectively
Findings: The TACOM Contracting Center                 secure checkpoints and convoys in Iraq by tem­
awarded a sole-source, time-and-materials con­         porarily obscuring the vision of civilians and de­
tract for instructor services, valued at $55.5 mil­    terring those civilians from getting too close and
lion, when a competitive, fixed-price contract         triggering an unnecessary escalation of force in­
was a better alternative. Specifically, officials      cident. However, Marines did not receive a ma­
inappropriately used an urgent and compelling          teriel solution for this dazzler capability during
need to circumvent competition and awarded             their forward deployment in 2006.
a sole-source contract to a preferred source on        Findings: Marine Corps Combat Develop­
a high-risk time-and-materials basis. This oc­         ment Command did not respond to the II Ma­
curred because officials did not adequately plan       rine Expeditionary Force (Forward) in a timely
for competing the procurement and did not as­          manner. Marine Corps officials took 15 months
sess the historical data of the contractor’s perfor­   to process this urgent request that could have
mance under a prior firm-fixed-price contract.         been fulfilled six months earlier had Marine
Further, officials obligated $23 million for in­       Corps leadership at two commands exercised
structor services that were not a bona fide need       sufficient oversight and effectively monitored
for FY 2009 because officials obligated FY 2009        the progress of the urgent request. Nearly four           DoD IG reviewed the urgent need for
                                                                                                                 nonlethal laser dazzler capability.
Operations and Maintenance funds against a 6           months elapsed because Marine Corps Combat
-month option for services that were not going         Development Command entertained the I Ma­
to be performed until January 2010. The incor­         rine Expeditionary Force (Forward) insistence
rect obligation caused a potential violation of the    for an unapproved laser dazzler solution rather
Antideficiency Act.                                    than pursue a viable Laser Safety Review Board
Result: DoD IG recommended that the program            approved solution. An additional two months
manager, Joint Program Office for the MRAP             elapsed due to administrative processing of the
vehicles, perform an analysis of the current in­       urgent request. As a result, Marines deployed to
structor services requirements and provide the         Iraq in 2006 were left without a nonlethal laser
analysis to the TACOM Contracting Center for           dazzler capability. Further, after the approved
use in awarding future contracts for instructor        lasers were procured, the I Marine Expedition­
services. DoD IG also recommended that the             ary Force (Forward) purchased 28 unapproved
executive director, TCC, develop a plan that ad­       lasers costing $323,324, which were not fielded
dresses procedures and milestones for compet­          in Iraq.
ing follow-on contracts for MRAP instructor            Result: The Marine Corps issued an order in Oc­
services and, in addition, perform a review of the     tober 2008 to improve the processing of urgent
contracting officials’ actions relating to the cir­    requests and track their status. To accomplish
cumvention of competition and use of an inap­          this goal, the Marine Corps Combat Develop­
propriate contract type. DoD IG further recom­         ment Command created the Web-based Virtual

                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 19
Core Mission Areas



                                   Urgent Universal Need Statement system, which         prepare detailed independent government cost
                                   provides users with visibility of the review chain    estimates for the 14 projects, or meet DoD fund­
                                   and status for urgent requests. The establish­        ing document specificity requirements for 19
                                   ment of this Web-based system should improve          DoD funding documents. These situations oc­
                                   the efficiency of the urgent needs process. DoD       curred because of the lack of DoD contracting
                                   IG recommended that the commandant of the             officer involvement. DoD IG also identified 31
                                   Marine Corps perform a review of the circum­          potential bona fide needs rule violations, val­
                                   stances that led to the purchase of the 28 unap­      ued at $641,188, due to a lack of defined policy
                                   proved lasers and, if appropriate, initiate correc­   on the financing of all types of contracts using
                                   tive action.                                          Research, Development, Test, and Evaluation
                                   Report No. D-2011-037                                 funds.
                                                                                         Result: DoD IG recommended that the under
                                   More DoD Oversight Needed for Purchases               secretary of defense for acquisition, technology,
                                   Made Through the Department of Energy                 and logistics resolve the Section 801 noncompli­
                                   Overview: As required by Section 804, Public          ance issues identified and acquisition executives
                                   Law 110-417, “Duncan Hunter National Defense          for the Army, Navy, and Air Force, and the di­
                                   Authorization Act for Fiscal Year 2009,” DoD          rector, Defense Threat Reduction Agency ensure
                                   IG reviewed DoD procedures for purchases              program and contracting officers are aware of
                                   through the Department of Energy, specifically        the responsibilities for obtaining and review­
                                   projects that DOE National Nuclear Security           ing detail cost information for Work For Others
                                   Administration sites performed under the DOE          projects.
                                   Work for Others program.
                             Report No. D-2011-021
                                   Findings: DoD requesting activities continue to 

                                   use DOE for assisted interagency acquisitions         FY 2008 and FY 2009 DoD Purchases Made
                                   despite the fact that DOE has not certified that it   Through the General Services Administration
                                   will comply with Defense procurement require­         Overview: As required by Public Law 110-181,
                                   ments in accordance with Section 801 of the           National Defense Authorization Act for Fis­
                                   FY 2008 National Defense Authorization Act.           cal Year 2008, DoD IG performed an audit of
                                   In addition, for all work for others projects that    DoD contracting through the General Services
                                   National Nuclear Security Administration sites        Administration to determine whether DoD and
                                   perform for DoD, National Nuclear Security Ad­        GSA improved their interagency purchasing
                                   ministration contracting officers do not record       practices since the last audit. DoD IG reviewed
                                   detailed procurement data into the Federal Pro­       50 purchases valued at $255 million at 10 DoD
                                   curement Data System-Next Generation data­            organizations and 35 of 50 purchases valued at
                                   base, make price reasonableness determinations,       $203 million at three GSA Client Support Cen­
                                   obtain certified cost or pricing data, designate      ters.
                                   contracting officer’s representatives, or designate   Findings: GSA has improved its funding and
                                   individuals to review contractor invoices. DOE        contracting practices. Specifically, GSA con­
                                   does not consider Section 801 applicable to re­       tracting and resource management officials
                                   imbursable activities performed by DOE and its        generally complied with the Federal Acquisition
                                   contractors. Since November 23, 2009, the direc­      Regulation and appropriation law when mak­
                                   tor, Defense Procurement and Acquisition Poli­        ing the 50 purchases on behalf of DoD. In ad­
                                   cy, has issued three Section 801 waivers allowing     dition, DoD fund management has improved.
                                   DoD to continue to do business with DOE on an         However, DoD organizations showed little
                                   interim basis. The most recent waiver, issued on      improvement in other areas since the FY 2005
                                   September 28, 2010, allowed DoD to do business        purchases audit. DoD officials did not perform
                                   with DOE during FY 2011 for DoD purchases             or inadequately performed acquisition planning
                                   up to $2.5 billion. The review of 14 Work for         for 36 of 50 purchases, did not develop or had
                                   Others projects, valued at $9.7 million, also de­     inadequate interagency agreements for 31 of 50
                                   termined that DoD officials did not adequately        purchases, and DoD and GSA officials incurred
                                   review contractor cost estimates for 11 projects,     potential Antideficiency Act violations for three

20 SEMIANNUAL REPORT TO THE CONGRESS
of 50 purchases. DoD and GSA officials did not        consistently comply with statutory requirements                 “DoD IG reviewed
ensure that contracting officer’s representatives     for managing 80 of the 88 UCAs. Contracting of­                  88 undefinitized
were assigned for 28 of 50 purchases did not          ficials did not:
have or had inadequate surveillance of contrac­       •		 Prepare adequate requests for authorization                contractual actions
tor performance for 32 of 50 purchases, and did             to issue 34 UCAs.                                        with a total not-to-
not collect past performance information for          •		 Justify the issuance of 34 UCAs.                        exceed value of about
28 of 50 purchases. Finally, GSA contracting          •		 Definitize 57 UCAs within required time-                $2.75 billion awarded
officials did not have support for price reason­            frames.                                                by the Marine Corps
ableness determinations for 14 of 35 purchases        •		 Support whether the contactor’s reduced
reviewed. DoD and GSA officials involved in the             risk during the undefinitized period was re­
                                                                                                                  Systems Command...”
purchases did not emphasize acquisition plan­               flected in profit for 45 UCAs.
ning and contract administration for the goods        •		 Obligate funds within limits for 54 UCAs.
and services acquired through interagency ac­         •		 Document that the government received a
quisition. DoD organizations had no assurance               fair and reasonable price on 15 UCAs.
that the purchases resulted in the best value for     MCSC contracting officials did not consistently
the government or that the terms and conditions       comply with UCA restrictions by:
of contracts were met.                                •		 Failing to follow statutory and DoD regula­
Result: DoD IG recommended that:                            tions for requesting to issue a UCA.
•		 The under secretary of defense for acquisi­       •		 Issuing unnecessary UCAs because of poor
     tion, technology, and logistics should work            acquisition planning.
     with GSA officials to enhance Part B of the      •		 Permitting customers to change require­
     interagency agreements to address recur­               ments after UCA issuance.
     ring problems identified in the report. The      •		 Accepting inadequate proposals from con­
     agreements should list the specific DoD and            tractors.
     GSA personnel who will be responsible for        •		 Failing to adequately document the profit
     the areas, and these individuals should sign           determination.
     Part B of the interagency agreements.            •		 Being unaware of funding limits.
•		 The under secretary of defense (comptrol­         •		 Failing to adequately document that the
     ler)/chief financial officer should direct the         Marine Corps received a fair and reasonable
     DoD components to initiate preliminary re­             price.
     views for the three potential Antideficiency     The Marine Corps assumed increased cost risk
     Act violations identified in the report.         in the award and negotiation process and may
•		 The under secretaries of the Army, Navy,          have paid excess profit.
     and Air Force and the directors of the De­       Result: MCSC agreed with DoD IG recom­
     fense agencies should establish a peer re­       mendations and indicated that they already
     view process to ensure that users of inter­      developed a draft Quick Reference Guide and
     agency contracting adhere to guidance.           automated tracking tool to be used by MCSC
Report No. D-2011-018                                 contracting personnel. Additionally, contracting
                                                      personnel are being instructed to better coordi­
Marine Corps Systems Command’s Use of                 nate with program managers and contractors.
Undefinitized Contractual Actions                     Report No. D-2011-001
Overview: DoD IG reviewed 88 undefinitized
contractual actions with a total not-to-exceed        Air Force Space and Missile Systems Center’s
value of about $2.75 billion awarded by the Ma­       Use of Undefinitized Contractual Actions
rine Corps Systems Command from FY 2004               Overview: DoD IG reviewed 27 UCAs with a
through 2009 to determine whether MCSC con­           total not-to-exceed value of about $4.8 billion
tracting officials complied with section 2326,        awarded by the Air Force Space and Missile Sys­
title 10, United States Code and whether they         tems Center during FY 2004 through September
appropriately justified and definitized UCAs at       18, 2009, to determine whether SMC person­
reasonable prices.                                    nel complied with the restrictions of the United
Findings: MCSC contracting officials did not          States Code and whether they appropriately jus­

                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 21
Core Mission Areas



                                    tified and definitized UCAs at reasonable prices.     Quick Reaction Memorandum “Concerns
                                    Findings: SMC officials did not consistently          Identified During the Department of Defense
                                    comply with statutory and DoD requirements            and Department of State Office of Inspectors
                                    for managing UCAs for 26 of the 27 UCAs re­           General Joint Audit of the Afghan National
                                    viewed. SMC personnel did not:                        Police Training Program”
                                    •		 Properly prepare a request for authorization      Overview: DoD IG and the Department of State
                                         to issue one UCA.                                OIG are reviewing the Afghan National Police
                                    •		 Definitize 18 UCAs within 180 days.               training program to evaluate their efforts to
 DoD IG and DoS OIG are reviewing   •		 Reflect the contractor’s reduced risk during      transfer contract administration for the Afghan
 Afghan National Police training.        the undefinitized period in negotiated profit    National Police Program. Specifically, DoD IG
                                         for three UCAs.                                  and DoS OIG are assessing the cost, perfor­
                                    •		 Adequately support whether the contrac­           mance measures, and planning efforts associat­
                                         tor’s reduced risk was reflected in negotiated   ed with the transfer to ensure enhanced contract
                                         profit for 11 UCAs.                              oversight, adequate funding and support, and
                                    •		 Obligate funds within allowable limits for        effective program management.
                                         three UCAs.                                      Findings: DoD IG identified problems that re­
“DoD IG and DoS OIG                 •		 Obligate funds according to contractor            quired immediate action by DoD officials. DoD
are assessing the cost,                  spending requirements for nine UCAs.             IG issued a memorandum on March 4, 2011,
                                    However, SMC contracting personnel adequate­          identifying concerns with the transition of the
performance measures,
                                    ly justified using all 27 UCAs. DoD IG reviewed       Afghan National Police training program. The
and planning efforts                and adequately documented their determination         memorandum cited concerns with organiza­
associated with the                 of price reasonableness for 26 of the UCAs.           tional staffing, project management, and policies
transfer to ensure                  SMC personnel did not consistently comply with        and procedures for approving purchase requests,
enhanced contract                   UCA restrictions by:                                  inventory receipts, and vouchers. Additional
oversight, adequate                 •		 Failing to explain the need to begin perfor­      concerns included the progress of DoD in iden­
                                         mance before definitization within the UCA       tifying and nominating an appropriate number
funding and support,                     authorization request.                           of contracting officer representatives to provide
and effective program               •		 Permitting contractors to submit inadequate       oversight of the ANP training program contrac­
management. ”                            proposals, the Air Force to change require­      tor.
                                         ments after personnel issued the UCAs, and       Result: DoD IG requested that DoD take im­
                                         overly large and complex procurements.           mediate corrective action to ensure it will be
                                    •		 Inappropriately determining that the              prepared to provide effective management and
                                         weighted guidelines did not provide ad­          oversight of the new ANP training program con­
                                         equate profit.                                   tract. DoD management took action to address
                                    •		 Not adequately documenting the basis for          concerns identified during fieldwork, to include
                                         determination of profit.                         using military personnel to temporarily fill va­
                                    •		 Not taking steps to implement the Office of       cant positions within the Training Program Sup­
                                         Defense Procurement and Acquisition Poli­        port Office until permanent civilian staff arrive.
                                         cy requirements for obligating funds.
                                    As a result, the Air Force assumed increased risk     American Recovery and Reinvestment Act-
                                    in the award and negotiation process and may          Modernization of Third Floor Utilities- Center
                                    have paid more profit than was necessary.             for Health Promotion and Preventative
                                    Result: Air Force officials agreed to develop a       Medicine, Aberdeen Proving Ground, Maryland
                                    metric for measuring contractor responsiveness        Overview: DoD IG reviewed the planning and
                                    in preparing qualifying proposals, require better     funding for the Recovery Act project, “Mod­
                                    coordination with customers to identify changes       ernization of Third Floor Utilities—Center for
                                    in government requirements, and require con­          Health Promotion and Preventive Medicine,” at
                                    tracting personnel to adequately document the         Aberdeen Proving Ground, Md., to determine
                                    profit determination for UCAs.                        whether the TRICARE Management Activity
                                    Report No. D-2011-024                                 and U. S. Army Medical Command personnel
                                                                                          complied with the Recovery Act requirements.

 22 SEMIANNUAL REPORT TO THE CONGRESS
Findings: TRICARE Management Activity and            Act funds available for other Army Recovery Act
U. S. Army Medical Command personnel did             Energy Conservation Investment Program proj­
not properly plan and support the cost or scope      ects.
of the Recovery Act project to ensure appropri­      Report No. D-2011-048
ate use of Recovery Act funds. MEDCOM per­
sonnel originally provided a DD Form 1391,           American Recovery and Reinvestment Act-
Military Construction Project Data,” August          DoD Data Quality Review Processes for the
2007, and other historical studies that did not      Period Ending December 31, 2009, Were Not
support the scope of the Recovery Act project or     Fully Implemented                                        DoD IG reviewed planning and fund­
its cost of $15.7 million.                           Overview: DoD IG reviewed whether DoD fully              ing for the modernization of utilities.

Result: TRICARE Management Activity officials        implemented an internal control structure that
canceled the Recovery Act project and made           was effective in ensuring recipient data was re­
$15.7 million in Recovery Act funds available        ported completely, accurately, and in a timely
for other projects.                                  manner; and that material omissions and sig­
Report No. D-2011-RAM-003                            nificant reporting errors were identified and
                                                     corrected.
American Recovery and Reinvestment Act­              Findings: DoD did not have adequate controls
“Facility Energy Improvements” and “Wind             in place to ensure recipient data was accurate
Turbine and Photovoltaic Panels” at Fort             and significant errors were identified and cor­
Wainwright, Alaska                                   rected. DoD did not fully implement an internal
Overview: DoD IG reviewed the planning,              control structure over American Recovery and
funding, initial project execution, and tracking     Reinvestment Act recipient reported data. This
and reporting phases for two Energy Conser­          occurred because DoD did not:
vation Investment Program projects, “Facility        •		 Establish a plan for performing data quality
Energy Improvements” and “Wind Turbine and                reviews that would identify material omis­
Photovoltaic Panels” at Fort Wainwright, Alaska.          sions and significant errors.
Findings: Fort Wainwright Directorate of Pub­        •		 Implement procedures to monitor contract­
lic Works and United States Army Corps of                 ing and fiscal officer data review processes
Engineers - Alaska District properly planned              as prescribed by the Office of Management
and supported the “Facility Energy Improve­               and Budget guidance.
ments” project to ensure DoD’s appropriate use       As a result, 1,943 recipient reports with a total
of Recovery Act funds. USACE-Alaska District         award amount of $1.7 billion contained 2,914
received funds in a timely manner and consis­        discrepancies on key award information. In ad­
tent with Office of Management and Budget            dition, DoD did not provide transparency and
guidance. USACE-Alaska District adequately           accountability of expenditures so that the public
performed initial project execution of the “Facil­   will know how, when, and where DoD Recovery
ity Energy Improvements” project and properly        Act funds were spent.
reduced its scope in order to award the project.     Result: DoD IG recommended that the deputy
Finally, USACE-Alaska District personnel en­         under secretary of defense (resource issues):
sured that the contractor maintained transpar­       •		 Establish a quality assurance plan, includ­
ency. Army personnel did not ensure the “Wind             ing monitoring procedures, to help ensure
Turbine and Photovoltaic Panels” project was              that recipient data are reported completely,
properly planned. Fort Wainwright Directorate             accurately, and timely as stated in OMB
of Public Works personnel failed to include all           Memorandum M-10-08.
costs necessary to complete the project and to       •		 Establish policies and procedures for per­
complete necessary wind studies prior to sub­             sonnel performing quality control reviews
mitting the project for consideration.                    and monitoring contracting and fiscal of­
Result: The Army Energy Conservation Invest­              ficer data review processes as required by
ment Program canceled the project from the                OMB Memorandum M-10-08.
Recovery Act program and a subsequent repro­         •		 Require periodic assessments of data quality
gramming action made $1.5 million in Recovery             review processes to evaluate, on an ongoing

                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 23
Core Mission Areas



                                          basis, recipient efforts to meet Recovery Act     Result: There were no recommendations.
                                          and OMB reporting requirements as stated          Report No. 11-INTEL-02
                                          in OMB Memorandum M-10-08.
                                       Report No. D-2011-052                                Audit of the Missile Defense Agency Special
                                                                                            Programs Base Realignment and Closure
                                       American Recovery and Reinvestment Act –             Planning
                                       U.S. Army Corps of Engineers’ Data Quality           Overview: DoD IG reviewed the preparations
                                       Review Processes of Civil Works Funding for          and planning by the Missile Defense Agency for
                                       the Period Ending December 31, 2009, Were            Special Access Programs related to its forthcom­
                                       Not Effective                                        ing relocation pursuant to the base realignment
                                       Overview: DoD IG reviewed whether USACE              and closure process. The overall objective was
DoD IG reviewed Missile Defense        fully implemented an internal control structure      to ensure that the Missile Defense Agency was
Agency preparations for BRAC move.
                                       that was effective in ensuring recipient data was    effectively following all DoD directives, poli­
                                       reported completely, accurately, and in a timely     cies and guidelines pertinent to its mission with
                                       manner; and that material omissions and sig­         respect to Special Access Programs. The audit
                                       nificant reporting errors were identified and        was in response to a request from the director,
                                       corrected.                                           Department of Defense Special Access Program
                                       Findings: USACE did not have adequate con­           Central Office.
                                       trols in place to ensure the accuracy of recipient   Result: The director, MDA concurred with each
                                       data and to identify significant errors. USACE       of the recommendations. This report is classi­
                                       internal control structure over recipient report­    fied.
                                       ing of ARRA of 2009 funds for civil works pro­       Report No. 11-INTEL-04
                                       grams for the period ending December 31, 2009,
                                       was not effective. The internal control structure
                                       was not effective because USACE did not pro­         Financial Management
                                       vide key award information to all recipients,        DoD IG continues to work closely with the De­
                                       perform adequate data quality reviews, accu­         partment to address its long-standing financial
                                       rately validate the number of “jobs retained or      management challenges and supports the DoD
                                       created” reported by recipients, and deter future    goal of achieving a favorable audit opinion for
                                       noncompliant recipients. USACE prevented the         DoD agency-wide financial statements and
                                       American public from knowing how, when, and          for the major DoD components. Over the last
                                       where its Recovery Act funds were spent.             six months, DoD IG has continued to provide
                                       Result: DoD IG recommended USACE imple­              oversight and address challenges in the areas of
                                       ment procedures to ensure compliance with            financial management and the American Recov­
                                       OMB guidance and develop and implement its           ery and Reinvestment Act of 2009.
                                       data quality review processes and procedures to
                                       ensure USACE is accurately identifying errors        The under secretary of defense (comptroller)/
                                       and validating jobs reported by recipients.          chief financial officer issued the DoD Financial
                                       Report No. D-2011-055                                Improvement and Audit Readiness Plan as part
                                                                                            of an initiative to improve financial management
                                       Report of the National Security Agency               within the Department. The FIAR Plan outlines
                                       Cryptologic Center Construction Project              the strategy, priorities and methodology of the
                                       Overview: DoD IG determined that NSA ap­             Department for achieving audit readiness. DoD
                                       propriately leased a facility using operation and    IG supports the objective of the plan, which is to
                                       maintenance funding for the relocation of a          provide ongoing, cross-functional collaboration
                                       Cryptologic Center. Other methods were used          with DoD components to yield standardized ac­
                                       to validate funding and acquisition decisions.       counting and financial management processes,
                                       However, the United States Code does not state       business rules, and data that will provide a more
                                       the type of funding used for leasing of facilities   effective environment to better support the war-
                                       nor does it address cases of leasing versus pur­     fighting mission. DoD IG also supports the De­
                                       chasing a facility or land.                          partment’s ongoing efforts to target achievable,
                                                                                            incremental change and to initiate the change

24 SEMIANNUAL REPORT TO THE CONGRESS
necessary for continual, sustainable improve­         focused on providing insight and valuable rec­
ment in financial management and the Ameri­           ommendations to managers as they focus and
can Recovery and Reinvestment Act of 2009.            prepare for audit readiness.

DoD IG issued 10 opinions with related reports        Insufficient Governance Over Logistics
on internal control and compliance with laws          Modernization Program System Development
and regulations on the FY 2010 DoD agency-            Overview: DoD IG reviewed the Army Work­
wide financial statements and seven component         ing Capital Fund system to determine whether
financial statements. Additionally, DoD IG en­        it was compliant with the U.S. Government
dorsed three opinions and related reports on          Standard General Ledger at the transaction
internal control and compliance with laws and         level. The Army reported to Congress that the
regulations. Eleven of these audits are required      Logistics Modernization Program would be the
by OMB while two are included because of their        Army Working Capital Fund system solution for
materiality to the DoD agency-wide financial          obtaining auditable financial statements.
statements. Although the Marine Corps pre­            Findings: After more than 10 years in devel­                  “DoD IG found that
pares its own financial statements, it is a report­   opment and $1.1 billion in cost, the Army has                  after more than 10
ing entity of the Department of the Navy; and         failed to deliver a system that is USSGL com­               years in development
therefore is included with Navy financial infor­      pliant. Army and DoD financial communities
mation. Due to the limitations on the scope of        did not establish the appropriate senior-level            and $1.1 billion in cost,
work, DoD received a disclaimer audit opinion.        governance needed to develop, test, and imple­             the Army has failed to
                                                      ment the financial management requirements                 deliver a system that is
Regarding the DoD agency-wide financial state­        and processes needed to record financial data                  USSGL compliant.”
ments, DoD IG identified 13 material weakness­        at the transaction level. As a result, the program
es within DoD in the areas of:                        was not substantially compliant with the Fed­
•		 Financial management systems                      eral Financial Management Improvement Act of
•		 Fund balance with treasury                        1996. Also, the system did not resolve any of the
•		 Accounts receivable                               Army Working Capital Fund internal control
•		 Inventory                                         weaknesses. Therefore, the Army will need to
•		 Operating materials and supplies                  spend additional funds to comply with USSGL
•		 General property, plant, and equipment            requirements in order to achieve an unquali­
•		 Government-furnished material and con­            fied audit opinion on its Army Working Capital
    tractor-acquired material                         Fund financial statements.
•		 Accounts payable                                  Result: DoD IG recommended the undersecre­
•		 Environmental liabilities                         tary of defense (comptroller)/chief financial of­
•		 Statement of net cost                             ficer and the deputy chief management officer
•		 Intragovernmental eliminations                    request that the OMB select the Logistics Mod­
•		 Other accounting entries                          ernization Program as a high-risk system for
•		 Reconciliation of net cost of operations to       review. Additionally, further program deploy­
    budget                                            ment should be delayed until, at a minimum,
                                                      the Army demonstrates that funding is available
Financial system audits are performed to evalu­       and it has an approved plan in place to comply
ate the adequacy of system controls. The perfor­      with the Standard Financial Information Struc­
mance of these audits helps to reduce the risk of     ture requirement as well as update guidance for
loss due to errors, fraud, and other illegal acts     specific general ledger accounts and transaction
and disasters that may cause the system to be         codes and validate compliance with these re­
unavailable. In addition, financial system audits     quirements. The assistant secretary of the Army
provide invaluable information on DoD efforts         (financial management and comptroller) should
to transform its systems and develop the Busi­        assume operational control over developing, ap­
ness Enterprise Architecture. In addition to the      proving, and implementing program financial
financial systems reports, DoD IG conducted           requirements.
several financial-related audits. These audits        Report No. D-2011-015


                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 25
Core Mission Areas



                                           Improving the Accuracy of Defense Finance            U.S. Central Command Headquarters’ Use of
                                           and Accounting Service Columbus 741 and 743          the Government Purchase Card
                                           Accounts Payable Reports                             Overview: DoD IG reviewed whether use of
                                           Overview: DoD IG reviewed whether the De­            government purchase cards by the U.S. Central
                                           fense Finance and Accounting Service Colum­          Command headquarters complied with applica­
                                           bus methodology for capturing accounts pay­          ble laws and regulations. Included in the scope
                                           able balances to determine whether contracts         of the review was a universe of 6,934 purchase
                                           administered in the Mechanization of Contract        card transactions totaling $7.9 million from July
DoD IG reviewed DFAS methodology           Administration Services systems results in ac­       1, 2008 through June 30, 2009.
for capturing accounts payable balances.   curate and timely accounts payable information.      Findings: The Air Force 6th Contracting Squad­
                                           Findings: DFAS did not collect accurate and          ron’s agency program coordinator did not ad­
                                           complete accounts payable balances to prepare        equately document the group training admin­
                                           the 741 and 743 reports. DFAS misstated $296.9       istered for approving officials and cardholders.
                                           million of accounts payable because it did not       This occurred because the agency program co­
                                           have adequate procedures in place for creating       ordinator did not follow Air Force guidance that
                                           accounts payable reports in the system and en­       required the coordinator to document training
                                           suring all valid accounts payable were included      sessions. Unless training is fully documented,
                                           in the report. DFAS Columbus did not:                the 6th Contracting Squadron cannot be certain
                                           •		 Properly account for some of the contract        that cardholders have taken all the necessary
                                                financing payments that it made.                training to ensure that only proper purchases
                                           •		 Input contract modifications into the sys­       are made. USCENTCOM cardholders made 10
                                                tem in a timely manner.                         inappropriate transactions out of the 120 trans­
                                           •		 Properly estimate the service invoices.          actions non-statistically selected. Also, eight of
                                           •		 Ensure that its methodology used correct         the 120 transactions sampled, valued at $38,081,
                                                contract information to calculate accounts      were purchases of sensitive or pilferable materi­
                                                payable.                                        als that program personnel should have record­
                                           •		 Generate an accounts payable balance when        ed in property record systems. The deficiencies
                                                a Mechanization of Contract Administra­         occurred because USCENTCOM personnel did
                                                tion Services receipt record was not created.   not follow or enforce the purchase card program
                                           Until DFAS Columbus makes improvements               rules and regulations for property accountabil­
                                           to the accuracy of the accounts payable bal­         ity and inventory management. As a result, the
                                           ances, the Military Departments will not be          USCENTCOM wasted funds by procuring pro­
                                           able to fully rely on the 741 and 743 accounts       hibited items and by splitting purchases that did
                                           payable balances. In addition, correcting the ac­    not receive the benefit of contract competition.
                                           counts payable report weaknesses will assist the     It also risked financial loss of materials through
                                           military departments in their efforts to prepare     inadequate property accountability. The US­
                                           audit-ready Statements of Budgetary Resources.       CENTCOM Protocol Office did not properly
                                           Result: DoD IG recommended the director, De­         account for 186 gift items, worth $5,765, and
                                           fense Finance and Accounting Service Colum­          the gifts available exceeded current FY needs for
                                           bus, review procedures for capturing all valid       its inventory of gifts. These conditions occurred
                                           accounts payable on the 741 and 743 reports.         because the Protocol Office personnel did not
                                           DFAS Columbus should establish procedures            properly implement inventory procedures. The
                                           to reconcile the accounts payable reports to in­     lack of accountability over the gift inventory
                                           voiced amounts; develop a process to accurately      could result in a diversion of assets from official
                                           value accounts payable associated with contract      uses. Additionally, the improper and question­
                                           financing payments, general accounts payable         able use of official representation funds for an
                                           balances when a Mechanization of Contract Ad­        excessive inventory prevented those funds from
                                           ministration Services receipt record is not cre­     being used for more effective purposes.
                                           ated; and document procedures for compiling          Result: DoD IG recommended the commander,
                                           the accounts payable reports.                        USCENTCOM, take appropriate actions to dis­
                                           Report No. D-2011-022                                pose of prohibited or excessive items, investigate

26 SEMIANNUAL REPORT TO THE CONGRESS
selected purchases, and require personnel to         rector, Defense Finance and Accounting Service                 “We assessed U.S.
comply with policy requiring supporting docu­        should develop procedures to statistically sam­            government efforts to
mentation, property accountability, and inven­       ple commercial pay entitlement systems; and
tory management. The commander, 6th Air Mo­          develop internal controls to ensure only entitled
                                                                                                                 develop the logistics
bility Wing, should improve the record-keeping       individuals with valid Social Security numbers            sustainment capability
of the training taken by government purchase         receive travel payments.                                     of the Iraq Security
card approving officials and cardholders.            Report No. D-2011-050                                                   Forces...”
Report No. D-2011-034
                                                     Audit of a Classified Program
DoD Needs to Improve High Dollar                     Overview: DoD IG reviewed the audit that was
Overpayment Review and Reporting                     conducted in response to a request from the di­
Overview: DoD IG reviewed DoD compliance             rector, DoD Special Access Program Central Of­
with Executive Order 13520, “Reducing Im­            fice. The overall objectives were classified.
proper Payments,” November 20, 2009. Specifi­        Result: Managements’ comments were respon­
cally, DoD IG reviewed DoD’s methodology and         sive to five of the six recommendations.
support for identifying, recovering, preventing,     Report No. 11-INTEL-07
and reporting high dollar overpayments.
Findings: The First Quarter FY 2010 High Dol­
lar Overpayments Report, issued by the under         Health and Safety
secretary of defense (comptroller)/chief fi­         America’s men and women in uniform are the
nancial officer was inaccurate and incomplete.       Department’s most important resource. A top
Specifically, DoD did not review approximately       priority of DoD IG is conducting oversight that
$167.5 billion of the $303.7 billion in gross out­   assesses DoD efforts to protect the health and
lays for high dollar overpayments. Additionally,     safety of U.S. troops. DoD IG is committed to
some overpayments were not reported, and the         supporting the warfighter to ensure that the
report did not include sufficient information        Department provides them with the type of
about recoveries and corrective actions. The         high quality, reliable equipment that will not
report was inaccurate and incomplete because         only enable them to complete their mission,
the under secretary of defense (comptroller)/        but also survive in hostile environments around
chief financial officer and the director, Defense    the world. This includes providing them with
Finance and Accounting Service, did not devel­       the proper body armor, equipment, and safety
op a sound methodology or perform adequate           systems. DoD IG completed two audits to assist
oversight for collecting and reporting compre­       the Department in this critical area and issued a
hensive data. Unless the under secretary of de­      quick-reaction memorandum addressing safety
fense (comptroller)/chief financial officer and      concerns related to a construction project.
director, Defense Finance and Accounting Ser­
vice, take action to improve the data collection     Live Fire Testing of Light Tactical Wheeled
methodology and oversight, DoD will continue         Vehicles was Effective for the Portions
to understate the high dollar overpayments and       Completed
error rate of the Department.                        Overview: DoD IG conducted the audit
Result: The under secretary of defense (comp­        to determine whether the Army effectively
troller)/chief financial officer should develop a    planned, executed, and evaluated high mobility
methodology to ensure adequate coverage and          multi-purpose wheeled vehicle live fire testing
oversight of DoD high dollar overpayments re­        and whether DoD exercised adequate live fire
porting including steps to perform a reconcili­      test and evaluation oversight of the Army’s              Testing of the HMMWV program was

ation of all DoD outlays reviewed for improper       HMMWV Program. This report is the second                 determined to be effective.

payments to the Statement of Budgetary Re­           in a series of reports on the Army’s efforts to
sources; develop procedures to ensure that all       develop, test, and acquire armor solutions for
overpayments are reviewed for high dollar over­      light tactical wheeled vehicles.
payments; and disclosure of payment areas not        Findings: The U.S. Army Test and Evaluation
reviewed for high dollar overpayments. The di­       Command’s live fire testing of the up-armored

                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 27
Core Mission Areas



                                       HMMWV was effective for the portions                  selected for lot acceptance testing and product
                                       completed. Specifically, the command planned a        quality surveillance records were not retained
                                       live fire test strategy for the HMMWV program         as required. As a result, the Army and DCMA
                                       that identified required documents needed             could provide only limited assurance that the
                                       to determine system and crew survivability.           vest components acquired through the five
                                       ATEC provided the required live fire planning         contracts met the contract requirements.
                                       documents to the Office of the Director,              Result: DoD IG recommended the Army
                                       Operational Test and Evaluation, for approval         Program Executive Office Soldier require
DoD IG reviewed construction of the    and ATEC executed tests in accordance with the        that any waivers of first article tests and lot
detention facility in Parwan.          approved live fire test plans. 
                      acceptance tests be approved in writing and
                                       Result: The Office of the Director, Operational 
     perform a risk assessment on 560 lots. Further,
                                       Test and Evaluation’s live fire test and evaluation   DCMA Orlando will provide training on the use
                                       oversight of the Army’s up-armored HMMWV              of a random sample generator tool and improve
                                       was effective for the portions of the oversight       quality inspection records. Army Program
                                       process completed. Specifically, the director,        Executive Office Solider and DCMA generally
                                       operational test and evaluation, placed the up-       agreed to take corrective action.
                                       armored HMMWV on the Office of the Secretary          Report No. D-2011-030
                                       of Defense Test and Evaluation Oversight List in
                                       2006 for live fire oversight and has reviewed, as     Quick Reaction Memorandum Citing Concerns
                                       required, the Army’s up-armored HMMWV live            During the Audit of the Construction of the
                                       fire test planning documents.                         Detention Facility in Parwan
                                       Report No. D-2011-019                                 DoD IG issued a memorandum on November
                                                                                             19, 2010, identifying significant issues with
                                       Ballistic Testing and Product Quality                 the fire suppression, fire alarm, and sewage
                                       Surveillance for the Interceptor Body Armor –         systems that posed health and safety risks to the
                                       Vest Components Need Improvement                      personnel working at the Detention Facility in
                                       Overview: This audit is one of a series of            Parwan, Afghanistan and the detainees housed
                                       interceptor body armor audits conducted in            there. Specifically, the DFIP’s automatic fire
                                       response to a congressional request. This audit       suppression system was not operational, the fire
                                       covered six contracts valued at $434 million for      alarm transmitter and some fire alarm panels
                                       vest components. DoD IG determined that the           had been disconnected, and the sewage lift
DoD IG found deficiencies in testing   ballistic testing of the interceptor body armor –     stations were not pushing sewage outside the
and quality assurance of body armor.   vest components for five contracts and product        facility perimeter for collection as designed.
                                       quality surveillance for six contracts could          DoD IG requested that the U.S. Army Corps
                                       only provide limited assurance that the vest          of Engineers require the contractor to expedite
                                       components met contract requirements.                 repairs of the fire suppression and sewage lift
                                       Findings: The Army program manager for                stations and that the local command ensure that
                                       soldier equipment did not consistently enforce        the fire alarm transmitter and panels be properly
                                       ballistic testing requirements for the five           maintained and issue guidance prohibiting
                                       contracts. The Army lowered the minimum               personnel from disabling the fire alarm system
                                       velocity requirements and waived the lot              when the maintenance warning signal begins
                                       acceptance testing requirements, which were           transmitting.
                                       not documented at the time the decision was
                                       made; accepted lots before a first article test
                                       was performed because the materials used were         Information Assurance,
                                       identical to previously approved materials; and
                                       support contractors approved the lot acceptance
                                                                                             Security, & Privacy
                                                                                             One of the most daunting challenges DoD faces
                                       testing results, an inherently governmental           is defending its information and information
                                       function. Further, DCMA Orlando did not               systems against cyber attacks. DoD must protect
                                       use a statistical sampling methodology to             DoD information, and ensure that its informa­
                                       ensure a correct representative sample was            tion assurance workforce is properly trained and

28 SEMIANNUAL REPORT TO THE CONGRESS
certified in today’s ever-changing information       warfighting and readiness issues that impact
technology, as the information assurance work­       Overseas Contingency Operations and the
force is responsible for protecting information,     warfighter. In addition to our significant over­
and information systems.                             sight efforts related to contingency contracting
                                                     and warfighter safety issues, DoD IG continues
DoD Controls Over Information Placed on              to provide oversight of the Department’s efforts
Publicly Accessible Web Sites Require Better         to reduce its footprint in Iraq and the continuing
Execution                                            operations in Afghanistan to include the train­
Overview: DoD IG conducted this audit in re­         ing, equipping, and mentoring of the Afghan
sponse to a September 25, 2008, request by the       National Security Forces. The withdrawal of
then deputy secretary of defense to address con­     forces from Iraq must be monitored to ensure all
cerns that sensitive information can be found on     equipment and personnel are properly account­
DoD public web sites. Audit personnel evalu­         ed for and only items approved for transfer are
ated the management of public web sites for          transferred. The Department must ensure that              DoD IG reviewed DoD controls over
their compliance with mandatory content and          all units actively participate in the drawdown to         information placed on public web sites.
approval procedures and training requirements,       ensure accountability and visibility of all equip­
and reviewed DoD-identified web sites for pub­       ment, that serviceable material is reused to max­
lic accessibility.                                   imum potential, and that personnel in the field
Findings: DoD did not execute enforcement ac­        and at receiving activities are protected. Simi­
tions for noncompliance with web site policies       larly, the continuing operations in Afghanistan
and procedures, and components did not fully         must be monitored to ensure forces receive the
disseminate required policies and procedures         support required and have the equipment and
governing publicly accessible web sites. As a re­    resources necessary for the mission.
sult, sensitive information continued to be post­
ed to DoD public web sites, putting DoD mis­         DoD Needs to Improve Management and
sions and personnel at risk. Specifically, DoD       Oversight of Operations at the Defense
IG found that a majority of DoD organizations        Reutilization and Marketing Office-Camp
failed to respond to a DoD requirement to certi­     Arifjan, Kuwait
fy their web sites; web site administrators failed   Overview: This audit that was conducted in re­
to implement proper content review and ap­           sponse to a U.S. Central Command request to
proval procedures; and web site administrators       focus oversight on U.S.-funded assets to ensure
did not receive require Web operations security      that they were properly accounted for and there
training. In addition, we found that DoD is not      was a process for their proper transfer, reset, or
maintaining a Department-wide inventory of all       disposal. DoD IG reviewed operations at the
its public web sites as required by law and it had   Defense Reutilization and Marketing Office at
stopped funding and discontinued its central         Camp Arifjan, Kuwait, which was responsible
web site inventory system in 2006.                   for managing the receipt and disposition of ap­
Result: DoD generally agreed to develop and          proximately $1.2 billion of excess equipment in
maintain a list of all DoD publicly accessible       CY 2009.
web sites. In addition, DoD components will          Findings: The contracting officer and DRMO
certify annually that a documented Web review        officials did not ensure the contractor properly
and approval process has been developed and          accounted for all items, protected items from the
implemented and all Web administrators have          environment, or restricted from reutilization all
received proper Web operations security train­       items that should have been destroyed. DRMO
ing.                                                 and contractor officials also certified and veri­
Report No. D-2011-020                                fied that some items requiring demilitarization
                                                     were destroyed, when they were not. As a result,
                                                     items were vulnerable to theft and environmen­
Joint Warfighting &                                  tal damage, and items with potential safety or
Readiness                                            health hazards were improperly re-issued, plac­
                                                     ing DoD personnel at an increased risk of injury.
DoD IG continues to provide oversight of joint

                                                                                                          OCTOBER 1, 2010 TO MARCH 31, 2011 29
Core Mission Areas



                                         Result: During the audit, DRMO officials took       Operations Task Force was not fully integrated 

                                         immediate action to address concerns identified     into the command. 

                                         during fieldwork, to include requiring addition­    Result: DoD IG issued a memorandum to the 

                                         al training and withholding two payments total­     deputy secretary of defense and commander, 

                                         ing $70,238 for the contractor’s failure to meet    U.S. Forces-Afghanistan, on September 17,
                                         receiving requirements. DoD IG recommended          2010, to provide timely results of fieldwork
                                         that the director, DLA Disposition Services, in­    in Afghanistan. Subsequently, on January 25,
                                         corporate appropriate performance measures          2011, the secretary of defense issued a memo­
                                         for receiving and demilitarization, add an ex­      randum detailing the actions to be taken by the
                                         port control clause into the contract, and devel­   Department to reorganize DoD organizational
                                         op and implement procedures to ensure compli­       responsibilities for IO. The actions and planned
                                         ance with receiving, demilitarization, physical     reorganization described in the memorandum
                                         security, and export control requirements.          addressed concerns regarding DoD IO organiza­
                                         Report No. D-2011-033                               tional responsibilities and will help the Depart­
                                                                                             ment resolve ongoing organizational challenges
                                         DoD Needs Synchronized Communication                for IO. DoD IG recommended that USFOR-A
                                         Activities and an Integrated Information            adequately staff the ISAF Joint Command IO di­
                                         Operations Capability in Afghanistan                vision and provide coordination support to the
                                         Overview: DoD IG reviewed the ability of            regional commands; integrate the Combined
                                         CENTCOM and U.S. Forces-Afghanistan to              Joint Psychological Operations Task Force into
                                         conduct information operations in Afghanistan       IJC operations; and clearly communicate points
                                         and assessed the support provided by DoD or­        of contract at IJC to their counterparts at the
                                         ganizations that enable those commands to con­      respective regional commands. The IJC has im­
DoD IG reviewed the ability to conduct   duct information operations.                        proved staffing in the IJC IO Directorate, inte­
information operations in Afghanistan.   Findings: Overall communication activities at       grated task force into IJC, and improved coordi­
                                         International Security Assistance Force head­       nation with the regional commands by creating
                                         quarters were synchronized. However, commu­         a communication directorate. This will improve
                                         nication efforts at ISAF Joint Command were         coordination and synchronization of critical
                                         not optimally synchronized because there were       communication efforts in Afghanistan, to in­
                                         vacancies in key positions in the IO division,      clude IO, among all levels of command.
                                         cross-functional teams made coordination dif­       Report No. D-2011-051
                                         ficult, and the Combined Joint Psychological




30 SEMIANNUAL REPORT TO THE CONGRESS
The following cases are highlights of investiga­      tickets, and lodging at Foxwoods Resort and Ca­
tions conducted by DCIS and its federal law en­
forcement partners during the reporting period.
                                                      sino in Connecticut.
                                                      Result: In July 2010, following a 7-day trial in
                                                                                                             Investigations

DoD IG investigations are listed under the fol­       U.S. District Court in Boston, Maine, Thrower
lowing categories:                                    was convicted by a jury on nine counts of wire
• Public corruption                                   fraud and one count of conspiracy to defraud
• Procurement fraud                                   the United States from 2004 through February
• Product substitution                                2008. On October 21, 2010, Thrower was sen­
• Technology protection                               tenced to 27 months incarceration, to be fol­
• Health care fraud                                   lowed by two years of supervised release and a
• Computer crime                                      $20,000 fine. Thrower was debarred from gov­
                                                      ernment contracting for three years, to begin
                                                      upon his release from prison. He was also placed
Public Corruption                                     on the excluded parties list. This sentence and
DCIS is at the forefront of DoD corruption in­        subsequent debarment was for violations of 18
vestigations. Public corruption within DoD im­        USC 1343, Wire Fraud and 18 USC 371, Con­
pacts national security, safety, and degrades the     spiracy. Thrower’s sister pled guilty to 18 USC
overall mission of the warfighter. It undermines      1001, False Statement, and was sentenced to two
public trust and confidence in the U.S. govern­       years probation, prohibited from engaging in
ment and wastes billions in tax dollars every         any government contract work, and forfeiture of
year. With the skills and capabilities to run com­    property valued at $330,561.
plex undercover operations and surveillance,
DCIS is singularly situated to conduct multi­         U.S. Army Contracting Officers Convicted and
faceted corruption investigations. Of particular      Sentenced for Smuggling Cash from Iraq
importance is corruption impacting the health,        Overview: A joint investigation conducted by
safety, welfare, and mission-readiness of U.S.        DCIS, Army CID, the FBI, and SIGIR disclosed
troops assigned to theater.                           that U.S. Army Major Charles Sublett and other
                                                      military officers assigned to the contracting of­
DoD Official Sentenced to 27 Months                   fice were involved in the acceptance of bribes.
Incarceration on Fraud Charges                        Sublett and others accepted bribes from local
Overview: A joint investigation conducted by          contractors for preferential treatment in award­
Army CID and the IRS Criminal Investigation           ing base level contracts in the local Iraqi theater.
disclosed that Allen Thrower, a DoD civilian          The investigation further revealed that Sublett,
employee at Fort Benning, Ga., who had respon­        while deployed to Iraq, mailed packages con­
sibility for preparing purchase requests and sole     taining proceeds of the bribes in U.S. currency
source justifications for the services of commer­     and Iraqi dinar via Federal Express to his girl­
cial contractors at the base, used his official po­   friend in the United States.
sition as chief of then-Quality Support Division      Result: On October 8, 2010, Sublett was sen­
in the Human Resources Directorate to arrange         tenced in the U.S. District Court, Western Dis­
for and influence the awarding of both sole           trict of Tennessee, Memphis, to 21 months in­
source and competitive contracts to Military          carceration for violations of 18 USC 1001, False
Service Support, LLC, a DoD contractor, for           Statements. In addition, more than $107,000 of
personnel-related services. The DoD employee’s        illegal proceeds were forfeited to the govern­
sister was president and chief executive officer      ment. Overall, this investigation reviewed more
of MSS. Thrower and his sister concealed their        than 39 military and contracting officials and
familial relationship from U.S. Army contract­        17 companies. The case concluded with three
ing officials and from the contractor’s employees     contracting personnel convicted of accepting
in Georgia. During the time in which Thrower          bribes, and four companies or contracting of­
was involved in steering the eight contracts to       ficials being suspended from contracts for life,
MSS and supervising them, he received at least        based on illegal and intentional violations of the
$20,000 from MSS in the form of checks, airline       Federal Acquisition Regulations.

                                                                                                             OCTOBER 1, 2010 TO MARCH 31, 2011 31
Core Mission Areas



                                          Army Contracting Officer Sentenced to Five            tenced to 12 months in prison followed by two
                                          Years in Prison                                       years of supervised release. He was also or­
                                          Overview: A joint investigation conducted by          dered to pay restitution of $1.4 million to the
                                          DCIS, Army CID, FBI, and SIGIR disclosed that         U.S. government. Additionally, on November
                                          U.S. Army major Roderick Sanchez, a contract­         8, 2010, the first sergeant was ordered to forfeit
                                          ing officer with the U.S. Army stationed in Iraq      $40,700.00 in personal property. This sentence
                                          and Kuwait, accepted bribes from two foreign          and subsequent forfeiture were for violations of
                                          nationals. In exchange for the bribes, which          18 USC 201(c), Unlawful Receipt of Gratuities
                                          consisted of two Rolex watches and other items        by a Public Official; 31 USC 5324 (a)(3), Struc­
                                          valued at more than $200,000, the Army major          turing a Financial Transaction; and 18 USC
                                          influenced the award of U.S. government con­          1001, False Statements.
                                          tracts to the foreign nationals.
                                          Result: On January 19, 2011, Sanchez was sen­         Former U.S. Army Staff Sergeant Receives
                                          tenced in the U.S. District Court, Denver, Colo.,     90-Month Prison Sentence for Bribery in Fuel
                                          to 60 months in prison followed by three years of     Theft Scheme
                                          supervised release and a $15,000 fine. This sen­      Overview: A joint investigation conducted by
                                          tence was for violations of 18 USC 201, Bribery.      DCIS, Army CID, and the FBI disclosed that
                                                                                                between December 2009 and February 2010,
                                          Army First Sergeant Pleads Guilty to Accepting        Staff Sergeant Stevan Ringo accepted more than
                                          $1.4 Million in Illegal Gratuities Related to         $400,000 in cash payments from a government
DCIS investigated a staff sergeant who    Military Dining Contracts in Kuwait                   contractor in exchange for creating and sub­
accepted bribes in a fuel theft scheme.   Overview: A joint investigation conducted by          mitting fraudulent paperwork permitting that
                                          DCIS, Army CID, FBI, and IRS-Criminal Inves­          contractor to steal fuel from Forward Operating
                                          tigation disclosed that First Sergeant Ray Scott      Base Shank. The total value of the fuel stolen in
                                          Chase accepted approximately $1.4 million in          the course of the scheme was nearly $1.5 mil­
                                          illegal gratuities from private contractors dur­      lion. Ringo was stationed at FOB Shank, a U.S.
                                          ing his deployment to Kuwait in 2002 and 2003.        Army installation in the Logar Province of East­
                                          The first sergeant served as the contracting offi­    ern Afghanistan. FOB Shank supports U.S. mili­
                                          cer’s representative and the non-commissioned         tary operations in Afghanistan in various ways,
                                          officer in charge of the military dining facility     including through fuel receipt and redistribu­
                                          at U.S. Central Command at Camp Doha, Ku­             tion. The staff sergeant’s responsibilities at FOB
                                          wait. During 2003, Chase also served as the non­      Shank included supervision of that fuel redistri­
                                          commissioned officer in charge for the military       bution process.
                                          dining facility at Camp Arifjan, Kuwait. Chase        Result: On January 7, 2011, Ringo was sen­
                                          supervised the food procurement, preparation,         tenced in the U.S. District Court for the East­
                                          and service operations at Camp Doha and Camp          ern District of Virginia to 90 months in prison
                                          Arifjan. As part of his official duties, Chase also   followed by three years of supervised release for
                                          coordinated orders for certain blanket purchase       violations of 18 USC 201, Bribery. He was or­
                                          agreements the U.S. Army had with various pri­        dered to forfeit money and property valued at
                                          vate contractors to provide supplies and services     $408,495, and was ordered to pay restitution
                                          to both of those dining facilities. The first ser­    jointly and severally with co-defendants in the
                                          geant admitted to receiving approximately $1.4        amount of $1,494,985.
                                          million from private contractors for official acts
                                          he performed and was going to perform in 2002         Marine Corps Captain Convicted of Skimming
                                          through the end of 2003. In addition to accept­       $1.7 Million from Contracts in Iraq
                                          ing the illegal gratuities, Chase admitted that       Overview: A joint investigation conducted by
                                          he structured various financial transactions to       DCIS, the Naval Criminal Investigative Service,
                                          avoid currency transaction reporting require­         and SIGIR disclosed that while deployed to Iraq,
                                          ment, and made false statements when inter­           USMC Captain Eric Schmidt used his position
DCIS investigated the skimming of         viewed by federal authorities in February 2007.       in the contracting process to steer contracts to
$17 million from contracts in Iraq.
                                          Result: On November 5, 2010, Chase was sen­           an Iraqi contractor. Once the contracts were

32 SEMIANNUAL REPORT TO THE CONGRESS
awarded, the contractor paid the captain’s wife        Timothy McQueen, and Tony Pough, residents
for the goods to be furnished under the con­           of South Carolina. CCG and its parent company,
tract. Often, Schmidt’s wife purchased far fewer       Three Hebrew Boys, received in excess of $80
or inferior products than those called for under       million from investors and did not invest any of
the contract. These items included metal detec­        the money in the foreign currency exchange as
tors and first aid kits. Once the goods arrived in     advertised.
Iraq, Schmidt falsely certified that the goods re­     Result: The three principals of CCG, Brunson
ceived conformed to the contract specifications.       Sr., McQueen and Pough, were found guilty of
Armed with the captain’s false certification, the      58 counts of mail fraud and conspiracy to com­              DCIS special agents conduct convoy
contractor sought and received payment from            mit mail fraud. The jury ordered the defendants             operations training.
the United States. Schmidt pled guilty in U.S.         to forfeit the $82 million bilked from the inves­
District Court for the Central District of Cali­       tors in the CCG Ponzi scheme. On December
fornia to conspiracy to commit wire fraud and          14, 2010, the three defendants were sentenced
filing a false tax return that concealed the illicit   to the highest fraud sentences in the history of
income from the Internal Revenue Service. As           the District of South Carolina and ordered to
a result of their scheme, the Schmidts caused          serve between 27 and 30 years imprisonment.
DoD to suffer losses of $1,692,472 and the IRS         The three were also ordered to pay $82 million
to suffer losses of $458,141.                          in restitution. Joseph Brunson, Jr., was also con­
Result: On February 7, 2011, Schmidt was sen­          victed on one count of making a false statement,
tenced to 72 months in prison followed by 36           sentenced to three years probation and ordered
months of supervised release for violations of 18      to pay a special assessment of $100.The chief
USC 1343, Wire Fraud and 26 USC 7206, Fraud            warrant officer was issued a general officer’s
and False Statements, Internal Revenue Code.           memorandum of reprimand and was allowed
He was also ordered to pay restitution to DoD          to retire with no further action being taken.
and the IRS totaling $2,150,613. Schmidt’s wife        The collective sentences were for violations of
pled guilty to a tax offense and is awaiting sen­      18 USC 1001, False Statements; 18 USC 1349,
tencing.                                               Conspiracy to Commit Mail Fraud; and 18 USC
                                                       1341, Mail Fraud.
Ponzi Scheme Directed at DoD Members
Overview: A joint investigation conducted by
DCIS, the FBI, Army CID, and IRS-Criminal              Procurement Fraud
Investigations disclosed that several DoD civil­       Procurement fraud investigations continue to
ians were defrauded by Chief Warrant Officer           comprise a major part of the DCIS inventory
Carolyn Lattimore in a Ponzi-style investment          of cases. Of all the forms of white-collar crime,
scheme. The DoD civilian employees worked at           procurement fraud is probably the least visible,
the Installation Property Book Office, on Vic­         yet the most costly. In part, procurement fraud
tory Base Complex, Baghdad, Iraq. The em­              is a hidden by-product of seemingly legitimate
ployees invested approximately $450,000 at the         transactions often involving millions of dollars.
suggestion of the chief warrant officer into the       The potential damage relating to procurement
Capital Consortium Group. Civilians and mili­          fraud extends well beyond financial losses. It
tary members alike were approached by Latti­           poses serious threats to the ability of the Depart­
more during duty and non-duty hours to discuss         ment to achieve its operational objectives and
CCG. Employees at IPBO provided copies of the          can hamper the implementation of programs
CCG contract, e-mails and other pertinent in­          and projects. Procurement fraud includes, but
formation which indicated Lattimore and her            is not limited to, cost/labor mischarging, defec­
husband were the primary points of contact for         tive pricing, defective parts, price fixing, and bid
CCG. Preliminary information indicated that            rigging.
approximately $450,000 had been invested with
CCG by multiple individuals through Latti­             $69 Million Settlement by Louis Berger Group,
more. The Ponzi scheme was started by the three        Inc. for False Claims                                       SAC Edward Bradley speaks at a press
principal owners of CCG: Joseph Brunson Sr.,           Overview: A joint investigation conducted by                briefing regarding the LBG investigation.



                                                                                                              OCTOBER 1, 2010 TO MARCH 31, 2011 33
Core Mission Areas



                                       DCIS, FBI, U.S. Agency for International De­          culture OIG disclosed that Samir Itani, owner of
                                       velopment, and SIGIR disclosed that the Louis         American Grocers Inc., deliberately purchased
                                       Berger Group, Inc., a New Jersey-based engi­          expired or near expired foods from food manu­
                                       neering consulting company, charged inflated          facturers at discounted prices and changed the
                                       overhead rates that were used for invoicing on        expiration dates on the packages before ship­
                                       numerous government reconstruction contracts          ping, resulting in $20 to $30 million in gross
                                       in Iraq and Afghanistan. From at least 1999           profits from the sale of foods to DoD. The food
                                       through August 2007, LBG intentionally over­          was sent to troops and DoD personnel in the
DCIS agents arrest AGI owner for       billed the U.S. government. The scheme was car­       Middle East. AGI created inflated invoices with
defrauding the government.             ried out by two former senior LBG employees,          bogus freight charges of $2.3 million. AGI also
                                       Salvatore Pepe, LBG’s former chief financial of­      concealed discounts from food manufacturers
                                       ficer and Precy Pellettieri, the former controller.   that were not passed on to DoD of approximate­
                                       Both were responsible for ensuring the integrity      ly $1.5 million.
                                       of LBG’s cost data with respect to the calcula­       Result: On November 8, 2010, Itani agreed to
                                       tion of overhead rates that LBG charged the fed­      pay $15 million for violations of 31 USC 3729­
                                       eral government. Pepe and Pellettieri conspired       3733, False Claims Act. Also, on December 3,
                                       to bill USAID and other federal agencies using        2010, Itani was sentenced to two years impris­
                                       falsely inflated overhead rates. The case against     onment, three years supervised release, ordered
                                       LBG was initiated as a result of a whistleblower      to pay $2,072,967 million in restitution and a
                                       lawsuit filed in the District of Maryland, which      fine of $100,000 for violations of 18 USC 286,
                                       charged LBG with several violations of the civil      Conspiracy to Defraud the Government with
                                       False Claims Act. In addition to mischarging          Respect to Claims.
                                       USAID, the false claims also inflated billings on
                                       contracts performed overseas for the U.S. Army        $1.95 Million Settlement for CDI Aerospace for
                                       and U.S. Air Force.                                   False Claims
                                       Result: On November 5, 2010, the two former           Overview: A joint investigation conducted by
                                       employees pled guilty in U.S. District Court,         DCIS and Air Force Office of Special Investi­
                                       Newark, N.J., to conspiring to defraud the gov­       gations disclosed that CDI Aerospace officials,
                                       ernment with respect to claims. On the same           after the loss of a significant DoD subcontract
                                       day, a settlement was reached with LBG to re­         from General Electric Aircraft Engines Evan-
                                       solve the criminal and civil fraud charges related    dale, Ohio, ordered overhead employees to
                                       to its international work. The components of          randomly charge “direct” time to the remaining
                                       the settlement included a deferred prosecution        GEAE subcontracts and line items. Specifically,
                                       agreement, wherein LBG agreed to pay $18.7            CDI Aerospace overhead employees were told
                                       million in related criminal penalties; make full      to make sure their time charges were “direct” to
                                       restitution to USAID; adopt effective standards       projects and not to overhead accounts. The re­
                                       of conduct, internal controls systems, and eth­       lator was uncertain how many CDI Aerospace
                                       ics training programs for employees; and em­          employees were involved in the mischarging
                                       ploy an independent monitor who will evaluate         scheme, but estimated the number of employ­
                                       and oversee the company’s compliance with the         ees between 15-30, falsely billing for an excess of
                                       deferred prosecution agreement for a two-year         two years. This investigation was initiated based
                                       period. The civil settlement also required the        upon a qui tam lawsuit, and a January 27, 2006,
                                       company to pay the U.S. government $50.6 mil­         consultation with auditors from the DCAA In­
                                       lion to resolve allegations that LBG violated the     vestigative Support.
                                       False Claims Act, 31 USC 3729.                        Result: On November 12, 2010, a settlement
                                                                                             agreement was reached between the DoJ, CDI
                                       DoD Contractor pays $15 Million in Civil              Aerospace, and the relator. CDI Aerospace
                                       Settlement and Is Sentenced for Conspiracy to         agreed to pay the U.S. government $1.95 million
                                       Defraud the Government                                for violations of 31 USC 3729, False Claims Act.
                                       Overview: A joint investigation conducted by          The U.S. government agreed to pay the relator
                                       DCIS, Army CID and the Department of Agri­            $360,750 of the settlement.

34 SEMIANNUAL REPORT TO THE CONGRESS
Boeing Company Settles Civil Law Suit with U.S.       or component of a product not manufactured,
Government in Conjunction with Allegations of         assembled, tested, or inspected in accordance
Inflating Costs for Air Force B-1 Bomber System       with the terms of the contract specifications are
Overview: A joint investigation conducted by          considered nonconforming, and are generally
DCIS and AFOSI focused on allegations that            divided into the following investigative catego­
Boeing had violated the Truth in Negotiations         ries: counterfeit, substituted, defective, and sub­
Act in their negotiations with the U.S. Air Force     standard.
related to the Towed Decoy System. The TDS
deploys a decoy that is towed behind an aircraft,     DCIS works with federal law enforcement part­
in this case the B-1 bomber, and is designed to       ners, supply centers, and the defense industrial
protect the aircraft from guided missiles. A total    base to ensure DoD contractors provide the
of nine DoD IG subpoenas were served on Boe­          right part or component to meet DoD require­
ing and its subcontractors.                           ments. DCIS actively participates in the Defense
Result: Boeing agreed to pay $4 million to settle     Supply Center Columbus Counterfeit Material/
a civil lawsuit alleging the company unlawfully       Unauthorized Product Substitution team and
inflated the price it charged the Air Force to        partnered with the Intellectual Property Rights
manufacture the TDS for the B-1 in violation of       Center, focusing on counterfeit parts.
31 USC 3729, False Claims Act.
                                                      Northrop Grumman Agrees to $5.2 Million
DoD Contractor Employee Steals UAV Cables             Settlement Relating to Allegations of B-2
for Scrap Value                                       Bomber Coating Nonconformance
Overview: A DCIS investigation disclosed that         Overview: A joint investigation conducted by
the U.S. government purchased remote vehicle          DCIS and AFOSI disclosed failures of the Ad­
terminal cables and copper cables for a DoD           vanced Topcoat System. ATS is a surface coat­
contractor to install in U.S. property, including     ing used by the Air Force on the B-2 Bomber
unmanned aerial vehicle used in foreign mili­         program. The failures affected multiple aircraft
tary operations. One of the contractor’s employ­      causing considerable delays, impacting the read­
ees, Levon Smith, stole the cables and took the       iness of the vehicles, and costing several million        DoD IG recovered $342,000 in restitution
property to a recycling company where he sold         dollars to repair.                                        from attempted theft of UAV materials.
the stolen material at scrap metal prices, totaling   Result: Northrop Grumman agreed to pay the
approximately $340,000.                               U.S. government $5.2 million and in turn have
Result: Smith pled guilty and on February 11,         its liability released under the provisions of 31
2011, was sentenced to 15 months incarceration,       USC 3729, False Claims Act and 31 USC 3801,
followed by three years probation and ordered         Program Fraud Civil Remedies Act.
to pay $342,000 in restitution. This sentence was
a result of violations of 18 USC 641, Theft of
Government Property.                                  Technology Protection
                                                      Protection of critical military technologies sup­
                                                      porting the warfighter continues to be a DCIS
Product Substitution                                  priority consistent with its legacy of investigat­
Investigations involving the introduction of          ing public corruption and financial crime within
counterfeit goods, substandard materials, and         the Department. DCIS actively represents the
non-conforming products into DoD’s procure­           interests of the Department in multiple inter­
ment and acquisition system have historically         agency task forces charged with the enforcement
been - and will continue to be - one of DCIS’s        and reform of export policy. Ongoing involve­
top priorities. The Department requires very          ment with the formation of the presidentially-
specific, and at times, unique products for its       mandated Export Enforcement Coordination
infrastructure and weapons systems. Noncon­           Center has ensured DCIS will serve as an en­
forming products pollute the DoD supply chain         gaged advocate of the Department in the fu­
and pose a risk to military operations and both       ture. With an eye to the ever-evolving world of
military and civilian personnel. Any products         national security threats, the DCIS Technology

                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 35
Core Mission Areas



                                           Protection Program continues to work with fed­      in the U.S. military’s arsenal and units cost over
                                           eral partners in order to collaborate and mini­     one million dollars each.
                                           mize duplicative investigative effort. Through      Result: On February 4, 2011, Gilchenko was
                                           this collaborative effort and information shar­     sentenced in the District of Arizona to serve 18
                                           ing, DoD is better able to focus intelligence and   months of incarceration, followed by three years
                                           procurement efforts to maintain the technologi­     of supervised release for violations of 18 USC
                                           cal supremacy of the American warfighter.           371, Conspiracy and 22 USC 2778, Arms Export
                                                                                               Control Act.
                                           Chinese Front Companies Supply High-Level
                                           Electronics to PRC                                  Telecom Worker Makes Deal for Iranian Bound
                                           Overview: A joint investigation conducted by        Microwave Radios
                                           DCIS, Homeland Security Investigations, and         Overview: A joint investigation by DCIS and
                                           the Department of Commerce disclosed that           ICE disclosed that Vikramaditya Singh, an em­
                                           Chitron Electronics, Inc., a Waltham, Mass.,        ployee of Orion Telecom Networks conspired
                                           contractor purchased various military and           to transship digital microwave radios through
                                           dual-use microprocessors and semiconductors         Austria for a final destination in Iran, a violation
                                           from cleared defense contractors and illegally      of the International Economic Powers Act em­
                                           exported the items to Chitron’s affiliate compa­    bargoes against Iran. Singh received customer
                                           nies located in the People’s Republic of China.     orders with requirements for the specific desert
                                           The items illegally exported by Chinese nation­     and mountain environment of Iran and stated
                                           als were primarily used in military phased array    that his company could not ship radios to Iran
                                           radar, electronic warfare, military guidance sys­   because of the embargoes but was willing to ship
                                           tems, and military satellite communications. A      to Austria.
                                           5-week trial found several conspirators guilty of   Result: On March 2, 2011, as a result of a guilty
                                           illegally exporting controlled electronic equip­    plea, Singh was sentenced in the U.S. District
                                           ment from the United States to China.               Court, District of Delaware to serve six months
                                           Result: On January 28, 2011, Chitron Electron­      house arrest and three years probation. In addi­
                                           ics Inc. was fined $15.5 million with a special     tion, Singh was ordered to pay a $100,000 fine
                                           assessment of $10,400 for violations of 18 USC      and restitution of $15,985 for violations of 50
                                           371, Conspiracy and 22 USC 2778, Arms Export        USC Section 1702 and 1705(a), International
                                           Control Act. On February 3, 2011, a final con­      Economic Powers Act.
                                           tempt order was entered against Chitron’s parent
                                           company, Shenzhen Chitron Electronics Com­          Import/Export Company Exported Missile
                                           pany Limited. Shenzhen was fined $1,925,000         Parts to South Korea Without Approval
                                           for failure to appear for an arraignment on the     Overview: A joint investigation conducted by
                                           third superseding indictment and for not ap­        DCIS and ICE disclosed that Alpine Aerospace
                                           pearing at its trial, which commenced April 5,      Corporation, a New Jersey-based import/ex­
                                           2010.                                               port company, illegally exported missile parts
                                                                                               to South Korea. From about July 2005 to Janu­
                                           Slovenian Arms Dealer Convicted and Jailed          ary 2007, Alpine Aerospace exported Hawk
                                           Overview: A joint investigation conducted by        and Nike missile parts to the South Korean Air
                                           DCIS and Homeland Security Investigations           Force without obtaining approval from DoS in
                                           disclosed that Ruslan Gilchenko and his Slove­      violation of U.S. export laws. Specifically, in­
                                           nia based company, MG-CZ Inc., sought to pur­       vestigation revealed the company falsely stated
                                           chase and export M134 mounted sport utility         on shipper’s export declaration forms filed with
                                           vehicles to Turkmenistan. The M134 “Minigun,”       Customs and Border Protection that the defense
                                           made popular through television and film, is a      articles being exported were aircraft and engine
A arms dealer was convicted of illegally   six barreled electrically driven machine gun ca­    parts. Alpine Aerospace knowingly exported the
exporting M134 mounted SUVs.               pable of firing the 7.62 NATO round at a rate of    missile components under U.S. export licenses
                                           3,000 rounds per minute. The M134 “Minigun”         authorizing the export of aircraft engine parts,
                                           is employed on a number of vehicles and aircraft    not missile parts. These licenses specifically

36 SEMIANNUAL REPORT TO THE CONGRESS
stated that the export of “spare parts and minor      and on health care providers involved in cor­
components for systems identified under other         ruption or kickback schemes. Investigations
categories of the U.S. Munitions List, such as        also include overcharging for medical goods
Category IV – missiles and bombs...are not au­        and services, off-label marketing of drugs, and
thorized under this license.”                         unauthorized people receiving TRICARE health
Result: On October 27, 2010, Alpine Aerospace         benefits. DCIS proactively targets health care
Corporation pleaded guilty in U.S. District           fraud through task forces, strike teams, and un­
Court, Newark, N.J., to violating 18 USC 1001,        dercover operations.
False Statements in regard to the illegal export of
Hawk missile parts to South Korea.                    $750 Million Settlement by GlaxoSmithKline to
                                                      Resolve Distribution of Adulterated Drugs
Aviation Contractor Attempts to Re-export             Overview: A joint investigation conducted by
Aircraft Engines to Venezuela                         DCIS, the FBI, the Food and Drug Adminis­
Overview: A joint investigation conducted by          tration’s Office of Criminal Investigations, the
DCIS, Homeland Security Investigations, and           Department of Health and Human Services
the FBI disclosed that the Marsh Aviation Com­        OIG, the Department of Veterans Affairs OIG,
pany allegedly conspired to export T-76 aircraft      and the Office of Personnel Management OIG
engines to Venezuela. The T-76 engines are            disclosed that between 2001 and 2004, GlaxoS­
components of the OV-10 Bronco Light Armed            mithKline, GSK subsidiary SB Pharmco Puerto
Reconnaissance Aircraft, a platform commonly          Rico, Inc., and Roche Holding AG violated cur­            DCIS found a contractor conspired to
used in counter-insurgency and drug interdic­         rent Good Manufacturing Procedures at their               export OV-10 engines to Venezuela.
tion missions. Allegedly, the Venezuelan Air          manufacturing plant in Cidra, Puerto Rico. The
Force contracted with the aviation company to         cGMP violations included product mix-ups (in­
refit and maintain the engines, despite U.S. arms     cluding drugs of different type or strength found
embargoes implemented against Venezuela in            in the same bottles), sub-potent and over-potent
2006. In order to conceal the re-export of the        products, inadequate or non-existent calibra­
engines back to Venezuela, Marsh Aviation al­         tion of equipment and instruments, and sub­
legedly declared the engines as general aircraft      standard quality control of the plant’s water sys­
parts.                                                tem, resulting in microbial contamination of the
Result: On October 12, 2010 Marsh Aviation            products. From 2001-2004, nearly all of GSK’s
and company owner, Floyd Stilwell, were in­           products entering the U.S. market were manu­
dicted on two counts in the District of Arizona       factured in Cidra.
for violations of 18 USC 371, Conspiracy and 22       Result: On October 26, 2010, GSK and its
USC 2778, Arms Export Control Act. In addi­           subsidiary SB Pharmco Puerto Rico formally
tion, on January 4, 2011, the aviation company        agreed to pay a total of $750 million to resolve
and several alleged co-conspirator companies          the government’s criminal and civil investiga­
and individuals were suspended from conduct­          tions into their manufacturing practices of the
ing business with the federal government.             following four drugs: Kytril, Bactroban, Paxil
                                                      CR, and Avandamet. On November 8, 2010, in
                                                      U.S. District Court, District of Massachusetts,
Health Care Fraud                                     SB Pharmco Puerto Rico pleaded guilty to a
Health care fraud costs the country an estimated      one-count information charging violations of 21
$60 billion a year. Health care fraud is a rising     USC 331(a), 333(a)(2),and 351(a)(2)(B), Inter­
threat with national health care topping $2 tril­     state Shipment of Adulterated Drugs. As part of
lion and expenses continuing to outpace infla­        the criminal plea agreement, GSK paid a $140
tion. Recent cases also show that medical profes­     million criminal fine and $10 million in crimi­
sionals are more willing to risk patient harm in      nal forfeiture. GSK and SB Pharmco Puerto
their schemes.                                        Rico also signed a civil settlement agreement             DCIS special agents conduct
                                                      with the U.S. Department of Justice, HHS, TRI­            predeployment medical training.
DCIS has primarily focused health care investi­       CARE, the U.S. Department of Veterans Affairs,
gations on those involving harm to the patient        and the U.S. Office of Personnel Management.

                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 37
Core Mission Areas



                                       The total civil recovery was $600 million, plus       agreed to pay $1,258,790 to settle the allegations
                                       interest, of which approximately $51.5 million        of submitting false claims to the government, in
                                       was paid to TRICARE.                                  violation of 31 USC 3729, False Claims Act.

                                       $600 Million Settlement by Allergan for               $38 Million Settlement for Abbott Laboratories
                                       Distributing a Misbranded Drug                        for False Claims
                                       Overview: A joint DCIS investigation with the         Overview: A joint investigation conducted by
                                       FBI and the Department of Health and Human            DCIS and HHS OIG was initiated based upon
                                       Services OIG disclosed that Allergan promoted         a qui tam filed under seal against Abbott Labo­
                                       BotoxR for off-label indications that were not        ratories, the successor of Kos Pharmaceuticals.
                                       approved by the Food and Drug Administration          The investigation disclosed that four qui tam
                                       and therefore not covered by federal health care      actions have been filed against Kos. The origi­
DCIS found that Allergan unlawfully    programs. Allergan encouraged coding for the          nal qui tam was filed March 19, 2004, pursuant
promoted BotoxR for off-label uses.    on-label use for cervical dystonia indication as      to the provisions of the False Claims Act. The
                                       a method to claim reimbursement for off-label         complaint alleges Kos paid kickbacks to physi­
                                       uses to include pain and headache. This prac­         cians in exchange for increasing the number of
                                       tice increased sales and caused false claims to be    prescriptions written for Kos’ drugs. The second
                                       submitted to government health care programs,         qui tam action was filed against Kos on July 26,
                                       to include TRICARE.                                   2004, alleging Kos engaged in off-label promo­
                                       Result: The U.S. District Court, Northern Dis­        tion of its drugs, and paid kickbacks to physi­
                                       trict of Georgia, accepted Allergan’s guilty plea     cians. On September 15, 2006, a third qui tam
                                       for unlawfully promoting BotoxR for headache,         was filed against Kos, alleging Kos violated the
                                       pain, spasticity, and juvenile cerebral palsy, none   Anti-Kickback Statute. On December 26, 2007,
                                       of which were approved by the Food and Drug           the fourth qui tam, which this report reflects,
                                       Administration—from 2000 to 2005. All were            was filed against Kos by the Kos former region­
                                       violations of 21 USC 331(a) and 352(f)(1), Dis­       al director for the Midwest. From October 1,
                                       tribution of a Misbranded Drug. Allergan was          2002, to February 1, 2008, TRICARE paid Kos,
                                       fined $375 million in criminal fines and forfei­      regarding the medications in question in the qui
                                       tures, and agreed to pay an additional $225 mil­      tam, a total of $54,324,593. ,
                                       lion in civil remedies. Allergan also entered into    Result: The U.S. government and Abbott Labo­
                                       a corporate integrity agreement with HHS OIG,         ratories signed a settlement agreement wherein
                                       which requires Allergan’s board of directors (or      Abbott Laboratories agreed to pay to the Unit­
                                       a committee of the board) annually review Al­         ed States and the Medicaid participating states
                                       lergan’s compliance program and certify its ef­       $38,159,742 plus interest of which TRICARE
                                       fectiveness and comply with other administra­         will receive $7,795,724. This agreement settled
                                       tive provisions for five years.                       alleged violations of 31 USC 3729-3733, False
                                                                                             Claims Act.
                                       Health Care Provider to Pay $1.2 Million to
                                       TRICARE for False Claims                              TRICARE Provider Pays $2.5 Million to Settle
                                       Overview: A DCIS investigation disclosed that         False Claims Allegations
                                       Brain D. Lemper, an anesthesiologist and pain         Overview: A joint investigation conducted by
                                       medicine management specialist, conducted             DCIS, HHS OIG, and OPM OIG disclosed that
                                       fraudulent and abusive billing practices through      Greater Metropolitan Orthopedics, P.A., a TRI­
                                       billing for services not rendered. Lemper did so      CARE provider, fraudulently overcharged for
                                       through misrepresentation of services and mis­        patient consultations and/or charged for consul­
                                       representation of provider, and by inappropri­        tations that did not occur. Specifically, between
                                       ately submitting numerous duplicate claims to         2004 and 2008, GMO submitted claims for eval­
                                       TRICARE.                                              uation and management services not rendered
                                       Result: On December 10, 2010, a settlement            for office visits that either never took place or
                                       agreement was reached between Lemper and              were not documented in the patients’ medical
                                       the government, whereby the anesthesiologist          records, billed new or existing patient visits as

38 SEMIANNUAL REPORT TO THE CONGRESS
consults, and submitted duplicate claims for re­      The following are highlights of inspections, as­
view and interpretation of x-rays.
Result: On December 16, 2010, GMO agreed
                                                      sessments, or evaluations conducted by DoD
                                                      IG. DoD IG inspections are listed under the fol­
                                                                                                                  Inspections

to pay $2.5 million to settle allegations of vio­     lowing categories:
lations of 31 USC 3729-3733, False Claims Act.        • Health and Safety
                                                      • Joint Warfighting and Readiness
                                                      • Compliance
Computer Crime
DCIS continues to combat cybercrime through
several proactive initiatives around the country,     Health and Safety
and maintains an on-site presence within the          Taking care of our people is one of the major
FBI’s National Cyber Investigative Joint Task         themes of the 2010 Quadrennial Defense Re­
Force as well as a presence within the Defense        view. DoD IG supports this theme by focusing
Cyber Investigative Coordination Center em­           its oversight efforts on preventing and detecting
bedded within the U.S. Cyber Command. The             fraud, waste and abuse, and improving efficien­
cybercrime program continues to place empha­          cy and effectiveness of the programs affecting
sis on crimes involving the compromise and            the health and safety of service members and
theft of sensitive defense information contained      employees.
in government and DoD contractor information
systems as well as focusing on instances where        Of special concern is the proper care and support
contract fraud by DoD information technology          to approximately 35,000 soldiers, sailors, airmen
contractors has been a factor in the penetration      and marines wounded due to combat actions in
of DoD networks. DCIS responds to traditional         Operations Iraqi and Enduring Freedom. With
computer intrusions against DoD and provides          the United States engaged in Overseas Contin­
digital forensics services in support of investiga­   gency Operations in Iraq and Afghanistan, and
tions.                                                most recently, support to other efforts in the
                                                      Middle East, the medical care required by mili­
Former Military Member Sentence to Four               tary personnel is expected to increase over the
Years in Prison for Stealing Pay and Identities       next several years.
Overview: A joint investigation conducted by
DCIS and the U.S. Postal Inspection Service           It is critical for DoD IG to maintain vigorous
disclosed that beginning in July 2008 through         oversight of the health and safety challenges
May 2009, a former military member, Andre             facing the Department, not only to ensure that
Grant, fraudulently gained access to the payroll      wounded warriors receive high-quality health
accounts of specific U.S. service members and         care but that DoD health care dollars are spent
changed the payee information to divert more          wisely and prudently.
than $23,500 in wage payments to accounts un­
der his control. In addition, the Grant engaged       Assessment of DoD Wounded Warrior Matters
in identity theft of other individuals. As a re­      – Fort Sam Houston
sult of his schemes, Grant was responsible for        Overview: DoD IG reviewed U.S. Army and
$187,659 in losses to merchants and to the U.S.       Marine Corps Warrior Care and Transition pro­
government for funds diverted from the payroll        grams, established in 2007 and 2008 to manage
accounts.                                             the care and transition back to military units or
Result: On October 18, 2010, Andre Grant              into civilian life of wounded, ill, and injured ser­
was sentenced to 48 months incarceration, 36          vice members from Operations Iraqi and Endur­
months of supervised release, and to pay resti­       ing Freedom. There are 29 Warrior Transition
tution of $158,990. This sentence was for viola­      Units in the Army with approximately 10,000
tions of 18 USC 1030(a)(4), Unauthorized Ac­          soldiers and two Marine Wounded Warrior
cess of a Protected Computer System; 18 USC           Battalions in the Marine Corps with approxi­
1029(a)(2), Identity Theft; and 18 USC 1028(a)        mately 1,000 Marines. The Brooke Army Medi­
(1), Aggravated Identity Theft.                       cal Center located at Fort Sam Houston, Texas,

                                                                                                             OCTOBER 1, 2010 TO MARCH 31, 2011 39
Core Mission Areas



                                       is a modern state-of-the-art, 450-bed health-          (e.g., improvised explosive devices) and evacu­
                                       care facility that provides level-one trauma and       ated to Camp Al Taqaddum for evaluation and
                                       graduate medical education. Among the BAMC             treatment.
                                       WTU warriors, were severely burned patients,           Findings: DoD IG found that the Navy physician
                                       amputee patients, Traumatic Brain Injury pa­           appeared to have misled research authorities
                                       tients, Post Traumatic Stress Disorder patients,       and executed a defective medical research pro­
                                       and other wounded, ill, and injured patients.          tocol, which may have injured participating per­
                                       Findings: DoD IG found that BAMC WTU es­               sonnel. The Navy physician’s activities appeared
DoD IG conducted an assessment of      tablished a number of noteworthy practices for         to have involved potential medical research mis­
wounded warrior care .                 supporting the comprehensive care, healing,            conduct, possible sub-standard patient care, and
                                       and transition of wounded warriors, includ­            revealed weaknesses in the process used during
                                       ing developing a high-interest patient database        the review and approval of the medical research
                                       to help with the care and risk management of           in Iraq. Among other things, the Navy physician
                                       complex patients. Further, DoD IG observed             failed to disclose that he had a financial inter­
                                       that the BAMC management and staff were fully          est in NAC. He also did not obtain an investi­
                                       dedicated to providing the best available care         gational new drug approval from the Food and
                                       and services for helping wounded warriors heal         Drug Administration. Additionally, he may have
                                       and transition. However, a number of significant       used coercion and undue influence on the re­
                                       challenges were identified that, if addressed by       search subjects to encourage their participation
                                       BAMC management, would increase program                in the study. Further, the Navy physician failed
                                       effectiveness.                                         to properly care for service members by using
                                       Result: These challenges included: developing          an inappropriate screening tool to assess for
                                       an operational definition of a “successful” end-       mTBI, using an experimental drug that was not
                                       state for a wounded warrior, including measur­         FDA approved, and administering medications
                                       able criteria; applying more carefully and consis­     contraindicated in early treatment of mTBI. The
                                       tently the Army eligibility criteria for individuals   research protocol and subsequent oversight also
                                       considered for assignment or attachment to the         revealed weaknesses in the process used during
                                       WTU; and determining case loads by the com­            the review and approval of the clinical trial and
                                       plexity of wounded warriors’ care and needs,           the lack of regulations / instructions to support
                                       rather than by numerical staffing ratios.              research conducted in a joint environment.
                                       Report No. SPO-2011-004                                Result: The assistant secretary of defense for
                                                                                              health affairs agreed to conduct health assess­
                                       Assessment of Allegations Concerning                   ments to determine if there were any adverse ef­
                                       Traumatic Brain Injury Research Integrity in           fects on the health of the service members who
                                       Iraq                                                   participated in the mTBI clinical trial. The U.S.
                                       Overview: DoD IG reviewed, in response to a            Army Medical Command agreed to investigate
                                       complaint to the Defense Hotline, allegations          potential medical research misconduct by the
                                       that a military physician conducted sub-stan­          U.S. Navy physician and take appropriate action
                                       dard human subject research on deployed and            as required.
                                       injured service members in Iraq. The research          Report No. SPO-2011-005
                                       protocol, “The Use of Anti-Oxidants to Reduce
                                       Sequela of Mild Traumatic Brain Injury After           Review of Matters Related to the Death of a
                                       Blast Exposure,” was conducted by a Navy phy­          Hospitalman while in U.S. Navy Custody
                                       sician at Camp Al Taqaddum, Iraq, between              Overview: This review was initiated in response
                                       December 2008 and March 2009. The research             to a request from former Representative Mark
                                       protocol proposed that early treatment with the        Steven Kirk (R – Ill.) on behalf of the parents
                                       antioxidant n-Acetylcysteine could reduce the          of a Navy hospitalman following his suicide
                                       effects of mTBI after a concussion, specifically,      on January 27, 2008, while in custody of Navy
                                       dizziness and hearing loss. Potential human            law enforcement officials at Naval Air Station
                                       subjects for this study were 80 deployed service       Brunswick, Maine. On the day of his death, the
                                       members, recently exposed to a blast incident          hospitalman became distraught and threatened

40 SEMIANNUAL REPORT TO THE CONGRESS
to commit suicide. The authorities were noti­         Result: As a result, DoD IG recommended the
fied and responded accordingly. The hospital-         DoN Bureau of Medicine and Surgery correct
man was taken into custody and placed in hand         the deficiencies in the line of duty investigation,
irons at his quarters. However, at one point the      including thoroughly documenting and sup­
hospitalman was allowed to use his restroom           porting findings of facts; investigating the com­
under the supervision of an emergency medical         mand’s response to suicide warning signs dis­
technician. With one restraint removed, while         played and apparently recognized by others; and
in the restroom, he produced a handgun and            making recommendations as originally directed
shot himself. DoD IG reviewed the facts and           by the convening authority. The DoN Bureau of
circumstances of the incident, and reviewed the       Medicine and Surgery complied.
investigations completed by NCIS; command­            Report No. IPO2010E002
ing officer, Naval Health Clinic New England;
and commanding officer, NASB. DoD IG also
interviewed sailors, civilian police officers, NCIS   Joint Warfighting and
agents and supervisors, investigating officers,
and other witnesses.
                                                      Readiness
                                                      First among DoD’s priority national security
Findings: DoD IG found that the NCIS investi­         objectives is to prevail in today’s wars. As de­
gation that concluded the cause of the hospital­      scribed in the QDR, the United States “must
man’s death was a gunshot wound to the chest          ensure the success of our forces in the field – in
and the manner of death as suicide, was con­          Afghanistan, Iraq, and around the world.” Criti­
ducted in accordance with DoD, Department             cal to achieving this objective in Southwest Asia
of Navy, and NCIS standards. The command di­          is developing increasingly self-reliant Iraqi and
rected investigation, not required by policy but      Afghan Security Forces that can provide secu­
ordered by the commanding officer, NASB out           rity for the their people with reduced U.S. and
of an abundance of caution found:                     international assistance.
•		 The training of the responding police offi­
     cers was in accordance with departmental         In Iraq, the United States is conducting a respon­
     policy and adequate, and the officers were       sible drawdown while continuing the important
     qualified to perform their duties.               mission of advising, training, and equipping the
•		 The actions of the responding police officers     Iraqi Security Forces. With U.S. forces sched­
     were deficient and allowed the hospitalman       uled to be withdrawn from Iraq by December
     to harm himself.                                 31, 2011, the ISF has taken the lead in protecting
DoD IG concurred, finding that based upon             the Iraqi people. In Afghanistan, U.S. and inter­
DoD and DoN standards, DoN officials imple­           national forces are continuing their mission to
mented realistic corrective measures to prevent       train, equip and mentor the Afghan National
recurrences similar to the hospitalman’s death.       Security Forces.
DoD IG also found that:
•		 DoN officials disclosed information in re­        Assessment of U.S. Government Efforts to
     sponse to the father’s Freedom of Informa­       Develop the Logistics Sustainment Capability
     tion Act request in accordance with the          of the Iraq Security Forces
     provisions of the Privacy Act and FOIA.          Overview: DoD IG reviewed a key goal of the
•		 The line of duty death investigation ordered      commander, United States Forces-Iraq, to devel­
     by the commanding officer, Naval Health          op an effective logistics sustainment capability
     Clinic New England was inadequate.               that supports the enduring security operations
DoD IG found that, although the investigating         of the Iraqi Security Forces by the time U.S.
officer correctly determined the hospitalman’s        forces withdraw at the end of 2011. Consider­               DoD IG reviewed the logistics
death was in the line of duty, he failed to rec­      able progress has been made; however, there re­             capability of the Iraq Security Forces.
ognize certain information that he collected          mains a significant gap between the Minimum
amounted to suicidal behavior warning signs,          Essential Capabilities defined as constituting the
and did not investigate command actions taken         crucial foundation of a sustainable ISF logistical
in response thereto.                                  system and current ISF logistics capability. Fail-

                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 41
Core Mission Areas



  “As of July 2010, ISAF                  ure to build a logistics sustainment foundation         opment of the Afghan National Police, which
  had exceeded the mile-                  could have significant consequences with re­            is recognized by the International Security As­
                                          spect to ISF’s ability to provide for Iraq’s internal   sistance Force and the coalition as essential to
  stone set for expanding                 and external defense.                                   success in the counterinsurgency campaign. As
  ANP forces, reaching                    Findings: DoD IG found that to close this ca­           of July 2010, ISAF had exceeded the milestone
  109,000 personnel                       pability shortfall in the relatively brief time         set for expanding ANP forces, reaching 109,000
  three months ahead of                   remaining to USF-I will require an intensi­             personnel three months ahead of schedule.
  schedule.”                              fied effort that would appear to be beyond the          Findings: DoD IG found that ISAF has taken
                                          on-the-ground forces’ resource capability. Ad­          the initiative to close the ANP logistics capabil­
                                          ditional subject matter expertise support from          ity gap, implementing a logistics infrastructure
                                          DoD and its supporting logistics organizations          development plan that is building supply depots
                                          probably will be required to accomplish the mis­        across the regional commands, down to provin­
                                          sion with respect to building ISF logistical ca­        cial level, that are closer to forward deployed
                                          pacity. This requirement could be accentuated           police units. The command has established ANP
                                          if DoD does not receive the additional Iraq Se­         development as a priority objective and is imple­
                                          curity Forces Funds requested for FY 2010 and           menting an aggressive strategy that has achieved
                                          FY 2011 in order for it to provide the required         progress with respect to the: transformed train­
                                          training, mentoring, and equipping assistance.          ing model; improved training quality; increased
                                          Further, the planning, programming, budgeting,          trained personnel and recruitment rate; reduced
                                          and execution processes at the Iraqi Ministry of        personnel attrition; logistics infrastructure de­
                                          Defense are generally dysfunctional. The MoD            velopment; emphasis on leadership; progress
                                          cannot currently provide effective logistics and        in mentoring by U.S. tactical units. Further, in­
                                          maintenance support to the ISF because it lacks         stitutional capacity building of the Ministry of
                                          the ability to plan, accurately generate require­       Interior is proceeding on numerous lines of de­
   DIG Kenneth Moorefield at the Afghan
   National Police Academy.
                                          ments, justify its budget, and execute its funding      velopment. Under new MoI leadership, it is ex­
                                          efficiently and effectively.                            pected to be capable of providing more effective
                                          Result: As a result, the assessment determined          management support for the ANP including in
                                          that fiscal requests made by DoD in its FY 2010         the area of logistics.
                                          supplemental and FY 2011 budget with respect            Result: As a result, ISAF needs to institutional­
                                          to the Iraq Security Support Fund play a criti­         ize the ANP force development/coordination
                                          cal role in enabling forces in Iraq to accomplish       process between its subordinate commands and
                                          their mission of ensuring that the ISF are ca­          document the ANP force size necessary to ex­
                                          pable of providing for their own long term lo­          ecute the counterinsurgency strategy. The on­
                                          gistical sustainment. Corrective action for issues      the-ground trainers and mentors working to
                                          involving dysfunctional ISF processes must start        execute ANP fielding plans may be insufficient.
                                          at the ministerial level; USF-I requires addi­          In addition, the untrained ANP personnel, esti­
                                          tional planning, programming, budgeting, and            mated at 40 percent, threaten the viability of the
                                          execution expertise and assistance from DoD.            ANP. ANP logistics capacity significantly lags
                                          Report No. SPO-2011-001                                 operational needs. Finally, corruption and lack
                                                                                                  of governance/Rule of Law impede ANP effec­
                                          Assessment of Efforts to Train, Equip, and              tiveness and the implementation of the COIN
                                          Mentor the Expanded Afghan National Police              strategy.
                                          Overview: DoD IG reviewed President Obama’s             Report No. SPO–2011–003
                                          late-2009 emphasis on the importance of build­
                                          ing the Afghan National Security Forces as a            Inspection of DoD Detainee Transfers and
                                          priority objective of U.S. national security and        Reliance on Assurances
                                          military strategy in Afghanistan. Previously, the       Overview: DoD IG inspected DoD release or
                                          primary focus had been to expand the Afghan             transfer of detainees from Guantanamo Bay De­
                                          National Army. With additional resource sup­            tention Facility, Afghanistan, and Iraq between
                                          port, the major thrust of the train and equip           August 24, 2009, and August 24, 2010, to deter­
                                          efforts over the past year has been the devel­          mine if assurances were obtained that the trans­

   42 SEMIANNUAL REPORT TO THE CONGRESS
ferred individuals would not be tortured. This
inspection was conducted pursuant to a recom­
                                                      Compliance
                                                      Adherence to established legislation, rules, poli­
mendation of the Special Task Force on Inter­
                                                      cies, and ethical principles or the process of be­
rogation and Transfer Policies, an interagency
                                                      coming so, is critical to maintaining order, pub­
task force created by the president in Executive
                                                      lic trust and confidence in DoD. DoD IG plays a
Order 13491, January 27, 2009. The inspection
                                                      unique and decisive role in promoting integrity
was conducted concurrently and coordinated
                                                      and accountability in DoD personnel, programs,
with Department of State and the Department
                                                      and operations.
of Homeland Security OIGs.                                                                                       DoD IG inspected DoD transfer of
Findings: DoD IG found that within DoD,                                                                          detainees from Guantanamo Bay.
                                                      Evaluation of DoD Contracts Regarding
policies and procedures exist describing how
                                                      Combating Trafficking in Persons: U.S. Central
detainees should be treated humanely while
                                                      Command
in DoD custody. DoS has primary authority
                                                      Overview: DoD IG reviewed a sample of 368
for negotiating state-to-state assurances. DoD
                                                      DoD contracts and reports covering the U.S.
works closely with DoS when transferring de­
                                                      Central Command area of responsibility, spe­
tainees from Guantanamo Bay Detention Facil­
                                                      cifically the Republic of Iraq, the Islamic Repub­
ity using a structured checklist and timeline to
                                                      lic of Afghanistan, the State of Kuwait, the State
accomplish the transfer smoothly. Policies and
                                                      of Qatar, and the Kingdom of Bahrain. Over the
procedures are less structured and formal when
                                                      past decade, Congress passed legislation to ad­
transferring from DoD custody in Afghanistan
                                                      dress its concern regarding allegations of con­
and Iraq. A total of 4,781 detainees were report­
                                                      tractor and U.S. Forces’ involvement in sexual
ed transferred from DoD custody during the in­
                                                      slavery, human trafficking, and debt bondage.
spection timeframe.
                                                      The “William Wilberforce Trafficking Victims
Result: As a result, DoD IG recommended that
                                                      Protection Reauthorization Act of 2008” re­
the under secretary of defense for policy, detain­
                                                      quires DoD IG to investigate a sample of con­
ee policy, incorporate relevant recommenda­
                                                      tracts for which there is a heightened risk that a
tions of the Special Task Force on Interrogation
                                                      contractor may engage in acts related to traffick­
and Transfer Policies into the DoD Directive
                                                      ing in persons.
2310.01E, “Department of Defense Detainee
                                                      Findings: DoD IG found that while DoD and                      “...DoD contracting
Program.” This report is classified.
                                                      other federal law enforcement organizations
Report No. 11-INTEL-01                                                                                           offices lack an effective
                                                      were developing procedures to identify traf­
                                                      ficking in persons incidents in criminal inves­              process for obtaining
Assessment of the Defense Intelligence                                                                           information pertaining
                                                      tigative databases, DoD contracting offices lack
Operations Coordination Center
Overview: DoD IG reviewed an assessment ex­
                                                      an effective process for obtaining information                to trafficking in per-
                                                      pertaining to trafficking in persons violations             sons violations within
amined whether the Defense Intelligence Op­
                                                      within the DoD. Further, while three quarters
erations Coordination Center is resourced to                                                                                    the DoD.”
                                                      of the contracts sampled contained a combat­
conduct its end-state mission.
                                                      ing trafficking in persons clause, only little more
Findings: DoD IG could not determine if the
                                                      than half had the required Federal Acquisition
center is adequately resourced due to conflict­
                                                      Regulation clause.
ing and ambiguous policies as well as mission
                                                      Result: As a result, USCENTCOM Contracting
overlap with similar organizations within DoD.
                                                      Command agreed to ensure that the Federal Ac­
Result: As a result, DoD IG recommended the
                                                      quisition Regulation “Combating Trafficking in
Joint Staff work with the Under Secretary of De­
                                                      Persons” clause is included in all contracts. Fur­
fense for Intelligence to clarify roles and respon­
                                                      ther, the undersecretary of defense for personnel
sibilities to not only ensure resources are prop­
                                                      and readiness agreed to disseminate trafficking
erly allocated but also eliminate stakeholder
                                                      in persons offense information received by its
confusion. This report is classified.
                                                      Office of Law Enforcement Policy and Support
Report No. 11-INTEL-03
                                                      to DoD component CTIP program officers.
                                                      Report No. SPO-2011-002


                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 43
Core Mission Areas



                                         Evaluation of the DoD Federal Voting                Assessment of Intelligence Community
                                         Assistance Program                                  Whistleblower Protection Act Allegations
                                         Overview: DoD IG reviewed the effectiveness         Overview: DoD IG assessed the validity of alle­
                                         and level of compliance of voting assistance        gations brought forward by a National Security
                                         programs. United States law requires that the       Agency employee under the Intelligence Com­
                                         inspectors general of the Army, the Navy, the       munity Whistleblower Protection Act.
                                         Air Force, and the Marine Corps conduct an          Findings: DoD IG did not substantiate the al­
                                         annual review of the effectiveness of their vot­    legations.
   DoD IG evaluated the DoD Federal      ing assistance programs and an annual review        Result: This report is classified.
   Voting Assistance Program.            of the compliance with voting assistance pro­       Report No. 11-INTEL-06
                                         grams of that service. Upon the completion of
                                         their annual reviews, each service IG is requiredEvaluation of Post-Trial Reviews of Courts-
                                         to submit to DoD IG a report on the results of   Martial within the Department of the Navy
                                         each review. The statute requires that DoD IG    Overview: The Senate Armed Services Com­
                                         submit to Congress a report on the effectiveness mittee directed DoD IG to examine the systems,
                                         during the preceding calendar year of voting as­ policies and procedures for post-trial review of
                                         sistance programs, and the level of compliance   courts-martial in the Department of the Navy
                                         during the preceding calendar year with voting   and to assess their adequacy.
                                         assistance programs as reported by each of the   Findings: Navy and Marine Corps judge advo­
                                         service inspectors general.                      cates have not fully accomplished their post­
                                         Findings: There are five compliance focus areas  trial military justice mission required in stat­
                                         associated with the Federal Voting Assistance    ute and regulation. There have been consistent
                                         Program: personnel assignments, training, ma­    failures in leadership, supervision and oversight
                                         terial distribution, communication and infor­    at all organizational levels, impacting military
                                         mation network processes, and commanders/        justice in both the Navy and Marine Corps.
                                         installation level involvement. The service in­  The failures resulted in inadequate institutional
                                         spectors general reported that their programs    vigilance to ensure process health and, in many
                                         were effective and in compliance with DoD reg­   instances, failures to exercise the diligence and
                                         ulations and public law, with a few minor excep­ competence required of legal professionals. Seri­
                                         tions they were addressing.                      ous post-trial processing problems persisted for
                                         Result: Services added the voting program to     at least the last two decades, and some old Navy
                                         their instructions/memoranda and inspection      and Marine Corps cases with lengthy post-trial
                                         checklists, increasing the visibility and em­    processing delays still find their way into the ap­
                                         phasizing the importance of the program. The     pellate courts. DoD IG acknowledged DoN has
                                         service inspectors general reports indicate that instituted many improvements over the last four
                                         efforts were made at all levels to ensure voting years, both completed and ongoing initiatives.
                                         assistance was available and publicized. MilitaryResults: The secretary of the Navy concurred in
                                         installations routinely provided voting program  whole or in part with the recommendations to
                                         information on their web sites.                  improve their processes and is taking the neces­
                                         Report No. SPO-2011-006                          sary corrective actions. Such actions include is­
                                                                                          suing policy that establishes uniform post-trial
                                         Inspection of an Office of the Under Secretary 
 processing standards, procedures, time guide­
                                         of Defense Program Number 3: Phase Two
          lines and process responsibilities for the Navy
                                         Overview: The inspection assessed life-cycle 
 and Marine Corps; developing an integrated
                                         management. 
                                    DoN military justice case processing and track­
                                         Findings: Several management control deficien­ ing system; and conducting a detailed analysis
                                         cies were noted.
                                to establish an independent Defense Command
                                         Result: This report is classified.
              and an associated chief defense counsel position.
                                         Report No. 11-INTEL-05
                          Report No. IPO2010E003



  44 SEMIANNUAL REPORT TO THE CONGRESS
                    3


Enabling Mission Areas

Enabling Mission Areas



                                   Overview                                            Figure 3.1

Hotline
                           The Defense Hotline continues its primary mis­
                                   sion of providing a confidential and reliable
                                                                                       Distribution of Method of Hotline Contacts Received



                                   source for military service members, DoD civil­     E-mail, 36%                                                                 U.S. Mail, 7%
                                   ians, contractor employees, and the public to re­
                                   port fraud, waste, mismanagement, abuse of au­                                                                                       Internet, 10%
                                   thority, threats to homeland security, and leaks
                                   of classified information.                                                                                                              GAO, 2%
                                                                                                                                                                           Congressional
                                                                                                                                                                           Inquiries,1%
                                   The Defense Hotline received 11,062 contacts
                                   from the general public and members of the
                                   DoD community: 7 percent via mail, 36 percent
                                   via e-mail, 10 percent via the internet, 2 per­
                                   cent via the Government Accountability Office,
                                   44 percent via telephone, and one percent from                              Telephone, 44%
                                   congressional inquiries. Based on these contacts
                                   the Hotline initiated 1,418 cases.



                                                                                          Telephone



                                                                                                      Email



                                                                                                                U.S. Mail



                                                                                                                            Internet



                                                                                                                                       GAO



                                                                                                                                                  Congressional
                                                                                       Figure 3.2
                                   Open Cases                                          Distribution of Cases Initiated by Category
                                   The 1,418 cases opened this reporting period are
                                   classified in the following categories:             500
                                   •		 Internal misconduct (408)
                                   •		 Reprisal (280)                                  400
                                                                                                         408
                                   •		 Finance (183)
                                   •		 Contract administration (185)
                                                                                       300
                                   •		 Government Property (70)                                               280

                                   •		 Personnel matters (81)
                                   •		 Programs (58)                                   200                         183185

                                   •		 Military support services (13)
                                   •		 Medical (30)                                    100                                    70 81
                                   •		 Mental health evaluation (5)                                                                    58
                                                                                                                                                  30                       23 31
                                                                                                                                                                                 40
                                   •		 Non-appropriated fund (6)                           0
                                                                                                                                             13                   5 6	 5

                                   •		 Recovery Act (5)
                                                                                                         Contract Administration
                                                                                                             Internal Misconduct
                                                                                                                         Reprisal
                                                                                                                          Finance

                                                                                                           Government Property
                                                                                                                Personnel Matters
                                                                                                                        Programs
                                                                                                         Military support services




                                                                                                                         Security
                                                                                                                     Procurement
                                                                                                                            Other
                                                                                                                          Medical
                                                                                                         Mental health evaluation
                                                                                                          Non-appropriated fund
                                                                                                                    Recovery Act



                                   •		 Security (23)
                                   •		 Procurement (31)
                                   •		 Other (40)

                                   Closed Cases
                                   During this reporting period the Defense Hot-
                                   line closed 1,144 cases as follows:
                                   •		 599 cases referred within DoD IG.
                                   •		 409 cases referred to the military depart­
                                        ments.
                                   •		 135 cases referred to other Defense agen­
                                        cies.
                                   •		 1 case referred to a non-DoD agency.
                                   •		 875 cases were not referred and dismissed
                                        without action.



46 SEMIANNUAL REPORT TO THE CONGRESS
Hotline Case Referrals                             During the reporting period, DoD IG pursued
The Defense Hotline initiated 1,418 cases to the   the following initiatives to improve operations:
following activities:
                                                   •		 The Defense Hotline participated in a work­
                                                       ing group hosted by the Inspector General
Military Departments                                   Criminal Investigators Academy to develop
          AF                                109        the hotline operator training program. The
          Army                              316        curriculum was designed to instruct skills
          Navy                               96        and techniques needed to accurately collect
          USMC                               33        critical information from complainants. The
          JS                                 21        program covers introduction to the IG com­
                                                       munity, the IG Act of 1978, Whistleblower
DoD IG
         MRI                                159        Protection Act, confidentiality of complain­
         ISO                                112        ants, interviewing skills, and a best practices
         CRI                                 29        forum.
         Hotline                            293
         Audits                              23    •		 The Defense Hotline staff received spe­
         Investigations                      48        cialized training to respond to calls from
         Intel                                2        wounded warriors, concerned family mem­
         OPR                                  4        bers, or friends, who appear to be dealing
         GC                                   1
                                                       with stressful situations, including suicide-
         IPO                                  2
         SPO                                  1        related issues. The training was conducted
                                                       by the Office of the Under Secretary of De­
                                                       fense (Personnel & Readiness), Wounded
Other Defense Agencies                                 Warrior Care & Transition Policy Office.
         AAFES                                6        The training was tailored to the mission of
         COMPTR                               4        the Defense Hotline and covered an array
         DARPA                                2        of resources available to active, former, re­
         DEFENSE MEDIA                        1        tired, reserve, and National Guard soldiers,
         DCMA                                12
                                                       sailors, airman, Marines, and DoD civilians.
         DODEA                               10
         DCAA                                 3
         DECA                                10
         DFAS                                38
         DIA                                  4
         DISA                                 1
         DLA                                 12
         DSS                                  4
         DTRA                                 2
         GC                                   4
         MDA                                  1
         MEPCOM                               1
         NONDOD                               6
         NGA                                  2
         NSA                                  1
         PFPA                                 3
         POLICY                               3
         PUBLIC AFFAIRS                       1
         AT&L                                 2
         HEALTH AFFAIRS                       5
         P&R                                  8
         TRICARE                             17
         USDI                                 2
         WHS	                                 2

                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 47
Enabling Mission Areas
Outreach



                                    During the period, the Department received            Examples of Substantiated Military Whistle-
Whistleblower                       354 complaints of whistleblower reprisal
                                    through the Defense Hotline and other sources
                                                                                          blower Reprisal Cases
                                                                                          •		 An Air Force Reserve officer, serving as
Protection                          and closed 248. Of the 248 closed, 60 were full
                                    investigations, with 13 complaints substantiated
                                                                                              a weather officer supporting Afghanistan
                                                                                              predator operations from a stateside loca­
                                    (22 percent).DoD IG conducted a total of                  tion, was removed as assistant flight com­
                                    29 outreach and training events attended by               mander, threatened with removal of his
                                    496 military and civilian IG representatives.             specialty designation, and threatened with
                                    Highlights include a substantiated allegation             the denial of active duty orders in reprisal
                                    of reprisal involving an Army employee who                for reporting his supervisor’s time and at­
                                    provided testimony to the House Armed                     tendance violations to the commander. The
                                    Services Committee and a substantiated                    officer was granted active duty orders and
                                    allegation of reprisal involving a Navy officer           his specialty code was not removed.
                                    who reported inappropriate conduct and                •		 A Navy officer received an adverse fitness
                                    misuse of government property to his chain of             report in reprisal for making protected
                                    command and congressional representative.                 communications to members of his com­
“As of March 31,                                                                              mand chain and his congressional repre­
2011, DoD had 351                   Military Reprisal Investigations                          sentative concerning inappropriate conduct
                                    DoD IG investigates or oversees allegations of            and misuse of government property. The
open cases involving                                                                          officer has petitioned the Board for Correc­
allegations of                      military, non-appropriated fund, Defense con­
                                    tractor whistleblower reprisal; and allegations of        tion of Naval Records for corrective action.
whistleblower reprisal              improper referral of members of the Armed Ser­        •		 An Army National Guard warrant officer pi­
filed by military service           vices for mental health evaluations. As of March          loting helicopters in Iraq received an unfa­
members, Defense                    31, 2011, DoD had 351 open cases involving al­            vorable officer evaluation report in reprisal
                                    legations of whistleblower reprisal filed by mili­        for his complaints to an inspector general
contractor employees,                                                                         concerning flying safety and unfair treat­
and non-appropriated                tary service members, Defense contractor em­
                                    ployees, and non-appropriated fund employees.             ment, and for a prior complaint of reprisal
fund employees. ”                   About 77 percent of those cases were received             to the Defense Hotline.
                                    by service IGs. Results of service IG investiga­      •		 An Army platoon sergeant reprised against
                                    tive work will be forwarded to DoD IG for final           four of his soldiers by threatening them
                                    approval.                                                 with administrative separation from the
                                                                                              Army for complaining to the IG about his
                                    During the reporting period, DoD IG and ser­              leadership style. The soldiers have all been
                                    vice IGs received 302 complaints of whistleblow­          retained.
                                    er reprisal and closed 237 cases. Of the 237 cases,
                                    188 were closed after preliminary inquiry deter­      Corrective or disciplinary action for the respon­
                                    mined further investigation was not warranted,        sible management officials is pending at this
                                    and 49 were closed after full investigation. Of       time.
                                    the 49 cases investigated, 10 (20 percent) con­
                                    tained one or more substantiated allegations of       Improper Referrals for Mental Health
                                    whistleblower reprisal. DoD IG has statutory          Evaluations
                                    responsibility for oversight review of all cases      As of March 31, 2011, DoD IG had 15 open
                                    of military whistleblower reprisal regardless of      cases involving allegations of improper referrals
                                    origination, and reviews conducted by the ser­        for mental health evaluation. During the period,
                                    vice IGs and DoD IG.                                  DoD IG closed 41 cases involving allegations of
                                                                                          improperly mental health referrals. Sixteen (39
                                    DoD IG continued its expanded outreach, com­          percent) of those cases substantiated that com­
                                    munication, and training to whistleblower stake­      mand officials and mental health care provid­
                                    holders and service IG counterparts, reaching         ers failed to follow the procedural requirements
                                    241 military IGs with a total of 131 instruction      for referring service members for mental health
                                    hours.                                                evaluations under DoD Directive 6490.1, “Men­

 48 SEMIANNUAL REPORT TO THE CONGRESS
tal Health Evaluations of Members of the Armed       intelligence and counterintelligence community
Forces.”                                             stakeholders and the remaining outreach events
                                                     were conducted for supervisors and employees
Civilian Reprisal Investigations                     throughout DoD.
During the first half of FY 2011, DoD IG con­
tinued to select cases involving protected disclo­   Examples of Substantiated Civilian
sures in five core mission areas: aviation main­     Whistleblower Reprisal Cases
tenance, health and welfare of service members       •		 An Army employee was reprised against af­
deployed or returning from Southwest Asia,               ter providing testimony to a subcommittee
chemical weapons safety, supply logistics, and           of the House Armed Services Committee
intelligence operations. With respect to the in­         regarding a lack of medical care afforded
telligence and counterintelligence communities           to DoD civilian employees injured while
and matters involving security clearances, DoD           serving in combat zones. The report was re­
IG completed five full investigations into alleged       ferred to command officials with the recom­
reprisals within Defense Intelligence Agency,            mendation for remedial action.
National Security Agency, Department of Army,        •		 An employee at an Army chemical muni­
and Department of the Navy. Other activities re­         tions depot was reprised against for disclos­
viewed included alleged reprisal against sources         ing improperly installed chemical monitor­
reporting illegal technology transfers; inad­            ing devices within storage igloos. The report
equate fielding of equipment to Southwest Asia;          was referred to command officials with the
improper medical treatment for soldiers and              recommendation for remedial action.
civilians returning from combat theaters; and        •		 An Army computer scientist was reprised
violations of the Federal Acquisition and Joint          against after disclosing violations of the
Ethics Regulations.                                      Federal Acquisitions Regulation and the
                                                         Joint Ethics Regulation by agency officials.
As of March 31, 2011, DoD IG had 16 open cases.          The report was referred to command offi­
During the reporting period, DoD IG received             cials with the recommendation for remedial
52 complaints of civilian whistleblower reprisal,        action.
accepted 12 complaints for investigation, and
closed 11 investigations. Of the 11 investiga­       Corrective Action Taken on Previously
tions closed, three contained substantiated alle­    Reported Civilian Whistleblower Case
gations of reprisal resulting in a 27 percent sub­   •		 A former Army employee at an Army chem­
stantiation rate. Sixty-two percent of open DoD          ical munitions depot was reprised against
IG civilian reprisal cases involved intelligence         for disclosing violations concerning weap­
and counterintelligence communities and mat­             ons handling and an improperly initiated
ters involving security clearances; the remain­          training exercise. The report was referred
ing cases involved procurement fraud sources.            to command officials for remedial action
DoD IG also conducted a total of 15 whistle-             in 2009. During the reporting period, the
blower reprisal outreach events attended by 255          Merit Systems Protection Board took action
DoD military and civilian personnel. Four out­           on the case and ordered the employee rein­
reach events (27 percent) were conducted for             stated with back pay.




                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 49
Enabling Mission Areas



                                   To promote public confidence in the integrity              did not properly resign from his military

Senior                             of DoD leadership, DoD IG conducts or pro­
                                   vides oversight on all investigations into alleged
                                                                                              technician position upon assumption of a
                                                                                              full time state position, as required by regu­

Officials
	                        misconduct by senior DoD officials (brigadier
                                   general/rear admiral and above, members of
                                                                                              lation. By failing to do so, he received over
                                                                                              $10,000 in federal pay to which he was not
                                   the senior executive service, and senior political         entitled.
                                   appointees). Misconduct allegations are non­         •		   Two senior officials misused a government
                                   criminal in nature and typically involve ethics            vehicle on multiple occasions to travel to or
                                   or regulatory violations. Most senior official in­         from commercial transportation terminals
                                   vestigations are conducted by specialized units            in the national capital region in violation
                                   within the military department IGs. DoD IG                 of DoD restrictions on such use. In addi­
                                   investigates allegations against the most senior           tion, one of the senior officials frequently
                                   DoD officials and allegations not suitable for as­         began or ended those trips at her personal
                                   signment to service IGs.                                   residence, in violation of additional restric­
                                                                                              tions. Upon being advised of the results of
                                   On March 31, 2011, there were 303 ongoing                  the investigation, the agency director re­
                                   investigations into senior official misconduct             vised internal policies to account specifi­
                                   throughout the Department, representing a 3                cally for these issues.
                                   percent increase from September 30, 2010, when       •		   A senior official improperly solicited subor­
                                   294 open investigations were reported. Over                dinates to support an event sponsored by a
                                   the past six months, the Department closed                 non-federal entity in violation of the Joint
                                   213 senior official cases, of which 45 (21 per­            Ethics Regulation.
                                   cent) contained substantiated allegations. Ad­       •		   A senior official improperly endorsed a
                                   ditionally, DoD IG completed 344 requests for              non-federal entity and misused official
                                   records checks totaling 2,613 names of officers            DoD letterhead in violation of the Joint Eth­
                                   being considered for promotion, reassignment,              ics Regulation and agency instructions. The
                                   or retirement. The Senate relies on the accuracy           agency responded by counseling the senior
                                   of these records checks when deliberating officer          official, strengthening its internal ethics
                                   nominations.                                               training program, and amending its written
                                                                                              instructions.
                                   During this period, DoD IG conducted several         •		   A general officer failed to treat subordinates
                                   sensitive investigations that directly impacted            with dignity and respect and engaged in im­
                                   the Department. In one instance, a group of                proper or inappropriate conduct that was
                                   seven senators requested an investigation into             inconsistent with the Joint Ethics Regula­
                                   the circumstances surrounding a possible vio­              tion and service instructions. The general’s
                                   lation of the Procurement Integrity Act on the             improper and inappropriate gender-based
                                   Air Force’s $35 billion procurement of 179 new             statements and other actions served to di­
                                   KC-X aerial refueling tankers.                             minish subordinate female staff. The gen­
                                                                                              eral’s actions demonstrated a lack of profes­
                                   In every instance, DoD IG expertly investigated            sional comportment and failed to recognize
                                   the facts and circumstances of the case and pre­           and moderate personal behaviors that were
                                   sented a timely and independent report of inves­           considered inappropriate, unwelcome, or
                                   tigation to management officials for appropriate           embarrassing by his subordinates. The gen­
                                   action.                                                    eral officer was subsequently relieved of his
                                                                                              duties.
                                   Examples of Substantiated Senior Official Cases      •		   A flag officer misused the official time of his
                                   •		 A general officer improperly received feder­           aide by encouraging or requesting the aide
                                       al pay in violation of the Joint Ethics Regu­          to coordinate personal events not related to
                                       lation and DoD policies governing financial            official business in violation of the Joint Eth­
                                       and personnel management. The general                  ics Regulation.


50 SEMIANNUAL REPORT TO THE CONGRESS
Testimony                                           Briefings & Requests
Section 4(a) of the Inspector General Act re­       During the reporting period, DoD IG had 32           Congressional
quires the inspector general “to review existing    meetings with Members of Congress and their
and proposed legislation and regulations relating   staff. Topics of discussion during those meet­          Testimony
to the programs and operations of [the Depart­      ings include issues such as: oversight activities
ment of Defense]” and to make recommenda­           in Southwest Asia, Operation Flicker, Afghan
tions “concerning the impact of such legislation    National Police, organizational changes within
or regulations on the economy and efficiency in     the audit component, whistleblower issues, and
the administration of programs and operations       BRAC issues.
administered or financed by [the Department]
or the prevention and detection of fraud and        DoD IG received 140 new congressional inqui­
abuse in such programs and operations.” DoD         ries and closed 136 cases. New inquires involved
IG is given the opportunity to provide informa­     issues such as requests related to reprisal inves­
tion to Congress by participating in congressio­    tigations; concern about the award of the Air
nal hearings and briefings.                         Force tanker contract, requests related to reviews
                                                    of senior DoD officials, and requests for investi­
On November 15, 2010, Inspector General             gations related to defective fuses in grenades and
Heddell testified before the Subcommittee on        Gyroscopes in Blackhawk and Chinook                       Inspector General Heddell testifies on
                                                                                                              contingency contracting.
Contracting Oversight, Senate Committee on
Homeland Security and Governmental Affairs,
on “Oversight of Reconstruction Contracts in
Afghanistan and the Role of the Special Inspec­
tor General.” Inspector General Heddell dis­
cussed DoD IG oversight efforts in Afghanistan
and noted that over 200 DoD IG personnel had
been deployed into the region for a significant
amount of time since the start of operations in
Southwest Asia.




                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 51
Enabling Mission Areas



                                        DoD IG outreach activities include chairing and      ing and planned oversight impacting operations
Outreach
                               participating in several coordination groups and
                                        task forces as well as providing training.
                                                                                             in Afghanistan. Participants meet on a near
                                                                                             monthly basis and include representatives from
Activities
                             Inspector General Visits U.S. Pacific Command
                                                                                             all OIG offices operating in Afghanistan, includ­
                                                                                             ing office directors from DoD, USAID, DoS, and
                                        In October 2010, Inspector General Heddell           the Special Inspector General for Afghanistan
                                        conducted a follow-up from his March 2010 visit      Reconstruction. The Afghanistan Shura last met
                                        in order to assess progress over the past seven      in March 2011.
                                        months with issues related to the transfer of U.S.
                                        forces from Okinawa, Japan to Guam.                  Army Contracting Command Outreach
                                                                                             In response to contracting challenges in South­
                                        Interagency Coordination Group - Guam                west Asia, DoD IG and the Army Contracting
                                        Realignment                                          Command established a quarterly outreach pro­
                                        In December 2010, Inspector General Heddell          gram to discuss relevant contract related chal­
                                        hosted the semiannual meeting of the Inter­          lenges and observations impacting operations in
                                        agency Coordination Group for the Guam Re­           Southwest Asia. The third outreach session was
                                        alignment. The purpose of the group is for senior    held in January 2011 and discussed challenges
                                        oversight leadership to coordinate and discuss       and observations. The group also discussed the
                                        relevant matters for planning and conducting         impact of DoD IG report Contingency Con­
                                        oversight supporting the Guam realignment ef­        tracting: A Framework for Reform.
DoD IG host s the Interagency Coordi­
nation Group - Guam Realignment.        forts.
                                                                                             DIG for Investigations Visits Southwest Asia
                                        Joint Inspectors General Activities Program          In January 2011, Deputy Inspector General for
                                        DoD IG manages a Joint Activities Division           Investigations James Burch met with senior mili­
                                        to interface with DoD agencies, other federal        tary officers and counterparts from other federal
                                        agencies, and joint IGs worldwide; develop and       agencies, as well as with DCIS special agents as­
                                        sustain joint IG publications; develop and de­       signed to Southwest Asia and Germany to gain
                                        ploy joint IG training; conduct mobile training      insight into how DCIS can better assist DoD in
                                        teams and staff assistance visits; and develop       accomplishing its mission. This visit resulted in
                                        and deploy an integrated knowledge manage­           establishing a presence on various multi-orga­
                                        ment system and structure. DoD IG conducted          nizational task forces in Afghanistan, including
                                        one resident DoD joint IG course and provided        Task Force 2010 and the Combined Joint Inter­
                                        three mobile training teams during the reporting     agency Task Force – Shafafiyat. These initiatives
                                        period.                                              provide commanders and acquisition teams with
                                                                                             situational understanding regarding the flow of
                                        Southwest Asia Joint Planning Group                  contract funds in the Combined Joint Opera­
                                        Special Deputy Inspector General for Southwest       tions Area.
                                        Asia Mickey McDermott chairs the Southwest
                                        Asia Joint Planning Group, which meets quar­         Government Contracting Ethics and
                                        terly in order to coordinate and deconflict feder­   Compliance Panel
                                        al and DoD oversight activities related to Over­     DoD IG participated on the American Con­
                                        seas Contingency Operations. The group held its      ference Institute’s 3rd Advanced Forum on
                                        sixteenth meeting in February 2011. During this      Government Contracting Ethics and Compli­
                                        reporting period, the Fiscal Year 2011 Compre­       ance Panel; in a session entitled Deciding When
SDIG Mickey McDermott chairs the
Southwest Asia Joint Planning Group.    hensive Oversight Plan for Southwest Asia and        and How to Disclose Under FAR Mandatory
                                        Surrounding Areas was issued.                        Disclosure Rules and Ensuring “Full Coopera­
                                                                                             tion.” Additionally, DoD IG provided training
                                        Afghanistan Shura                                    to approximately 250 attorneys, acquisition pro­
                                        The Afghanistan Shura is facilitated in Afghani­     fessionals, Defense auditors, and contractors in
                                        stan by U.S. Forces-Afghanistan and DoD IG.          venues including the National Reconnaissance
                                        The Afghanistan Shura discusses relevant ongo­       Office 2010 Fraud Prevention and Detection

52 SEMIANNUAL REPORT TO THE CONGRESS
Symposium, the BAE Law Department’s An­              tion to gather operational insight through the
nual Training, and the Defense Contract Audit        daily challenges witnessed by USCYBERCOM’s
Agency Executive Steering Committee Meeting.         Global Information Grid defenders, and develop
                                                     leads for potential cyber-related criminal inves­
Iraqi Ministry of Interior Visits DoD IG             tigations having a DoD nexus.
In December 2010, Inspector General Heddell
hosted the Iraqi MoI assistant deputy inspector      Asset Forfeiture Program
general to discuss their plans for the formula­      The DoD IG asset forfeiture program continues
tion of an Inspector General Training University     to effectively provide forfeiture support to inves­         Inspector General Heddell meets with
within the Iraqi Interior Ministry.                  tigations. Since the inception of the program in            the Iraqi Ministry of Interior officials.
                                                     May 2007, DoD IG has participated in the sei­
Inspector General Meets with Israeli Ministry of     zure of assets totaling approximately $562 mil­
Defense Inspector General                            lion. During the current six-month reporting
In October 2010, Inspector General Heddell met       period, DoD IG participated in investigations
with the defense establishment inspector general     that led to court orders of final forfeiture in the
for the State of Israel MoD.                         amount of $24 million.

National Cyber Investigations Joint Task Force       Undercover Operations
In June 2010, DCIS began participation in the        DCIS has continued to utilize undercover op­
National Cyber Investigations Joint Task Force, a    erations in order to proactively combat bribery,
FBI lead Joint Task Force. This task force focuses   product substitution, computer crimes, terror­
on the goal of coordinating cyber investigations     ism, and the illegal exportation and theft of criti­
and operations, taking advantage of the unique       cal U.S. technology at an unprecedented rate.
tools and expertise each of the 16 member agen­      Partnered with the Immigration and Customs
cies brings to the cyber fight. Because almost any   Enforcement, the Federal Bureau of Investiga­
complex crime has some cyber aspect to it, task      tion, the Department of Commerce, and the Na­
force members often discover criminal activities     val Criminal Investigative Service utilizing DCIS
beyond computer intrusion (“hacking”) cases,         took part in 16 undercover operations to infil­
reaching into other areas such as fraud, terror­     trate, investigate, and prosecute criminal organi­
ism, product substitution, and theft. The task       zations posing a threat to DoD. These operations
force helps DCIS to further protect the U.S. mili­   resulted in four arrests; seven criminal charges;
tary from threats in the cyber arena and the DoD     nine convictions; $963,034 in restitution, fines,
Global Information Grid.                             and penalties; 268 months imprisonment; 324
                                                     months of probation; and more than $1 million
Cyber Command and Defense Cyber                      in recovered government property.
Investigative Coordination Center
With the standup of the United States Cyber          Principal Deputy Inspector General and DIG
Command in late 2010, two new units were             for Auditing Visit Southwest Asia
formed and embedded within USCYBERCOM,               In March 2011, Principal Deputy Inspector
the Defense Cyber Investigative Coordination         General Lynne Halbrooks and Deputy Inspec­
Center, and the USCYBERCOM-G2X. The cen­             tor General for Auditing Daniel Blair traveled to
ter supports the law enforcement requirements        Southwest Asia to meet with military command­
of the Defense Criminal Investigative Organiza­      ers and personnel as well as attend the Rehearsal
tions while the USCYBERCOM-G2X addresses             of Concept drill at Camp Arifjan. The Third
matters involving military counterintelligence.      Army hosted the drill to discuss the transition             PDIG Lynne Halbrooks visits with
DCIS continues to participate, maintain visibil­     and reposturing of equipment and materiel from              personnel in Southwest Asia.

ity, and support the de-confliction of the DCIOs     Iraq. The key tasks were to assess requirements
investigations and counter-intelligence opera­       and equipment disposition against capacities
tions. By co-locating with USCYBERCOM, the           and determine the limiting factors.
Defense Cyber Investigative Coordination Cen­
ter and DCIS are strategically placed in a posi­

                                                                                                            OCTOBER 1, 2010 TO MARCH 31, 2011 53
Enabling Mission Areas



                                       Inspector General Travels to Southwest Asia          Inquiry. During this reporting period, areas of
                                       In November 2010, Inspector General Heddell          focus for the committee included: coordination
                                       made his third trip to Southwest Asia where he       with the CIGIE Cyber Security Working Group
                                       met with deployed personnel, 15 U.S. general         to explore cyber security issues as they relate to
                                       officers, two non-U.S. general officers, and addi­   the IG community, the impact of recommenda­
                                       tional senior commanders in order to evaluate        tions on accreditation of federal forensic labora­
                                       the role of DoD IG in Afghanistan and Kuwait.        tories on digital evidence unit, and the Trusted
                                                                                            Internet Connections Initiative.
Inspector General Heddell meets with   Council of Inspectors General for Integrity and
U.S. troops in Southwest Asia.         Efficiency                                           Defense Council on Integrity and Efficiency
                                       The Council of Inspectors General for Integrity      The DCIE is chaired by Inspector General Hed­
                                       and Efficiency was statutorily established as an     dell and meets on a quarterly basis to discuss is­
                                       independent entity within the executive branch       sues of common interest, share information and
                                       by the Inspector General Reform Act of 2008          best practices, and build closer working relation­
                                       to address integrity, economy and effectiveness      ships among members of the oversight commu­
                                       issues that transcend individual government          nity within the Department. Key presentations
                                       agencies; and increase the professionalism and       and topics of discussion during the reporting
                                       effectiveness of personnel by developing poli­       period included: secret-level briefing by assis­
                                       cies, standards, and approaches to aid in the es­    tant to the secretary of defense for intelligence
                                       tablishment of a well-trained and highly skilled     oversight on the inquiry into possible question­
                                       workforce in the OIGs. DoD IG is an active par­      able intelligence activities by DoD personnel and
                                       ticipant in the CIGIE, serving as a member of        contractors and the Defense Security Service
                                       the CIGIE Executive Council; as a chair of the       mission briefing providing an overview of DSS
                                       CIGIE Information Technology Committee; and          and the role of the DSS inspector general.
                                       as editor-in-chief of the CIGIE Journal of Public




54 SEMIANNUAL REPORT TO THE CONGRESS
            4


Services

Services



                                ARMY AUDIT AGENCY                                    program managers needed to place more

Army                            To accomplish its mission, the U.S. Army Audit
                                Agency relies on a work force of highly trained
                                                                                     emphasis on performing Verification, Validation
                                                                                     & Accreditation activities on acquisition-related
                                                                                     M&S applications. Also, the Army did not have
                                professional auditors, many with advanced            visibility over the scope of acquisition-related
                                degrees and professional certifications. USAAA’s     M&S efforts and related costs. Specifically, the
                                staff consists of approximately 600 employees        AMSO was not organizationally and functionally
                                and is organized into 18 functional audit teams      aligned with program executive officer and
                                that provide audit support to all aspects of Army    program manager chain-of-command structures
                                operations. USAAA also maintains a significant       to monitor the management and use of M&S;
                                presence in the Central Command area of              and did not have the ability to capture planned
                                responsibility assisting Army commanders.            M&S investments, particularly for acquisition
                                At the end of March 2011, it had 29 deployed         efforts. Consequently, the AMSO could not
                                auditors in Iraq, Kuwait, and Afghanistan.           develop an M&S Investment Plan or establish
                                Overall, USAAA has deployed more than 150            metrics to monitor and evaluate the use of
                                auditors since 2002 and issued approximately         acquisition-related M&S throughout the Army,
                                100 reports on Operations Enduring and Iraqi         hindering its mission of support to the Army
                                Freedom.                                             M&S community.
                                                                                     Report No. A-2011-0031-ALA
“...USAAA published             The goal of USAAA is to be a highly sought after
79 reports, made over           and an integral part of the Army by providing        Army Rapid Acquisition Processes –
                                timely and valued services that focus on the         Capabilities Development for Rapid Transition
245 recommendations,            evolving needs of Army leadership. To ensure         Process
and identified over             its audits are relevant to the needs of the Army,    USAAA initiated this audit under the authority
$1.5 billion of potential       USAAA refined its strategic audit planning           of the auditor general. The audit reviewed the
monetary benefits.”             process this fiscal year, placing greater emphasis   Army’s process for identifying, assessing, and
                                on collaboration with the Army’s most senior         recommending rapidly acquired capabilities for
                                leaders and on use of detailed corporate risk        transition to acquisition programs, which was
                                assessment to ensure that audits focus on            the CDRT process. USAAA determined that
                                significant risks and senior leader priorities.      the Army effectively used the CDRT process
                                                                                     to identify, assess, recommend, validate, and
                                During the first half of FY 2011, USAAA              approve non-standard equipment for transition
                                published 79 reports, made over 245                  into acquisition programs. The Army had good
                                recommendations, and identified over $1.5            controls over the process because it solicited
                                billion of potential monetary benefits. A few of     candidate nominations, developed various
                                USAAA’s significant reports are described in the     screening techniques, performed required
                                following paragraphs:                                assessments, obtained sufficient voting and
                                                                                     input from the field, included senior Army
                                Managing Modeling and Simulation                     leader reviews, executed senior Army leader’s
                                Capabilities, Office of the Deputy Chief of Staff,   decisions to defer recommendations until
                                G-8                                                  more information was available, and allowed
                                USAAA initiated the audit under the authority        capabilities to be resubmitted. As a result,
                                of the auditor general. The Army Modeling            the Army sufficiently transitioned qualified
                                and Simulation Office developed a strategy and       capabilities into acquisition programs.
                                vision, and prescribed policies and guidance to      Report No. A-2011-0040-ALA
                                the Army M&S communities. For acquisition-
                                related M&S, program managers planned for and        Commander’s Emergency Response Program
                                used M&S, but were not effectively identifying       – Afghanistan
                                their M&S requirements and investments in            The deputy commanding general, U.S. Forces
                                planning documents; or feeding M&S data into         – Afghanistan requested this audit. USAAA
                                the Army’s M&S Resource Repository. Further,         determined whether the Commander’s

 56 SEMIANNUAL REPORT TO THE CONGRESS
Emergency Response Program in Afghanistan              recording serial-numbered ammunition in the
was achieving the desired intent of the program’s      Property Book Unit Supply Enhanced system.
objective relative to counterinsurgency goals,         Additionally, U.S. Central Command, Army 

and whether commander priorities and                   Central Command, and the deputy chief of staff, 

requirements were sufficiently funded. USAAA           G-4 strengthened accountability for Excalibur
also reviewed project files for compliance with        rounds by requiring: monthly tracking by serial
applicable policies. The audit showed USFOR-A          number for Excalibur rounds and maintenance
inherited a program without baselines,                 of permanent records, changing controlled
performance measures, or methodologies to              item inventory and special requirements codes
capture and analyze program performance                to flag Excalibur rounds as serial-numbered
relative to COIN goals. As a result, USFOR-A           ammunition, and requiring firing reports to
could not demonstrate positive relationships           track all Excalibur rounds fired. Despite these
between the humanitarian aid provided through          positive actions, several accountability issues
the CERP to the Afghanistan people or the              remained. Lack of controls over drawing
direct effect on the stability of operations.          ammunition resulted in the 1st Brigade Combat
CERP funding was sufficient for commanders’            Team, 3rd Infantry Division (assigned to the U.S.
requirements. However, the prior command               Division - Center) recording only 51 percent of
emphasized obligating funds to start projects          its ammunition on its property books, and not
but had not developed a process to manage              recording serial numbers because inaccurate
and capture program results. The unintended            codes were designated for Excalibur rounds.
consequences were ongoing projects that may            Also, the Al Jalail ammunition supply point
not fully assist in accomplishing COIN goals.          in Kuwait lost accountability for ammunition,
Aligning CERP projects to factors that help            including Excalibur (requiring an AR 15-6
Afghanistan achieve stability, and developing          investigation), because it did not have effective
a systematic process to gauge whether or not           controls in place. The deputy chief of staff, G 4
those projects positively affect stability is key to   agreed with the recommendations to instruct
the program’s success if USFOR-A wants to use          property book officers that Excalibur rounds are
CERP as a COIN tool. USFOR-A agreed with               serial-numbered items and they need to change
the report’s conclusions and recommendations           the Serial - Registration Requirements Code
and had taken or was in the process of taking the      from “N” to “S”. They also agreed to coordinate
corrective actions. The assistant secretary of the     with the Logistics Support Activity World Wide
Army (financial management and comptroller)            Ammunition Reporting System Office and
provided the official Army position and agreed         Property Book Unit Supply Enhanced Office to
with the report’s finding and recommendations.         implement a systems solution to automatically
Report No. A-2011-0020-ALL (FOUO)                      populate an “S” for serial-numbered items. In
                                                       addition, U.S. Division - Center strengthened
Excalibur Accountability Gap, United States            procedures for recording on-hand ammunition
Forces – Iraq                                          in the Brigade property book, and 1st Theater
USAAA conducted this audit at the request of           Sustainment Command strengthened controls
the program executive officer – ammunition to          over accountability of Excalibur rounds at the Al
address the disposition of 17 missing Excalibur        Jalail ammunition supply point. The deputy chief
ammunition rounds in Iraq and the controls             of staff, G-4 provided the official Army position,
established for accountability of Excalibur            agreeing with the recommendations, command
rounds. One missing Excalibur round was                comments, and proposed actions.                         USAAA reviewed Excaliber
located in Kuwait. But, final disposition of           Report No. A-2011-0048-ALL                              accountability gap for U.S. Forces Iraq.
the other 16 rounds remained unknown
because there was no audit trail, as activities        Audit of Container Operations in Iraq,
were required to maintain records for only             Condition and Contents
24 months. During the audit, Army Central              USAAA performed the audit at the request
Command strengthened accountability for                of the Multi-National Corps-Iraq, now the
ammunition by issuing policy that required             United States Forces – Iraq. Although command

                                                                                                       OCTOBER 1, 2010 TO MARCH 31, 2011 57
Services



                                     established policies and procedures to identify,     and in a timely manner in property systems. And
                                     inspect, and repair containers in Iraq, USAAA        physical inventories of equipment on hand in the
                                     found responsible personnel did not always           yard sometimes was not accurately accounted
                                     comply with inspection policies or update the        for and reconciled to the property systems.
                                     container’s serviceability status in the database.   Control weaknesses existed because operators in
                                     USAAA’s review of containers at four bases in        the RPAT yards on occasion lacked procedural
                                     Iraq showed 50 percent of the serviceability         knowledge and consistency, execution discipline,
                                     or damage status codes were not accurately           and oversight. As a result, equipment sometimes
                                     recorded in the database. This could hinder          was not properly accounted for and the Army’s
                                     command’s ability to make informed decisions in      ability to maintain good asset stewardship in
                                     determining the number of seaworthy containers       the RPAT yards was impaired. USAAA made
                                     needed to support the responsible drawdown. In       recommendations to the 402nd Army Field
                                     addition, USAAA found redeploying units had          Support Brigade to standardize documentation-
                                     adequate procedures in place to pack containers      processing practices, develop a tracking method
                                     containing unit organizational equipment.            for recording equipment in property book
                                     However, personnel responsible for packing           systems, assigning contracting officer technical
                                     containers with excess retrograde supplies and       representatives to RPAT yards, establishing
                                     equipment did not always follow proper packing       business rules for conducting inventories,
                                     procedures and often made little to no attempt       and requiring Wholesale Responsible Officers
                                     to block or brace the contents to prevent shifting   perform oversight at RPAT yards. The 402nd
                                     and damage during transit. Consequently,             Army Field Support Brigade agreed to
                                     containers frequently arrived at their destination   implement the recommendations. The deputy
                                     with contents in complete disarray. As a result,     chief of staff, G-4 provided the official Army
                                     contents in serviceable or repairable condition      position, agreeing with the recommendations,
                                     shipped from Iraq may become damaged or              command comments, and proposed actions.
                                     destroyed during transit, causing a financial loss   Report No. A-2010-0063-ALL
                                     to the Army. The Office of Deputy Chief of Staff,
                                     G-4 and commander, United States Force – Iraq        Audit of Controls Over Vendor Payments –
                                     stated action has been taken or would be taken       Southwest Asia (Phase II), Afghanistan
                                     to address the recommendations in the report.        USAAA performed this audit at the request of
                                     To improve awareness, the Army broadcast             the assistant secretary of the Army financial
                                     a command information segment on the                 management and comptroller. Finance offices
                                     importance of blocking, bracing, and packing of      within Afghanistan took numerous actions to
                                     containers on Armed Forces Network television.       address the Army’s material weakness relating
                                     Report No. A-2011-0047-ALL                           to the lack of proper audit trail for commercial
                                                                                          payments in a contingency environment.
                                     Redistribution Property Assistance Teams,            However, in spite of actions taken, USAAA
                                     United States Forces – Iraq                          found vendor payments had at least one
                                     USAAA conducted this audit at the request of         missing or inaccurate element to meet the
                                     the U.S. Forces - Iraq, director, J-4. The audit     minimum criteria required for a valid and
                                     addressed property accountability at RPAT yards      supported payment. Furthermore, USAAA
                                     within Iraq. There were eight RPAT yards to          found additional improvements were needed
                                     facilitate turn-in of equipment for redistribution   to address the integrity of the automated audit
                                     or retrograde. The audit showed RPAT yards           trail and the handling of limited depositary
USAAA reviewed property account­     had controls in place to ensure units had            accounts because: units did not receive mission
ability at RPAT yards within Iraq.   proper clearance and documentation for excess        specific training before deployment or on-site
                                     equipment presented for turn-in and property         training; working relationships and initiatives
                                     systems were in place for accounting. However,       between activities in the fiscal triad were not
                                     some accountability controls sometimes               fully synchronized; and command sometimes
                                     were not operating effectively. USAAA found          did not enforce regulatory guidance or did
                                     equipment at times was not recorded properly         not fully incorporate processes in the internal

58 SEMIANNUAL REPORT TO THE CONGRESS
controls program to monitor operations. As a          information to the Logistics Support Activity,
result, the Army lacked sufficient oversight of       consequently maintenance managers did not
vendor payments to ensure disbursements and           have access to work order information to
entitlements were accurate. The report further        manage maintenance programs and resources.
helped to identify solutions to address the use       USAAA made recommendations to improve
of limited depositary accounts and www.ITS.gov        the contract administration controls. The Army
that mitigate the risk of fraud, waste, misuse, and   agreed with the recommendations and began
Afghan corruption related to potential duplicate      taking corrective actions during the audit.
payments and unmatched disbursements.                 Report No. A-2011-0054-ALM
Report No. A-2011-0067-ALL
                                                      Operational Readiness Float                                 “USAAA evaluated the
Contracts for Maintenance Support – TACOM             USAAA, under the authority of the auditor
Life Cycle Management Command                                                                                     viability of the Army’s
                                                      general, evaluated the viability of the Army’s
USAAA performed this audit to support the                                                                          operational readiness
                                                      operational readiness float program in support
FY 2009 National Defense Authorization Act            of the Army Force Generation.                USAAA                 float program in
(Comprehensive Audit of Spare Parts Purchases         conducted a series of audits that focused on the              support of the Army
and Depot Overhaul and Maintenance                    process for computing and updating operational                 Force Generation.”
of Equipment for Operations in Iraq and               readiness float requirements and their use. ORF
Afghanistan, Public Law No. 110-417, Section          is a strategic asset deployed to an installation
852). USAAA evaluated whether the Army                that consists of an authorized quantity of assets
received services and deliverables the contracts      to maintain established readiness levels. USAAA
required and if contract costs were supported         issued a quick-reaction report to address current
for the TACOM Life Cycle Management                   float assets and future float requirements for the
Command’s maintenance support contracts for           Javelin Command Launch Unit that could be
reset. USAAA found that contractors repaired          redistributed to support other higher priority
equipment to appropriate standards, but several       operational needs. The Army agreed with
contractors did not deliver equipment in the          the recommendation to discontinue the float
time the contract specified. Contracts specified      program and redistribute the 338 Javelin units
equipment be repaired to serviceable condition        to meet other higher priority operational needs.
and specified a delivery date or turn-around time.    This resulted in about $41.6 million in funds put
In most cases, quality assurance representatives      to better use. USAAA also determined that the
from Defense Contract Management Agency               Army’s ORF program did not materially support
inspected the work and certified that it conformed    unit readiness. Specifically, Army managers did
to maintenance standards, but they did not            not have visibility of float authorizations, on-hand
monitor turnaround time or delivery schedules.        assets, or demand for operational readiness float
This occurred because TACOM contracting               assets. Units also reported low usage of on hand
personnel did not request that DCMA monitor           float assets. The Army’s process for determining
delivery schedules in surveillance plans. For         initial float requirements while systems were
the contracts reviewed, USAAA found that              in production was not reliable and float
contractors billed the government accurately          requirements were not updated or removed when
and provided supporting documentation for             commands did not report demand. While the
their costs. However, contractors used about          float program, valued at about $1 billion, did not
20 percent fewer hours, valued at about $1.9          materially contribute to unit readiness, the Army
million, to repair equipment than they estimated      continued to plan future operational readiness
in the fixed-price negotiations. Contracting          float procurements. USAAA determined that
officers did not reevaluate contractors’ labor        the Army could reschedule about 90 percent
requirements because they did not have                of these programmed procurements, valued at
independent government cost estimates or              about $946 million, for other operational needs
access to work order information from Army            and still maintain readiness. The Army agreed
systems. USAAA also found that contracts did          with the recommendations and began taking
not require contractors to report maintenance

                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 59
Services



                               corrective actions during the audit.                   100 civilian full-time equivalents and about
                               Report No. A-2011-0061-ALM                             85 contractor manpower equivalents costing
                                                                                      about $20.8 million at 51 tenant activities at
                               Global Network Enterprise Construct                    three installations performing baseline support.
                               USAAA completed two reports on Global                  This occurred because the centers did not have
                               Network Enterprise Construct, which is the             sufficient resources and personnel to provide
                               Army’s strategy to transition its networks to          the baseline services, tenant leadership felt
                               a global capability that functions as a single         their internal personnel can provide better
                               integrated enterprise. The reports focused on the      response time, and the Army inconsistently
                               initial aggregation phase of GNEC during which         implemented the Single Directorate of
                               the Army is collecting all data regarding IT assets,   Information Management Action Plan (a 2005
                               infrastructure, operations and governance.             plan to consolidate all baseline information
                               Within the aggregation phase, USAAA audited            technology services on an installation at the
                               IT contracts and IT service personnel. USAAA           Directorate of Information Management, which
                               audit results showed that the Army harnesses           is now called the network enterprise center).
                               its combined information technology buying             USAAA determined that the Army could
                               power through centrally awarded Computer               achieve efficiencies and better manage its IT
                               Hardware, Enterprise Software and Solutions            service staffing levels by providing the baseline
                               contracts in which vendors offer information           information technology services in accordance
                               technology equipment and services to Army              with the plan, and made recommendations to
                               activities at a discount. Army policy states that      assist Army in moving forward with the plan
                               Army activities should use CHESS contracts to          and with GNEC.
                               the maximum extent possible. USAAA reported            Report No. A-2011-0016-IET and A-2011­
                               that Army activities were not using CHESS              0053-IET
                               contracts to the maximum extent possible.
                               Instead, activities often used government wide         Information Technology Asset Authorizations
                               acquisition contracts and individual contracts         for Tactical Units
                               for information technology products and                USAAA performed a follow-up audit on the
                               services. CHESS was not used because there             six recommendations in the Information
                               was not an enforcement mechanism and some              Technology Asset Authorizations for Tactical
                               acquisition personnel did not understand how           Units report, dated September 18, 2006. In the
                               the program worked. As a result, activities            original report, USAAA found that tactical units
                               paid higher prices than they would have if they        had incorporated automated data processing
                               purchased equipment and services through               equipment into all facets of unit operations.
                               CHESS. If the Army implements corrective               However, there was no standard information
                               actions, it could avoid about $1.3 million in          technology architecture, approved guidance,
                               costs annually just at the 3 installations USAAA       equipment authorizations, or programmed
                               visited during the audit. Also, the Army network       funds to support these requirements. The six
                               community lacked visibility over purchases             recommendations were made to enable the Army
                               and the associated costs made outside of               to properly plan for and manage information
                               CHESS. This visibility is needed to manage and         technology assets including:
                               fund the Army’s network as an enterprise. In           •	­ Defining the appropriate information tech­
                               accordance with GNEC, installation network                  nology architecture.
                               enterprise centers throughout Army are to be           •	­ Incorporating the requirements into unit
                               the single source for baseline command, control,            authorization documents.
                               communications, computers and information              •	­ Adequately programming and funding the
                               management support. USAAA reported that                     requirements.
                               there are shadow network enterprise centers            During the follow-up audit, USAAA determined
                               and other activities providing baseline services       that none of the addressees implemented the
                               in addition to the centers. USAAA found about          recommendations from the original report.
                                                                                      The Army still has challenges in managing

60 SEMIANNUAL REPORT TO THE CONGRESS
commercial          off-the-shelf      information     learned among installations. The Office of the
technology assets in modified table of                 Assistant Chief of Staff for Installation provided
organization and equipment units. To alleviate         the official Army position and agreed with the
these challenges, a working group led by the           recommendations and began taking corrective
deputy chief of staff, G-3/5/7’s LandWarNet            actions.
Battle Command is developing a strategy to             Report No. A-2011-0003-IEO, A-2011-0004­
establish processes to manage this equipment           IEO, A-2011-0009-IEO, and A-2011-0039­
in these units. The group was working to resolve       IEO
the issues identified in the original report. If the
Army implements the group’s strategy, it will          Comprehensive Soldier Fitness Contracts
satisfy the intent of the recommendations in that      The Comprehensive Soldier Fitness program
report. The Army agreed with the conclusions           was established in October 2008 to place the
and recommendations in the follow-up report.           same emphasis on psychological, emotional,
Report No. A-2011-0006-IET                             and mental strength that the Army gives to
                                                       physical strength. As part of CSF efforts, the
Audit of Energy Savings and Performance                Army implemented master resilience training
Contracts                                              for participants to learn resilience and problem-
USAAA conducted a series of audits of ESPCs            solving skills, and ultimately, to pass those            USAAA conducted a review of Com­
between 2001 and 2007 that determined Army             skills on to others. To implement MRT, the               prehensive Soldier Fitness contracts.
managers did not have adequate controls to             Army awarded two sole-source contracts to
protect the government’s interests. As a result,       one university. At the request of senior Army
energy savings baselines were sometimes                leadership, USAAA reviewed the two sole-
incorrect for measuring savings. USAAA                 source contracts to determined whether the
conducted audits of new ESPCs at three sites—          Army properly awarded the contracts for MRT.
U. S. Army Garrison Aberdeen Proving Ground,           USAAA concluded that the Army properly
U. S. Army Garrison Picatinny Arsenal, and U. S.       awarded and justified the sole-source contracts
Army Garrison Fort Eustis and followed up on           for MRT in accordance with the Federal
recommendations issued in a prior audit report         Acquisition Regulation. However, the Army did
(Report No. A-2002-0288-IMO Energy Savings             not have a formal process in place for developing
and Performance Contracts; U.S. Military               requirement and initiating associated contracts
District of Washington Fort Lesley J. McNair,          and the contract management office was short
Washington, DC; 24 July 2002). USAAA                   staffed during the onset of the CSF program,
reported that the Army improved its program            there was an appearance that the Army
for Energy Savings Performance Contracts. The          improperly awarded the contracts. In addition,
Army generally implemented revised policies            poor communication between Army activities,
and established performance metrics to measure         and the sense of expediency and urgency placed
and verify savings. The Office of the Assistant        on the contract award, and limited acquisition
Chief of Staff for Installation Management, U.S.       planning and poor documentation contributed
Army Installation Management Command, and              to environment that did not facilitate proper
the garrisons are to be commended for their            requirements development or compliance with
actions taken in response to updated policies          portions of the FAR pre-award procedures.
and the audit. All three garrisons complied            USAAA made recommendations to assist the
with requirements of the Army guidance                 Army with formalizing its contracting pre-
when they established performance metrics to           award process and to improve communication
measure and verify savings. The fourth garrison        throughout the process to preclude the appearance
implemented all the recommendations in the             that the Army may have limited competition by
prior audit report. USAAA made additional              awarding the contracts sole-source. The Army
recommendations to the Army to facilitate the          agreed with the recommendations and began
administrative burden on installations, update         taking corrective actions.
guidance to support increased ESPC goals,              Report No. A-2011-0080-IEO
increase technical oversight, and share lessons

                                                                                                        OCTOBER 1, 2010 TO MARCH 31, 2011 61
Services



                                     ARMY CRIMINAL                                         through these officers and others in order to
                                                                                           influence the award of contracts to his company

                                     INVESTIGATION                                         in Iraq.
                                                                                           Result: Curtis Whiteford, former colonel in

                                     COMMAND                                               the U.S. Army Reserves, was found guilty of 18
                                                                                           USC 371, Conspiracy to Defraud the United
                                                                                           States and sentenced to 60 months confinement
                                     Significant Activities                                followed by two years probation and fined
                                     The Army Criminal Investigation Laboratory            $16,200. Michael Wheeler, former lieutenant
                                     is the executive manager for DoD’s program to         colonel in the U.S. Army Reserves, was found
                                     upload convicted offender DNA profiles into           guilty of 18 USC 371, Conspiracy to Defraud
                                     the FBI’s National DNA Index System database.         the United States and sentenced to 42 months
                                     The program started in 2001 with convicted            confinement followed by three years probation
                                     offenders. In May 2010, military arrestees were       and fined $1,200. Debra Harrison, former
                                     added. At this time, USACIL has entered DNA           lieutenant colonel in the U.S. Army, pled guilty
                                     profiles from 16,065 convicted offenders and 838      to 18 USC 1343, Wire Fraud and was sentenced
                                     arrestees into NDIS.                                  to 30 months confinement followed by two years
                                                                                           probation and fined $366,340. William J. Driver,
                                     USACIL provided investigative leads in                III, pled guilty to 18 USC 1956(a)(1)(B)(ii),
                                     78 military criminal investigations. Most             Money Laundering and was sentenced to 3 years
                                     investigative leads result from a match found         probation and fined $36,000.
                                     by the DoD’s Combined DNA Index System
                                     software between a DNA profile from a military        False Claim Made on Body Armor
                                     case and a convicted offender or arrestee DNA         Overview: A joint investigation conducted by
                                     profile from another NDIS laboratory. During          Army CID with AFOSI and DCIS disclosed that
                                     2010, 13 investigative leads were provided            a DoD contractor knowingly submitted a false
An Army CID special agent collects   on military cases, to include seven rapes, one        claim and provided non-conforming dragon
DNA for a Biometrics Program.        attempted rape, three burglaries, one larceny and     skin body armor to the Air Force and Army. The
                                     one drug abuse case.                                  contractor falsely certified the body armor as
                                                                                           being level III but the body armor did not meet
                                     USACIL also provided identifying information          first article test protocols, and were fraudulently
                                     from 52 convicted military offenders to               labeled as being in compliance with National
                                     investigative agencies as a result of matches         Institute of Justice certification standards. The
                                     found by the CODIS software. These matches            Army procured 50 vests at a cost of $150,000
                                     occurred between crime scene evidence from            while the Air Force procured over $3 million
                                     USACIL or other NDIS laboratories and military        worth of vests.
                                     convicted offenders. Only six of these offender       Result: The Air Force delivery order was
                                     hits are to military cases. In these hits, military   terminated for default and a contract
                                     offenders matched to cases from Arizona, South        modification was issued deobligating $2.5
                                     Carolina, North Carolina, New Mexico, New             million from the total contract value. Safety
                                     York, Arkansas, Texas, Iowa, Massachusetts,           messages were issued and all of the body armor
                                     California, Florida and Pennsylvania.                 was recalled. The contractor and company
                                                                                           officials were barred from doing business with
                                     Conspiracy, Wire Fraud, Money Laundering,             the government for three years. In addition, the
                                     and Acceptance of Illegal Gratuities                  contractor filed for bankruptcy and is no longer
                                     Overview: A joint investigation conducted by          in business.
                                     Army CID and SIGIR disclosed that several U.S.
                                     Army officers used their positions to influence       Murder
                                     the award of contracts to a favored company in        Overview: A joint investigation conducted by
                                     exchange for bribes. The owner of the company         Army CID and NCIS disclosed that an Army
                                     admitted to laundering in excess of $2 million        Reserve major shot and killed his wife in their

62 SEMIANNUAL REPORT TO THE CONGRESS
on-post residence at the Naval Air Station-             Marriage Fraud, Larceny of Government Funds,                “...USACIL has entered
Joint Reserve Base, New Orleans, La. during a           False Official Statement and Conspiracy                          DNA profiles from
domestic altercation.                                   Overview: A joint investigation conducted
Result: The major was convicted during a court-         by Army CID and ICE disclosed that a soldier
                                                                                                                      16,065 convicted of-
martial of premeditated murder, a violation             received basic housing allowance at the married           fenders and 838 arrest-
of Article 118 – Murder, and sentenced to               rate even though he was not legally married. The           ees into NDIS [National
confinement for life without the eligibility of         investigation disclosed the soldier entered into              DNA Index System].”
parole, forfeiture of all pay and allowances, and       a fraudulent marriage with a Russian citizen to
dismissal from the service.                             receive the higher rate and to assist the Russian
                                                        citizen in obtaining a legal residence status in the
Aggravated Sexual Contact and Aggravated                United States. Further investigation disclosed
Sexual Abuse of a Child                                 other soldiers entered into fraudulent marriages
Overview: An investigation conducted by                 with foreign nationals from Eastern Europe
Army CID disclosed that an Army staff                   with the same motives. This investigation was
sergeant had sexual relations with a 14 year-           initiated based on a Defense Hotline complaint.
old child on multiple occasions when they lived         Result: Court-martial and Federal District Court
in the Baumholder and Wiesbaden military                sentences against two soldiers and two former
communities in Germany.                                 soldiers were seven months confinement, four
Result: At general court-martial the sergeant           months confinement, five years probation and
pled guilty to violating Article 120 – Aggravated       three years probation respectively. Fines were
Sexual Contact with a Child, Article 120 –              $213,164; $48,431; $31,039; and $20,000 for the
Aggravated Sexual Abuse of a Child, and Article         four subjects. A Russian female was sentenced
125 – Sodomy. He was sentenced to 20 years              to two years probation and fined $500. Another
confinement, dishonorable discharge, and is             Russian female fled the United States prior to her
required to register as a sex offender upon             court date.
release.
                                                        False Claims and Theft of Government Funds
Sexual Assault of a Minor and Wrongful Use of           Overview: A joint investigation conducted by
a Controlled Substance                                  Army CID, DoS, and Department of Veterans
Overview: An investigation conducted by                 Affairs disclosed that a non-DoD U.S. civilian
Army CID was initiated after the military police        residing in Italy defrauded the U.S. government
conducted a traffic stop on a vehicle occupied by       by obtaining false identity documents and
two soldiers and a 14 year old female dependent         assuming the identity of a retired military veteran
of another soldier. During the traffic stop, the        to obtain military retirement benefits. Both he
military police found “Spice” in the vehicle.           and his spouse obtained in excess of $100,000
Further investigation determined one of the             unauthorized health care at U.S. military bases
soldiers, a private first class, had sexual relations   in Italy.
with the child as well as contributed to her            Result: The non-DoD U.S. civilian was
delinquency by providing her with alcohol and           prosecuted in Federal District Court under the
a fake driver’s license.                                Military Extraterritorial Jurisdiction Act. He pled
Result: At general court-martial the private pled       guilty to violating 18 USC 1035, False Statements
guilty to Article 120 – Sexual Acts; Article 86 –       Related to Health Care Matters, and 42 USC 408,
Absent Without Leave; Article 92 – Violation of         Misuse of a Social Security Number, and was
a Regulation; Article 95 – Escape from Custody;         sentenced to 30 months confinement, six years
Article 125 – Sodomy; Article 134 – Adultery,           of probation, and ordered to pay $125,258 in
False Pass, Obstructing Justice; Article 112a           restitution to the government.
– Wrongful Use of Marihuana; Article 121 –
Larceny; and Article 131 – House Breaking.              Illegal Entry and Larceny
He was sentenced to confinement for 10 years,           Overview: A joint investigation conducted
forfeiture of pay, and a dishonorable discharge.        by Army CID and German National Police
                                                        disclosed that two German National employees

                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 63
Services



                                          of the U.S. Army in Germany had broken into          the use of government purchase cards, matters
                                          various motor pools, construction sites, and         affecting the health and safety of sailors and
                                          training ranges on the Grafenwoehr and Vilseck       Marines, the ongoing relocation of Marine Corps
                                          military installations and had stolen generators,    forces and their families to Guam, and more.
                                          construction tools, office equipment and various     The audits of military construction projects
                                          military equipment. They hid the equipment           identified opportunities for the Department
                                          in an off-post residence belonging to one of         to put more than $306 million to other use by
                                          the subjects. Army CID and German police             eliminating or reducing the scope of a number
An Army CID special agent briefs a        subsequently recovered stolen government             of projects. The assist reports for the Naval
German reporter at a construction site.   property valued at $138,647.                         Criminal Investigative Service have identified
                                          Result: Both German nationals were convicted         approximately $2.4 million in potential
                                          in German Criminal Court and sentenced to 30         fraud to date. NAVAUDSVC also continued
                                          and 18 months respectively. Their employment         the series of audits on the protection of the
                                          with the U.S. Army was terminated and they           personally identifiable information, identifying
                                          were barred from entering any U.S. military          opportunities to improve controls to ensure the
                                          installation in Europe.                              personal information of military and civilian
                                                                                               personnel is protected from unauthorized
                                          Bribery and Conspiracy                               disclosure. NAVAUDSVC will continue to work
                                          Overview: A joint investigation conducted by         with senior DoN officials to provide them with
                                          Army CID and Korean National Police disclosed        an expert and impartial assessment of critical
                                          that Korean nationals paid between $15,000 and       DoN issues, risks, and opportunities.
                                          $29,000 in bribes to influential Korean National
                                          employees assigned to the 36th Korean Service        Joint Warfighting and
                                          Corps Company, U.S. Army Garrison-Yongsan,
                                          Seoul, Republic of Korea to secure employment        Readiness
                                          with the U.S. Army. Over $300,000 in bribes
                                          were paid to obtain employment as Korean             Reporting of Marine Corps Equipment Mishaps
                                          employees for the U.S. Army at the U.S. Army         The audit on Marine Corps equipment mishaps
                                          Garrison-Yongsan.                                    reported that damage to or loss of ground
                                          Result: A Korean national was convicted of           equipment resulting from a mishap at I and II
                                          bribery in the Korean criminal court and             Marine Expeditionary Forces were generally
                                          sentenced 18 months confinement and fined            reported. However, there were some instances
                                          $136,666. Four other Korean nationals received       when equipment mishaps were unreported
                                          fines ranging from $4,166 to $2,500.                 in the Web Enabled Safety System, which is
                                                                                               the Department of the Navy’s official mishap
                                                                                               reporting system and is managed by the
                                          Naval Audit Service
Navy

                                                                                               commander, Naval Safety Center. While the
                                          The mission of NAVAUDSVC is to provide               Marine Corps had documented processes and
                                          independent and objective audit services to assist   procedures for reporting equipment mishaps,
                                          Department of the Navy leadership in assessing       they were not always followed, resulting in
                                          risk to improve efficiency, accountability, and      relatively minor underreporting of ground
                                          program effectiveness. NAVAUDSVC works               equipment mishaps. Marine Corps Order
                                          with senior Navy and Marine Corps officials          P5102.1B requires that all mishaps are reported
                                          to develop a risk-based annual audit plan            using WESS to Commander, Naval Safety
                                          that addresses critical areas officials feel merit   Center. NAVAUDSVC identified 50 unreported
                                          additional oversight. In the past six months,        equipment mishaps during FY 2008 through
                                          NAVAUDSVC audits have addressed a number             the first quarter of FY 2010. These mishaps
                                          of important DoN issues, such as controls over       were not reported because: unit personnel were
                                          the granting of interim security clearances          often unaware of equipment mishap reporting
                                          (which are granted to personnel pending              requirements and misinterpreted the guidance
                                          completion of full investigative requirements),      (units generally reported equipment mishaps

64 SEMIANNUAL REPORT TO THE CONGRESS
when there was an associated personnel injury);      Navy’s Traffic Safety Program at Naval District
and there was no mechanism in place between          Washington and Commander, Navy Region
unit maintenance and safety to alert those           Mid-Atlantic Regions
responsible for reporting mishaps to commander,      The objective of this audit was to verify that the
Naval Safety Center about equipment damaged          Navy’s Traffic Safety Program was effectively
as a result of mishaps. Maintenance personnel        managed and implemented at selected operational
were unaware of the need to report equipment         units and installations within Naval District
damaged as a result of a mishap or did not           Washington and commander, Navy Region Mid-
fully understand what constituted a reportable       Atlantic Regions. NAVAUDSVC found that the
equipment mishap.                                    Navy’s Traffic Safety Program was not effectively
Report No. N2011-0005                                implemented as required by Navy policies
                                                     and procedures. Specifically, NAVAUDSVC
Marine Corps Traffic Safety Program at I and II      found weaknesses in internal controls over the
Marine Expeditionary Force and Marine Corps          accountability for: administration of traffic
Installations East and West                          enforcement processes at the installations; traffic
The objective of this audit was to verify that       safety training; and coordination efforts with
the Marine Corps Traffic Safety Program was          local authorities. Overall, there was a systemic
effectively managed and implemented at selected      lack of management oversight of the program
operational units within I Marine Expeditionary      at the region, installation, and operating unit
Force and II Marine Expeditionary Force and          levels. This occurred, in part, because policies,
selected installations within Marine Corps           procedures, and controls were not standardized
Installations East and West. NAVAUDSVC               and uniformly enforced across the Naval
found that traffic safety training courses were      District Washington Region, and personnel did
frequently not being attended and documented         not follow applicable chief of naval operations
at the unit level, providing little assurance of     policies and procedures within the commander,
course completion. Additionally, there was no        Navy Region Mid-Atlantic Region. As a result,
standardized Marine Corps-wide procedure to          traffic safety enforcement was not aligned with
identify motorcycle operators in writing, which      the direction from the chief of naval operations
may inhibit compliance with motorcycle self-         and the concerns of the secretary of Navy
reporting requirements. Also, traffic violations     regarding motorcycle and motor vehicle safety
were not consistently enforced and adjudicated       requirements. The lack of accountability over
in accordance with Marine Corps requirements.        the administration of the traffic enforcement
Lastly, the lack of controls over the vehicle        process, traffic safety training, and coordination
registration process allowed Marines to avoid        efforts may lead to increased mishaps and traffic
registering vehicles, which may circumvent the       violations by sailors, which may impact the
reporting and training requirements. These           safety and readiness of the Navy. NAVAUDSVC
conditions occurred, in part, because policies,      recommended that the commander, Naval Safety
procedures, and controls were not standardized       Center update current policies to ensure military
and uniformly enforced at all levels across          personnel are aware of and held accountable
the Marine Corps. The lack of accountability         for the specific traffic safety requirements and
and consistency over traffic safety training,        the types of training documents that should be
motorcycle ownership, vehicle registration, and      maintained in the service records as directed by
traffic citations, may result in increased mishaps   chief of naval operations.
and violations, which may impact the readiness of    Report No. N2011-0012
the Marine Corps. NAVAUDSVC recommended
that commandant of the Marine Corps                  Organizational-Level Maintenance of U.S. Navy
implement policy changes and standardizations        Aegis-Equipped Ships
to improve oversight and control of traffic safety   The objective of the audit was to verify that
education and enforcement.                           DoN’s maintenance program for U.S. Navy
Report No. N2011-0006                                Aegis-equipped ships was effectively designed             NAVAUDSVC reviewed the mainte­
                                                                                                               nance of Navy Aegis-Equipped Ships.
                                                     and implemented and had sufficient oversight to

                                                                                                       OCTOBER 1, 2010 TO MARCH 31, 2011 65
Services



                                       achieve the desired results. NAVAUDSVC found           and ensures INSURV deficiencies are uploaded
                                       that the fleet’s internal controls and oversight of    to the Current Ship Maintenance Project and
                                       deferred maintenance actions did not provide           tracked through completion. NAVAUDSVC
                                       reasonable assurance that organizational-level         also recommended that both fleets interface
                                       maintenance was accomplished efficiently               and simplify maintenance management systems
                                       and effectively. For the 11 ships audited,             to reduce data input time and errors, reduce
                                       NAVAUDSVC found there was limited visibility           redundant data entries to multiple systems,
                                       outside the ship to ensure shipboard maintenance       improve data reliability, and eliminate visibility
                                       was performed, and there was limited oversight         disparity among systems.
                                       onboard ship to ensure completion of routine           Report No. N2011-0019
                                       maintenance actions. NAVAUDSVC determined
                                       that tools available for prioritizing were not         Information Assurance,
                                       being used as intended, including: 1) 2-Kilo
                                       priority level field classification; 2) the casualty   Security, and Privacy
                                       reporting system; and 3) the assignment of jobs
                                       to higher depot or intermediate maintenance            Navy Reserve Southwest Region Annual
                                       levels. High-priority jobs coded organizational-       Training and Active Duty for Training Orders
                                       level were not thoroughly tracked through              The audit was prompted by criminal
                                       completion by the ship or chain of command.            investigations of potentially fraudulent claims
                                       As a result, maintenance actions were deferred         for reimbursement by individual reservists.
                                       as long as 2,049 days for CGs and 2,922 days           NAVAUDSVC found that the Navy Reserve
                                       for DDGs. Multiple unconnected maintenance             Order Writing System had a series of systemic
                                       systems resulted in time-consuming data input          risks that broadened the opportunity for potential
NAVAUDSVC reviewed Navy Reserve        and information management, and visibility             fraud to occur. The audit addressed the Navy
annual training and training orders.
                                       differences between systems. NAVAUDSVC                 Reserve’s financial management risk of paying
                                       analysis of deferral reason codes pointed to           false claims for fictitious orders, and the risk to
                                       lack of material as a contributing factor for          the Navy Reserve’s standing readiness, which is
                                       deferring organizational-level maintenance.            partly built on individual reservists’ mandatory
                                       NAVAUDSVC also determined the fleet did                performance of Annual Training orders with
                                       not have sufficient controls in place to ensure        active duty commands. In response to the
                                       organizational-level deficiencies (identified by       risks reported by the audit, the Navy Reserve
                                       INSURV) in aegis-equipped ships were recorded          segregated key steps in their order writing
                                       to the ship’s Current Ship Maintenance Project.        system; greatly reduced the number of “super­
                                       NAVAUDSVC analysis of 63 ships (22 CGs and             users,” clarified the responsibilities of Reserve
                                       41 DDGs) indicated 50 ships, or 79 percent,            Center command personnel, and improved
                                       had deficiencies loaded into the ship’s Current        their command inspection process to ensure
                                       Ship Maintenance Project as required by Navy           the continued operation of the strengthened
                                       guidance, and 13 ships, or 21 percent, did not.        controls. The results of actions taken in
                                       To improve and strengthen the process for              response to the audit are that the opportunity
                                       managing the accomplishment of organizational-         for full-time administrative personnel to collude
                                       level maintenance and INSURV deficiency                with individual reservists to defraud the Navy
                                       uploads, NAVAUDSVC recommended that                    Reserve was significantly reduced. Additionally,
                                       U.S. Fleet Forces Command and U.S. Pacific             assurance that reservists perform their annual
                                       Fleet Command develop consistent guidance              service obligation with active duty commands
                                       over the accomplishment and management of              was improved.
                                       organizational-level maintenance throughout            Report No. N2011-0017
                                       the maintenance management system, develop
                                       and implement controls to ensure casualty              Unnecessary Collection of Personally
                                       reports are completed for primary and                  Identifiable Information in the Department of
                                       secondary mission essential deficiencies, and          the Navy
                                       implement controls that establishes an audit trail     The audit objective was to verify that only

66 SEMIANNUAL REPORT TO THE CONGRESS
necessary personally identifiable information            safeguard the classified information they may
was collected within the Department of the               have already accessed. Management practices
Navy. NAVAUDSVC found that DoN was unable                that allowed these conditions to occur included:
to determine that only necessary personally              lack of interim clearance oversight policies and
identifiable information was being collected, and        procedures, weak internal controls over the
Social Security Numbers were printed/displayed           granting of interim clearances, contradictory
on systems and forms without being masked/               instructions, and insufficient security manager
truncated as required. These conditions occurred         training.
because: there was no overall DoN guidance to            Report No. N2011-0024
reduce the collection of SSNs; the Department
of Defense Information Technology Portfolio              Financial Management
Registry-DoN database was incomplete; DoN
could not identify all DoN forms in order to             Management of Navy Unit Identification Codes
reduce or eliminate their collection of SSNs;            The audit objective was to verify that the Navy
and there was no DoN requirement limiting                effectively managed Unit Identification Codes,
exposure of SSNs. As a result, DoN does not have         to include the establishment, modification, and
assurance that the collection and use of SSNs            disestablishment of UICs. The audit concluded
across the Department has been appropriately             Navy UICs were not effectively managed. The
reviewed and reduced. Thus, the risk of identity         Navy did not have a complete and accurate list
theft has not been appropriately reduced in DoN.         of all UICs. There was no centralized authority
Report No. N2011-0020                                    to address UIC issues, including assignment,
                                                         management, and reconciliation of official
Effectiveness of the Department of the Navy’s            records, and personnel were unfamiliar with               “The audit objective
Denial Process for Interim Security Clearances           the UIC processes. Inaccurate and incomplete             was to verify that the
at Selected Activities                                   UIC data contributed to errors in lines of
The audit objective was to verify that the
                                                                                                                     Department of the
                                                         accounting, approximately $27 million in
Department of the Navy effectively and efficiently                                                                 Navy effectively and
                                                         unmatched      disbursements,      unauthorized
processed personnel security investigation               requisitions of $230 million, and an inability            efficiently processed
requests for military and civilian personnel.            to fully track progress on e commerce                       personnel security
NAVAUDSVC found that DoN did not effectively             performance – a key Navy objective. The audit           investigation requests
process civilian and military interim clearances,        recommended establishing a central authority
properly and efficiently manage subsequent
                                                                                                               for military and civilian
                                                         for UIC management; issuing standardized
DoN Central Adjudication Facility denials, or                                                                                personnel.”
                                                         guidance for managing UICs; requiring reviews
sufficiently mitigate the risk of access to classified   and reconciliations of UICs to ensure accuracy
information after denials.           NAVAUDSVC           in Navy systems and correcting inaccurate
analysis of 340 DoN-wide interim denial records          UIC data. The assistant secretary of the Navy
in the Joint Personnel Adjudication System as            (financial management and comptroller) and
of January 21, 2010, showed that, contrary to            the Navy assistant for administration agreed
Secretary of the Navy guidance, DoN commands             with all recommendations.
granted interim clearances to individuals who            Report No. N2011-0004
disclosed adverse information on their Standard
Form 86, “Questionnaire for National Security            Government Commercial Purchase Card
Positions.” Further, DoN security managers               Transactions at Naval District Washington
did not debrief these individuals immediately            The audit objective was to verify that selected
upon DoN CAF denial in accordance with                   government commercial purchase card
Secretary of the Navy Manual M-5510.30, “DoN             transactions were valid and compliant with
Personnel Security Program,” dated June 2006.            applicable guidance and criteria. The audit
Without debriefing these individuals, there is           focused on the Office of the Commandant, Naval
a risk that they will have continued access to           District Washington, government commercial
classified information and not be informed               purchase card program. NAVAUDSVC found
of their legal responsibility to permanently             that Naval District Washington did not have

                                                                                                        OCTOBER 1, 2010 TO MARCH 31, 2011 67
Services



                                      sufficient internal controls in place over its       galley cash collection process did not function
                                      purchase card program as required by prescribed      as intended and was vulnerable to theft, fraud,
                                      guidance. Specifically, request and receipt          and misuse.
                                      documentation was not retained in support of         Report No. N2011-0018
                                      some of the individual transactions. Additionally,
                                      cardholders did not properly maintain purchase       Navy Enterprise Resource Planning - Purchase
                                      logs. Responsible Naval District Washington          Card Capabilities
                                      personnel attributed these conditions to excessive   Office of the Under Secretary of Defense policy
                                      workload, limited personnel, approving officials     requires 20 internal controls that must all be
                                      and cardholders not being in the same location,      resident in any electronic capability used within
                                      and time constraints. As a result, appropriate       the Department to reconcile, certify, and pay
                                      separation of duties was not substantiated, and      purchase card invoices. NAVAUDSVC audit of
                                      presented an increased risk of fraud, waste,         Navy Enterprise Resource Planning purchase
                                      and abuse within the government commercial           card capabilities sought to verify whether the
                                      purchase card program.             NAVAUDSVC         20 Department of Defense internal controls
                                      made recommendations, and Naval District             resided in the Navy ERP Purchase Card system.
                                      Washington subsequently took action to mitigate      NAVAUDSVC determined that the Navy ERP
                                      the weaknesses and strengthen the government         electronic purchase card capabilities complied
                                      commercial purchase card program.                    with 10 of the 20 required Department of
                                      Report No. N2011-0015                                Defense internal controls; however, one of
                                                                                           these 10 controls residing in the system was
                                      Internal Controls Over Naval Base Coronado,          not used appropriately. The remaining 10
                                      CA Galleys                                           controls that were not in the system were
                                      While assisting NCIS on an investigation of          handled using processes outside of the Navy
                                      suspected theft of government funds from Naval       ERP electronic purchase card capabilities. Also,
                                      Base Coronado, Calif., galleys, NAVAUDSVC            while conducting the audit, NAVAUDSVC
                                      identified weaknesses in internal controls over      observed transactions on the vendor’s purchase
                                      cash collections and deposits that allowed an        card statements that were not included in the
                                      apparent theft to occur. NAVAUDSVC review            Navy ERP Purchase Card System. Specifically,
                                      found that key internal controls were not in         the Navy ERP system did not include 222
                                      place to ensure that cash collections were           transactions because the transactions did not
                                      recorded and reconciled, receipt and recording       have the necessary fields for Navy ERP Purchase
                                      of cash collections duties were segregated,          Card inclusion.
                                      and cash collections accountability was easily       Report No. N2011-0001
                                      traceable. Other areas for which controls did not
                                      provide reasonable assurance included adequate       Health Care
                                      physical security controls, deposit procedures
                                      compliance with requirements, and oversight          Post-Deployment Health Reassessment at
                                      of the cash collection process by audit board        the Marine Corps: Fiscal Year 2008 and
                                      members. NAVAUDSVC determined that for               2009 Data Analysis, and Future Monitoring
                                      the period October 2008 to January 2010, about       Recommendations
                                      $28,360 in cash collections was not deposited.       The audit objective was to verify that Marine
                                      The subject of the investigation admitted to         Corps Post-Deployment Health Reassessments
                                      taking the money and indicated that the theft        were completed and certified timely.
                                      went undetected because a reconciliation of          NAVAUDSVC found that a significant number
                                      the reported collection and deposit amounts          of Marines (46 percent in FY 2008 and 44
NAVAUDSVC reviewed post-deploye­
ment health reassessment at the MC.   was not performed. These conditions occurred         percent in FY 2009) did not have the PDHRA
                                      because of inattention to established policies and   completed and certified within the required
                                      procedures, as well as insufficient oversight of     timeframe. The assistant secretary of defense for
                                      galley operations in the area of cash collections.   health affairs policy 05-011, “Post- Deployment
                                      As a result, the Naval Base Coronado, Calif.,        Health Reassessment,” requires a PDHRA be

68 SEMIANNUAL REPORT TO THE CONGRESS
accomplished for all personnel between 90 to         and when measuring EFMP performance. For
180 days after return to home station from a         instance, many of the education and transition/
deployment that required completion of post-         deployment issues faced by Marine families with
deployment health assessment. Marines did            school-aged special needs children could be
not have the PDHRA completed and certified           addressed with increased program coordination
on time for a number of reasons. For example,        and collaboration. Further, improved training
naval medical activities told NAVAUDSVC that         and teaching parents about federal, state,
PDHRAs were not taken within the required            and local policies and procedures (including
time period due to scheduling conflicts with         terminology and parental roles and rights
weapons training, deployment and subsequent          during the school transition process) would
deployment preparations, combat conditioning,        also alleviate some issues. Other areas in which
and permanent change of station moves. Also,         improvement opportunities exist include: the
commanders did not always have visibility of         Marine Corps EFMP enrollment and update
the PDHRA status of Marines who transferred          processes, the screening of educational needs
to them during the 90-180 day period following       for assignments within the Continental U.S., and
their most recent return from deployment. There      the oversight and provision of EFMP services
was also no formal policy ensuring commanders        across the Marine Corps.
have access to Marine Corps reports that track       Report No. N2011-0013
command-level PDHRA completion and
certification. Finally, Marines did not always       Management and Implementation of the                       “The audit objective
know they were required to complete a PDHRA.         Marine Corps Hearing Conservation Program                was to verify that U.S.
As a result, Marines who did not take PDHRA          The audit objective was to verify that
in accordance with assistant secretary of defense    management and implementation of the Marine
                                                                                                              Marine Corps Excep-
for policy may not have had their health needs       Corps’ hearing conservation program was                 tional Family Member
and concerns identified or addressed following       effective in protecting the hearing of Marine           Program children had
deployment, which could negatively impact            Corps personnel. NAVAUDSVC found that                    access to free and ap-
readiness, their personal well-being, and the        the Marine Corps did not know whether their             propriate special edu-
well-being of others.                                HCP was effective. However, NAVAUDSVC
Report No. N2011-0010                                determined that the HCP had not effectively
                                                                                                            cation opportunities...”
                                                     protected the hearing of Marine Corps
Marine Corps Exceptional Family                      personnel. NAVAUDSVC identified at least
Member Program                                       6,300 Marines who had hearing loss or hearing-
The audit objective was to verify that U.S. Marine   related cases from January 2001 through October
Corps Exceptional Family Member Program              2008 and had been enrolled in HCP. In addition,
children had access to free and appropriate          NAVAUDSVC estimates that 84 percent of
special education opportunities in their states      medical records for Marines who left the service
and school districts. This audit was requested by    in FY 2007 did not contain both an entrance
the assistant commandant of the Marine Corps.        and exit audiogram within 60 days of entry into/
NAVAUDSVC found that accessing public                exit from the service, although the majority of
school education programs/services can present       these Marines had been enrolled in HCP. The
unique challenges to Marine Corps EFMP               Department of Defense, the Department of the
enrollees and the Marine Corps. NAVAUDSVC            Navy, and the Marine Corps criteria require that
also found that not all parents thought their        there be an effective HCP, and that all hearing
children were receiving appropriate special          conservation audiograms be part of a Marine’s
education-related services in accordance with        medical record. The conditions noted above
their individual education plan. NAVAUDSVC           occurred for a number of reasons. First, the
concluded that there are opportunities for           Marine Corps did not know the number of
additional improvements to the Marine Corps          Marines actually enrolled in HCP and did not
EFMP during the permanent change of station          know who should have been enrolled in HCP.
process when a special-needs student transitions     Also, an inventory of hazardous noise areas did
from one local education agency to another,          not exist at the headquarters level, and Marines

                                                                                                    OCTOBER 1, 2010 TO MARCH 31, 2011 69
Services



“The Department of              did not receive audiograms as required. In            Department of the Navy Proposed Fiscal Year
the Navy’s proposed             addition, performance measures and evaluation         2012 Military Construction Projects Related
                                of HCP effectiveness were inconsistent, and           to the Relocation of U.S. Marine Corps Forces
military construc-              HCP was not an assessable unit. Until these           from Okinawa to Guam
tion projects for FY            conditions are corrected, Marines will continue       In NAVAUDSVC review of the six U.S. funded
2012 funding included           to unnecessarily lose hearing and the Marine          military construction projects associated with
$136.59 million for             Corps will not be able to meet the goal of            the relocation of Marine forces from Okinawa,
three projects that were        preventing hearing loss. Marines who left service     Japan to Guam, NAVAUDSVC determined
                                in calendar years 2007 and 2008 had 9,126 claims      that five projects represented valid needs.
not needed. ”                   that were filed and granted for hearing loss and/     NAVAUDSVC determined that the remaining
                                or tinnitus. Using the minimum Department             project did not represent a valid need, and
                                of Veterans Affairs compensation rate of 10           found that the five valid projects were all
                                percent, NAVAUDSVC calculated an estimated            inaccurately scoped. Specifically, NAVAUDSVC
                                short-term cost of $134 million and a long-           identified invalid and over-scoped requirements
                                term cost of $404 million for the 9,126 claims        totaling $130.1 million, and under-scoped
                                filed and granted. If these conditions continue,      requirements totaling $7.9 million. Reasons
                                Marines will continue to file claims for hearing      for the scoping issues varied, and included
                                loss and tinnitus, which are lifetime disabilities.   inclusion of previously funded requirements,
                                Report No. N2011-0016                                 changes in the projects that were not reflected
                                                                                      in updated DD Forms 1391, misapplication of
                                Infrastructure and                                    criteria, omission of requirements, inclusion
                                                                                      of invalid requirements, and human error
                                Environment                                           during data input. Additionally, three of the
                                                                                      five projects contained line items with no
                                Selected Department of the Navy Military              supporting documentation, which was needed
                                Construction Projects Proposed for FY 2012            to verify the accuracy of the line items’ scopes.
                                The Department of the Navy’s proposed military        During the audit, Headquarters Marine Corps
                                construction projects for FY 2012 funding             and Naval Facilities Engineering Command
                                included $136.59 million for three projects           representatives corrected over-scoped line items
                                that were not needed. In addition, other              totaling $73.7 million and under-scoped line
                                proposed military construction projects were          items totaling $7.9 million. Additionally, the
                                over-scoped by $39.46 million. NAVAUDSVC              invalid project was removed from the FY 2012
                                made recommendations to cancel the projects           Program Objective Memorandum submission.
                                that were not needed, and reduce the scope of         Report No. N2011-0014
                                the over-scoped projects. The commandant
                                of the Marine Corps and commander, Navy
                                Installations Command agreed with the
                                recommendations and the associated potential
                                                                                      Naval Criminal
                                monetary benefits.        NAVAUDSVC also
                                recommended the commander, Naval Facilities
                                                                                      Investigative Service
                                                                                      The Naval Criminal Investigative Service is the
                                Engineering Command update and correct                primary law enforcement and counterintelligence
                                guidance related to low impact development            arm of the DoN. It works closely with other
                                costs. Naval Facilities Engineering Command           federal, state, local, and international police and
                                agreed with this recommendation. All three            security services on serious crimes affecting
                                commands took appropriate corrective                  the DoN, including homicide, sexual assault,
                                actions, and NAVAUDSVC consider all of the            procurement fraud, and other crimes against
                                recommendations to be closed.                         persons and property. NCIS also has a significant
                                Report No. N2011-0008                                 national security mission, investigating such
                                                                                      crimes as terrorism, espionage, and computer
                                                                                      intrusion. In the combating terrorism arena,
                                                                                      NCIS provides both offensive and defensive

 70 SEMIANNUAL REPORT TO THE CONGRESS
capabilities to the DoN. In the offensive context      2009, a confidential source reported that while
(performing the “counterterrorism” mission),           deployed to Iraq in 2005, a major in the USMC
NCIS conducts investigations and operations            sent his wife approximately twenty letter-
aimed at interdicting terrorist activities. In the     size envelopes containing large amounts of
defensive context (performing the “antiterrorism”      U.S. currency. The source reported the officer
mission), NCIS supports key DoN leaders with           instructed his wife to secure the unopened
protective services and performs vulnerability         envelopes in their home safe until his return from
assessments of military installations and areas to     Iraq. During the major’s six-month deployment
which naval expeditionary forces deploy. NCIS          with the 5th Civil Affairs Group in Fallujah,
also leverages its investigative capabilities as it    Iraq, he served as team leader and created and
conducts its indications and warning mission for       executed contracts utilizing Commander’s
the DoN, fusing threat information from an array       Emergency Response Program funds. The
of sources and disseminating threat products to        investigation identified that over the six months
naval elements around the world on a 24-hour           following the major’s return to the United
basis. Below are investigative highlights of NCIS      States, 91 cash deposits were made to his bank
cases for the current reporting period.                accounts totaling approximately $477,000. An
                                                       Arizona federal grand jury returned a 16-count
Significant Investigative Cases                        indictment against the major for violations of
                                                       “Structuring Financial Transactions through
Hostages Freed from Pirates                            a Domestic Financial Institution.” Arrest and
Overview: Combined Task Force 151 is a                 search warrants were executed by agents on-base
multinational task force conducting operations         at Marine Corps Air Station Yuma, Ariz.
to detect and deter piracy in and around the Gulf      Result: The major pled guilty to violating 31 USC
of Aden, Arabian Sea, Indian Ocean and Red             5324(a)(3), Structuring Financial Transactions,
Sea. NCIS special agents, charged with providing       and 31 USC 5324(a)(3), Failure to Report,
criminal investigative support on behalf of            and was sentenced to 24 months and two days
the DoN to CTF-151, routinely process crime            confinement with two years supervised release
scenes, safeguard evidence, conduct interviews/        and ordered to pay a $198,510 fine.
                                                                                                                Combined Task Force 151 conducts
interrogations and apprehend/deliver suspected                                                                  operations to detect and deter piracy.
pirates to the appropriate judicial authority. In      Major Fraud against the Navy
September 2010, the Magellan Star, a foreign           Overview: NCIS became aware of suspected
flagged container ship, was pirated with eleven        material certification irregularities involving
crewmen taken hostage; CTF-151 responded.              a subcontractor to General Dynamics. The
Result: A USMC rapid raid force was deployed,          irregularities were tied to submitted heat testing
regained control of the Magellan Star and              records on metal supplied to the subcontractor
freed the crew. An NCIS criminal investigation         by the second-tier subcontractor company,
ensued, consisting of a detailed crime scene           Bristol Alloys, Inc. The General Dynamics
examination, recovery/collection of physical           subcontractor was awarded a purchase order
evidence, and victim interviews. All Somali            contract for various components including
pirates confessed to their roles in the hijacking of   a “snorkel fairing assembly” on six Virginia-
the ship. Despite current international disputes,      Class submarines. From March through June
and solely predicated upon the quality of the          2009, General Dynamics’ critiques were held to
NCIS criminal investigation, the government            identify systemic problems with base-material
of Kenya without hesitation agreed to prosecute        technical requirements affecting product
the pirates. Nine pirates are currently awaiting       delivery. The critiques confirmed issues with
trial in Kenya.                                        the quality of material certification reports. In
                                                       July 2009, the subcontractor concluded that
USMC Major Convicted of Structuring of                 test reports provided by Bristol Alloys were
Financial Transactions                                 fabricated. Interviews of former sales employees
Overview: This investigation was conducted             disclosed the British Alloys president worked
jointly with NCIS, DCIS, IRS, and SIGIR. In            and serviced all the large accounts, and indicated

                                                                                                        OCTOBER 1, 2010 TO MARCH 31, 2011 71
Services



                                the president and his brother handled the           the Zetas, a known drug trafficking organization.
                                certifications. Interviews also disclosed it was    The MA disclosed he could access ordnance and
                                common knowledge at the company that the            was willing to sell it to the undercover agent. The
                                end parts were going to the USN for submarines      MA was apprehended before he stole military
                                and other Navy ships. The president admitted        ordnance for re-sale, and confessed to larceny of
                                to falsifying heating and material certifications   government property, false official statements,
                                from 2003 forward.                                  and customs’ violations. This investigation was
                                Result: In the Eastern District of Pennsylvania,    conducted jointly with NCIS and FBI.
                                the president pled guilty to 18 USC 1031,           Result: At general court-martial, the MA was
                                Major Fraud against the United States. He was       found guilty of Article 80 – Attempts; Article
                                sentenced to 41 months in prison followed by        81 – Conspiracy; Article 108 – Military property
                                three years of supervised release. The judge also   of United States, loss, damage, destruction, or
                                ordered the president and company to pay $1.36      wrongful disposition; and Article 121 – Larceny
                                million in restitution to the USN.                  and wrongful appropriation. He was sentenced
                                                                                    to six years confinement, forfeiture of pay,
“...a Navy master at            USMC Corporal Murdered                              reduction to E-1, and a dishonorable discharge.
                                Overview: This investigation was initiated after
arms was attempting to
                                blood was discovered in the barracks courtyard      Navy Officer Sentenced to 80 Years for Child
sell military weapons,          area at Marine Corps Base Camp Lejeune, N.C.        Sexual Abuse and Child Pornography
purportedly to Mexican          Within the same timeframe, a USMC private was       Overview: The personal laptop computer of a
drug cartels.”                  found in his barracks room with possible self-      Navy Reserve lieutenant commander deployed
                                inflicted knife wounds. A complex NCIS crime        to Qatar was seized after others discovered it
                                scene investigation ensued with the body of a       contained suspected child pornography. When
                                deceased USMC corporal discovered in a nearby       not activated as a reservist, this individual served
                                wooded area. A witness was located who related      as a DoD civilian senior Intelligence officer
                                the private made comments earlier in the day        with the Office of Military Commissions at the
                                that he was going to kill someone; and later this   Pentagon. An NCIS forensic examination of the
                                same witness saw the private by the corporal’s      laptop revealed an extensive collection of child
                                body. Trace evidence linked the private to the      pornography and additional investigative efforts
                                corporal’s body. The murder was unprovoked as       determined the sexual abuse of a child.
                                investigation revealed the private did not know     Result: The lieutenant commander was released
                                the victim.                                         from active duty and arrested upon his return to
                                Result: At general court martial the private pled   the United States. He pled guilty in the Eastern
                                guilty to Article 118 – Murder and Article 122      District of Virginia to violating 18 USC 2251(a)
                                – Robbery and was sentenced to life in prison       and (c) – Production of Child Pornography;
                                without the possibility of parole, forfeiture of    18 USC 2256(1) and (2) – Production of Child
                                pay, and a dishonorable discharge.                  Pornography; and 18 USC 2244(a) (1) and (c)
                                                                                    – Abusive Sexual Contact. He was sentenced to
                                Theft of Ordnance for Sale to Mexico Thwarted       80 years in federal prison followed by lifetime
                                Overview: NCIS received information from the        supervised release.
                                FBI in Texas indicating a Navy master at arms was
                                attempting to sell military weapons, purportedly    Transporting Child Pornography
                                to Mexican drug cartels. A corrupt U.S. police      Overview: As part of the Department of Justice
                                officer involved in drug trafficking offered to     Project Safe Childhood, the FBI initiated
                                sell weapons and explosives to undercover law       an investigation of individuals trading child
                                enforcement officers. He identified the MA as a     pornography over the internet. When it was
                                relative who could obtain weapons. Subsequent       determined that the subject of the investigation
                                undercover meetings with the MA revealed he         was an active duty USN chief petty officer, NCIS
                                was stealing military equipment (non-ordnance)      became the lead investigative agency. NCIS
                                from the Naval Air Station Corpus Christi           seized the CPO’s computer and computer media,
                                Security Department warehouse and selling it to     and a computer forensic analysis revealed

 72 SEMIANNUAL REPORT TO THE CONGRESS
numerous images of child pornography. This 
          NCIS has been instrumental in improving
was a joint investigation with NCIS, DoJ (Project 
   emergency radio communications between U.S.
Safe Childhood) and the FBI.
                         Embassy Manama and Naval Support Activity                    “NCIS provided the
Result: The CPO pled guilty to 18 USC 2252(a) 
       Bahrain. In carrying out the NCIS protection
                                                                                                                   Seychelles National
(1) and 2256(2), Transportation of Child              mission for Flag level personnel, shortfalls
Pornography, and was sentenced in the Eastern         were brought to light in the existing emergency               Drug Enforcement
District of Virginia federal court to 12 1/2 years    communications plans; i.e., the inability of U.S.          Agency technical and
in federal prison followed by lifetime supervised     security and command personnel on island                   analytical training in
release.                                              to communicate with each other. The locally               basic law enforcement
                                                      assigned technical investigator became the
                                                                                                                          techniques.”
Technical Services                                    focal point for addressing these issues; with a
The chief of the Bahraini Joint Anti-Terror           significant role played by NCIS headquarters
Center, Ministry of Interior, asked NCIS to           in providing additional radio and system
provide basic law enforcement instruction on          interconnect equipment. This initiative resulted
using video and audio equipment and to provide        in the ability for base and embassy command,
advice on purchasing this type of equipment.          control and security personnel to conduct direct
Thirty members of the Internal Affairs Section        radio communications. Of note was the ability
and the Criminal Investigations Directorate were      of the fleet antiterrorism security team to gain
trained. This 40-hour program was designed            access to the embassy’s extensive radio network,
to increase cooperation and enhance the law           allowing the team to better organize and respond
enforcement capabilities of the Bahrain MoI law       in the event of a local crisis. These substantive
enforcement organizations. It was conducted           security improvements were completed
as part of NCIS anti-terrorism/force protection       in January 2011, days before the public
and theater security cooperation missions.            demonstrations that wracked the kingdom. The
                                                      effectiveness of this local initiative has resulted
NCIS teamed up with U.S. Africa Command               in the “Manama Radio ELMR Interoperability
and the Office of Security Cooperation U.S.           Project,” spearheaded by the Cairo based State
Embassy Dakar, in an effort to provide radio          Department Regional Information Center. This
communications capabilities for Cape Verde            joint project is intended to extend the current
law enforcement agencies. The Cape Verde              radio communications infrastructure, and
Islands sit astride sea lanes identified as           further improve interoperability on an enterprise
narcotics transshipment points between South          basis.
America and Europe, and they currently have no
viable law enforcement radio communication            NCIS provided the Seychelles National Drug
capabilities. The ability of local law enforcement    Enforcement Agency technical and analytical
units to communicate within this multi-               training in basic law enforcement techniques.
island chain is considered crucial to effectively     This week-long training helped to cement
addressing this growing problem. NCIS has             a professional relationship that will boost
donated 80 surplus portable radios and six radio      counternarcotics initiatives throughout this
repeaters to AFRICOM for eventual transfer to         area. This training evolution not only fostered
the Cape Verde government. This will be the first     Theater Security Cooperation between the DoN
time Cape Verde law enforcement personnel will        and the Seychelles, but also supports the DoN
have a unified radio system, allowing them to         counterterrorism mission. By stemming the
coordinate efforts against the war on drugs and       trade of narcotics, the Seychelles can prevent
crime. This donation not only fosters Theater         funds from illicit drug sales from reaching the
Security Cooperation between the DoN and              accounts of terrorists.
the Cape Verde Islands, but also supports the
counterterrorism mission. By stemming the             NCIS responded to a request for technical
shipment of narcotics between South America           assistance by the U.S. Central Command, Joint
and Europe, Cape Verde can prevent drug sales         Counterintelligence Unit located in Kabul,
money from reaching the coffers of terrorists.        Afghanistan. This unit’s mission requires

                                                                                                        OCTOBER 1, 2010 TO MARCH 31, 2011 73
Services



                               extensive travel in areas that are at times             support and personnel audits region located at
                               remote and potentially dangerous. In order              Brooks City-Base, Texas, with five area audit
                               to ensure agent safety, effective mobile radio          offices at 14 Air Force installations and seven
                               communications is a requirement. The minimal            additional operating locations. The Acquisition
                               radio system that the JCIU was operating                and Logistics Audits Directorate, headquartered
                               did not provide for effective unit-to-unit              at Wright-Patterson AFB, Ohio, directs audits
                               communications or useful communications with            related to procurement, maintenance, supply,
                               rear area emergency quick reaction forces. To           transportation, and weapon systems acquisition.
                               rectify the situation, NCIS provided an on-scene        AFAA/QL also manages the acquisition and
                               technical investigator to develop an operational        logistics audits region located at Wright-
                               radio infrastructure and to train JCIU personnel        Patterson AFB, Ohio with five area audit offices
                               on tactical communications. NCIS headquarters           at five Air Force installations and one additional
                               provided a variety of handheld radios and radio         operating location.
                               repeaters in order to extend the emergency
                               communications footprint, and significantly             In the last six months, audit efforts focused in
                               increased on-the-ground agent safety.                   the following key management challenge areas:
                                                                                       joint warfighting and readiness; information

                               Air Force Audit Agency
                                                                                       assurance, security, and privacy; acquisition

Air Force
                     The Air Force Audit Agency provides all levels
                               of Air Force management with independent,
                                                                                       processes and contract management; financial
                                                                                       management; health care; nuclear enterprise;
                                                                                       and American Recovery and Reinvestment Act.
                               objective, and quality audit services by reviewing      These efforts have resulted in more than $811
                               and promoting the economy, effectiveness, and           million in potential monetary benefits.
                               efficiency of operations; evaluating programs
                               and activities and assisting management in              Following are examples of audit coverage
                               achieving intended results; and assessing and           performed by the AFAA related to the following
                               improving Air Force fiduciary stewardship and           DoD management challenge areas:
                               accuracy of financial reporting. Organized into
                               three line directorates, the AFAA conducts              Joint Warfighting and
                               centrally directed audits in numerous functional
                               areas that provide support to Air Force senior          Readiness
                               leaders. AFAA also has audit presence at over 50
                               locations providing audit services to installation      Implementing Combat Air Forces Total Force
                               commanders.                                             Integration
                                                                                       The Total Force Integration program objective
                               The Financial and Systems Audits Directorate,           is to enhance Air Force’s ability to meet mission
                               headquartered at March ARB Calif., directs              requirements by integrating Regular Air Force,
                               audits related to financial management, financial       Air National Guard, and Air Force Reserve
                               support, information systems development,               personnel. Total Force Integration is designed
                               communications systems, and system security.            to meet combatant commander requirements
                               AFAA/FS also manages the financial and systems          through a more efficient and effective use of
                               audits region located at March ARB, Calif., with        all available personnel and weapons systems.
                               five area audit offices at 19 Air Force installations   Force integration combines a host unit with
                               and five additional operating locations.                an associate unit operationally integrated, but
                                                                                       whose chains of command remain separate.
                               The Support and Personnel Audits Directorate,           Increased integration and properly balanced
                               headquartered at Brooks City-Base, Texas, directs       association type allows the Air Force to capitalize
                               audits related to operational support, personnel,       on experience levels inherent in the National
                               training, engineering support, support services,        Guard and Reserve, while building total force
                               environmental issues, intelligence operations,          relationships necessary to sustain combat
                               and health care. AFAA/SP also manages the               operations. As of April 2010, the Combat Air

74 SEMIANNUAL REPORT TO THE CONGRESS
Forces had nine fighter and bomber total force        allows management personnel to verify proper
integration initiatives completed or underway         configuration of operational aircraft to meet
and another seven planned. Because the Air Force      safety and mission requirements.
had only partially implemented Combat Air             Report No. F-2011-0001-FC2000
Forces initiatives, auditors could not determine
whether creating fighter and bomber total force       Air Force Officer Accessions and Training
integration associate units within the Combat         Officer accessions refer to newly commissioned
Air Forces would maximize forces available            officers who enter extended active duty through
to support Air Force mission requirements.            one of three commissioning sources: the USAF
However, review of the 16 completed, ongoing,         Academy, Air Force Reserve Officers’ Training
or planned initiatives disclosed the Air Force        Corps, and Officer Training School. Newly
did not properly balance the number of active         commissioned officers are required to attend
versus classic associations and the Air Force         initial skills training within six months of
created associations resulting in an imbalance of     entering extended active duty; however, in June           AFAA reviewed officer accessions and
aircrew authorizations. As a result, if completed     2006 the chief of staff of the Air Force established      training.
without properly balancing resources, total force     a 60-day goal for starting initial skills training.
integration initiatives will not achieve intended     Air Force officials could reduce the time for
results of enhancing the ability of the Air Force     new officers to begin initial skills training, use
to efficiently meet mission requirements.             ROTC scholarships more effectively to meet
Report No. F 2011-0001-FD3000                         critical Air Force needs, and improve ROTC
                                                      cadet recruiting and classification. Specifically,
Temporary Modifications                               56 percent of newly accessed officers waited
Temporary        modifications       change     the   longer than the 60-day goal to start initial
configuration of an aircraft for flight and ground    skills training. Of the 56 percent, 35 percent
test purposes or to support a specific mission        were ROTC officers who could have entered
for a limited period. Air Force personnel use a       extended active duty later to avoid waiting for
temporary-1 modification to perform a special         training in an active duty pay status. Improving
mission or to add or remove equipment for             initial skills training timeliness would increase
increased capability. A temporary-2 modification      mission readiness and improve morale. In
supports research, development, test, and             addition, training new officers sooner would
evaluation. Appropriate approval and proper           have avoided $31 million in military personnel
documentation of temporary modifications              cost from FY 2007 to FY 2009 and will save an
provides operational aircraft configuration           additional $6.7 million over six years (execution
control and helps verify that aircraft meet           year and the Future Years Defense Program). In
safety and mission requirements. During FYs           addition, only 6,840 of 17,815 ROTC scholarship
2008 and 2009, Air Force personnel performed          awards (valued over $159 million) were for
over 420 temporary-1 and temporary-2 type             technical degrees required to meet critical Air
modifications. Air Force personnel did not always     Force needs. Awarding ROTC scholarships for
properly request and approve temporary aircraft       degrees more closely aligned with Air Force
modifications, maintain documents to support          needs improves readiness and allows better use
timely removal, or accurately record aircraft         of over $10 million in scholarship funds over
modifications in maintenance systems. Properly        six years (execution year and the Future Years
documenting temporary aircraft modifications          Defense Program). Finally, 68 percent of ROTC
through the requesting and approving process          detachments did not meet DoD-mandated 5-year
provides assurance that modifications are valid       average production requirements. In addition,
and authorized. In addition, identifying core         324 of 2,693 ROTC cadet degree programs
documentation and establishing procedures             reviewed did not meet mandatory or desired Air
supporting temporary modification installation        Force specialty code classification requirements.
and timely removal provide management with            Improving ROTC recruiting and classification
effective aircraft configuration control. Finally,    is essential to effective force management and
complete and accurate maintenance data                will provide the Air Force with skills needed

                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 75
Services



                                     to meet mission requirements. In addition,            on the Air Force financial statements. Auditors
                                     closing or consolidating low-producing ROTC           determined LeaveWeb did not comply with
                                     detachments could save the Air Force about $2.3       regulatory and legal accounting mandates.
                                     million over six years (execution year and the        Specifically, LeaveWeb program management
                                     Future Years Defense Program).                        personnel did not identify and incorporate
                                     Report No. F-2011-0001-FD4000                         applicable federal accounting conformance
                                                                                           requirements into LeaveWeb to meet federal
                                     Joint Expeditionary Taskings                          accounting standards. Complying with
                                     Joint expeditionary taskings refer to duties          accounting conformance requirements provides
                                     assigned to airmen outside their normal Air           reasonable assurance the system can accurately
                                     Force specialties to temporarily augment critical     process leave data for over 330,000 military
                                     career specialties with other services. As a direct   personnel. In addition, adhering to established
                                     result of Operations Enduring Freedom and Iraqi       accounting standards improves data reliability
                                     Freedom, these “non-standard force” airmen            needed to support financial management
                                     cross service lines to carry out joint mission        decisions.
                                     objectives with the Army, Navy, and Marines. In       Report No. F-2011-0001-FB2000
                                     August 2009, approximately 5,000 airmen were
                                     deployed to the U.S. Air Forces Central area of       Software Maintenance and Modifications
                                     responsibility on joint expeditionary taskings.       The Air Force defines software maintenance as
                                     While Air Forces Central officials provided           the production effort required to design, code,
                                     adequate oversight and accountability for 177         test, and produce embedded weapon system
                                     randomly selected airmen, Air Force personnel         and associated test system software. Weapon
                                     did not always report changes to missions or          system software maintenance requirements
                                     timely notify Airmen before deployments. As           include software embedded in aircraft, vehicles,
                                     a result, airmen filling joint taskings were not      missiles, and support equipment. Software
AFAA reviewed software maintenance
                                     made available to support other combatant             maintenance requirements primarily fall into
and modifications.                   commanders or Air Force priorities. Additionally,     two categories: depot purchased equipment
                                     short notice deployments are detrimental to           maintenance and unit under test software. The
                                     airmen morale, can result in pre-deployment           Air Force uses in-house (organic) software
                                     training delays, and may negatively impact the        engineers, contractors, or a combination of both,
                                     mission capability of combatant commanders.           depending on the source of repair assignment
                                     In addition, airmen did not possess required          process, to determine the best solution for
                                     skills, received redundant training, or were          software maintenance performance. While Air
                                     provided improper or unnecessary equipment            Force personnel used the correct appropriation
                                     to accomplish assigned taskings. Providing            to fund software maintenance requirements,
                                     necessary skills and equipment helps meet             program managers did not accurately
                                     mission requirements and improves war-fighting        compute and justify software maintenance
                                     capability.                                           and modification requirements and properly
                                     Report No. F-2011-0003-FD4000                         implement recommendations. To illustrate, Air
                                                                                           Force personnel did not properly compute Depot
                                     Information Assurance,                                Purchased Equipment Maintenance software
                                                                                           maintenance requirements and, as a result,
                                     Security, and Privacy                                 overstated FY 2009 DPEM software maintenance
                                                                                           requirements by $47 million and understated
                                     LeaveWeb Accounting Conformance Report                requirements by $15.6 million. Accurately
                                     LeaveWeb is a management information system           computing and justifying requirements allows
                                     that automates over 1.6 million military leave        the Air Force to improve management of limited
                                     request transactions annually costing $3 billion      funding and prevents overstating the budget by
                                     for over 330,000 Air Force military personnel.        $310.1 million for FYs 2011 through 2016. In
                                     LeaveWeb is financial feeder system providing         addition, Air Force personnel did not accurately
                                     information for military leave liability accruals     compute and justify unit under test software

76 SEMIANNUAL REPORT TO THE CONGRESS
maintenance requirements, and maintenance            items. Effective COMSEC asset accountability
wing personnel did not use approved organic          is essential to provide oversight for assets vital
man-hours and contract costs to prepare the          to securing classified information. COMSEC
depot maintenance budget and recover UUT             personnel did not always report deviations
overhead costs from the customer. As a result,       through the proper channels within the required
the Air Force lost visibility over organic UUT       time frames. Reporting of COMSEC deviations
customer requirements and depot maintenance          is necessary to enable officials to take immediate
workload. Additionally, Air Force personnel          steps to limit the adverse effects to the security of
overstated contract UUT software requirements        the United States.
approximately $3.7 million for FYs 2011              Report No. F 2011-0004-FC4000
through 2016. Finally, Air Force personnel did
not properly implement software maintenance          Next Generation Information Technology
and modification Source of Repair Assignment         Accounting Conformance Requirements -
Process recommendations to utilize organic           Request for Proposal
software maintenance capabilities. As a result,      The next generation information technology is
the Air Force did not establish organic software     the new civil engineering enterprise resource
maintenance workload valued at approximately         planning system designed to provide an
$83 million during FY 2009 as originally             integrated work management capability for
scheduled. Implementing organic software             many of their processes. NexGen IT program
SORAP recommendations is necessary for the           management office personnel did not prepare
Air Force to meet statutory requirements for         the request for proposal to ensure compliance
core workload capability, identify limitations for   with regulatory and legal mandates related
contractor performance of depot maintenance,         to accounting conformance requirements.
and provide timely and effective workload            Specifically, the NexGen IT request for proposal
capabilities.                                        did not contain sufficient wording to ensure
Report No. F-2011-0002-C2000                         that all regulatory and legal mandates related to
                                                     accounting conformance requirements would be
Accountability and Control of Communications         addressed. Including accounting conformance
Security Assets                                      requirements reviews in the request for proposal
Communications          security     encompasses     will ensure potential software contractors design
measures and controls taken to deny                  a system that will provide users complete, timely,
unauthorized persons access to government            reliable, and consistent financial data to manage
systems related to national security.          Air   Air Force real property assets.
Force personnel use COMSEC assets, such as           Report No. F-2011-0003-FB2000
cryptographic keys, to secure or authenticate
communications.        Controlled cryptographic      Acquisition Processes and
items are one type of COMSEC asset that
protect voice and data processed through             Contract Management
secure communications. While COMSEC
personnel generally maintained security over         Reaper (MQ-9) Acquisition Management
assets, they could improve accountability and        The MQ-9 Reaper unmanned aircraft system
deviation reporting. Air Force personnel did not     is a long-endurance, medium-to-high altitude
properly account for COMSEC and controlled           system that provides intelligence, surveillance,
cryptographic items. Specifically, personnel         reconnaissance, and Hunter-Killer mission
could not locate 110 assets and did not record       capabilities. The Air Force initiated the Reaper
818 on-hand assets in Air Force accountability       program as a contractor-developed, commercial
systems. Additionally, accountability systems        off-the-shelf acquisition. Because the Reaper
contained inaccurate data for 136 assets. As         introduced unique capabilities, Air Combat                   AFAA reviewed Reaper (MQ-9)
                                                     Command officials directed early fielding of                 acquisition management.
a result, Air Force leaders did not have total
asset visibility and control for over $3.7 million   the Reaper to support emerging warfighter
of COMSEC and controlled cryptographic               needs. As such, the system has evolved from

                                                                                                         OCTOBER 1, 2010 TO MARCH 31, 2011 77
Services



                                     a commercial item to a highly modified major        planning gaps.
                                     weapon system. Since 2001, program officials        Report No. F-2011-0002-FC3000
                                     developed, produced, tested, and fielded 40
                                     Reapers with sufficient warfighting capabilities    Environmental Restoration Task Order
                                     that successfully supported multiple joint-         Management
                                     contingency operations worldwide. The Air           The Air Force Center for Engineering and
                                     Force plans to acquire 388 Reapers with             the Environment manages the Air Force
                                     procurement costs totaling over $10 billion.        environmental restoration program to clean up
                                     Auditors concluded acquisition planning for the     environmental contamination. As of May 12,
                                     MQ-9 Reaper unmanned aircraft system could be       2010, Air Force Center for Engineering and the
                                     improved. While personnel initiated acquisition     Environment had approximately 1,501 active
                                     planning that provided executable program           environmental restoration task orders valued
                                     baseline parameters, program officials did not      at $2.7 billion. Approximately 725 of these task
                                     always maintain control over technical baseline     orders, valued at $1.1 billion, were physically
                                     requirements. Specifically, program officials did   complete and had unliquidated obligations of
                                     not incorporate all warfighter requirements into    $3.8 million. Air Force Center for Engineering
                                     the production contract or ensure lower-level       and the Environment personnel could improve
                                     requirements aligned with key performance           task order management. Personnel effectively
                                     parameters. As a result, the Reaper program is at   negotiated fees in accordance with applicable
                                     risk that system end-items may not fully satisfy    Federal Acquisition Regulation clauses for cost
                                     all user operational requirements.                  plus fixed fee task orders. However, Air Force
                                     Report No. F-2011-0001-FC3000                       Center for Engineering and the Environment
                                                                                         did not timely deobligate $1.4 million or
                                     Combat Survivor Evader Locator Program              properly close more than 70 percent of task
                                     Management                                          orders reviewed. As a result, the Air Force lost
                                     The combat survivor evader locator is a joint       $717,000 in canceled funds during the period
                                     program that provides a survival radio system       reviewed. While total fund forfeiture was not
                                     for Army, Navy, and Air Force users. The            necessarily material, without adequate controls,
                                     system provides global coverage, continuous         future losses from deobligation and closeout
                                     access, precision navigation, and positioning to    delays could become significant and impact
                                     survivors or isolated personnel on the ground.      restoration mission accomplishment.
AFAA reviewed Combat Survivor        Within minutes of activation, the system            Report No. F-2011-0005-FD1000
Evader Locator program management.   provides precise survivor location data and
                                     two-way over-the-horizon communication with         Advisory and Assistance Services Contracts
                                     combat search and rescue forces. The program        Advisory and assistance services are contract
                                     has fielded more than 30,000 handheld radios        support acquired from non-governmental
                                     and has been credited with over 40 real-world       sources to improve the effectiveness and
                                     “saves.” However, program officials did not plan    economy of government operations. The
                                     and execute combat survivor evader locator          Air Force uses A&AS contracts to improve
                                     production, modification, and upgrade activities    organizational policy development, decision
                                     in a timely and effective manner. As a result,      making, program and project management, and
                                     the program did not satisfy all operational         research and development. Air Force reported
                                     requirements, causing reduced mission               FY 2010 A&AS contract costs of $1.37 billion
                                     capabilities for users. It also did not develop     (adjusted from $2.3 billion for congressionally
                                     a documented, long-term logistics support           approved exemptions) to Congress. Audit
                                     strategy for combat survivor evader locator         determined personnel awarded A&AS contracts/
                                     sustainment. Therefore, program officials did       task orders in accordance with established
                                     not have an integrated management framework         policy for fair opportunity, competition, time
                                     for all acquisition and sustainment activities.     limitations, lowest cost, technical capability, and
                                     During the audit, management officials initiated    satisfactory performance. However, personnel
                                     aggressive actions to close existing staffing and   did not adequately evaluate requirements for

78 SEMIANNUAL REPORT TO THE CONGRESS
21 of 28 contracts/task orders reviewed. In           over MORD establishment and payment allow
particular, contracts/task orders contained           for more efficient use of scarce Air Force funds.
requirements that were closely related to             Report No. F-2011-0001-FB1000
inherently governmental functions, personal
services, or enduring operational tasks. As a         Privatized Housing Fire and Police Services             “Air Force officials did
result, the Air Force increased risk for potential    The National Defense Authorization Act for              not manage privatized
loss of government control and expended $754.4        FY 1996 established the military housing
million to acquire contract A&AS support that         privatization initiative, providing DoD the
                                                                                                             housing fire and police
may have been more appropriate for government         authority to enter into long-term business             services in accordance
employee performance. In addition, Air Force          relationships with private sector companies            with Air Force require-
organizations did not accurately report data,         to build, renovate, and maintain housing               ments, lease provisions,
and, as a result, the data call overstated A&AS       communities (privatized housing) on military             and applicable laws.”
costs by more than $430 million and contract          installations. In FY 2003, public law authorized
manpower equivalents by nearly 1,700 positions.       the Air Force to provide fire and police services
Further, errors and omissions in A&AS data call       to these communities on a reimbursable
submissions could result in erroneous reporting       basis. Air Force officials did not manage
of A&AS contract status to Congress.                  privatized housing fire and police services in
Report No. F-2011-0001-FC1000                         accordance with Air Force requirements, lease
                                                      provisions, and applicable laws. Specifically,
Financial Management                                  Air Force personnel did not establish and
                                                      compute reimbursements. As a result, the Air
Headquarters Air Force Resource Management            Force did not comply with public law and
Miscellaneous Obligation/Reimbursement                improperly provided free or underpriced fire
Documents                                             and police services. By obtaining appropriate
Air Force financial managers use miscellaneous        reimbursements from privatized housing
obligation/reimbursement documents to support         projects, the Air Force could realize a potential
recording an obligation or reimbursement when         monetary benefit of approximately $46.4 million
the required documentary evidence to support          over six years (execution year and the Future
the transaction is not immediately available. Title   Years Defense Program). In addition, personnel
31, United States Code 1501 requires financial        did not process reimbursement payments in
managers to record only those obligations             accordance with lease provisions and fiscal
meeting specified standards, and the DoD              law. All 15 installations reviewed had multiple
Financial Management Regulation, 7000.14-R,           reimbursement         processing    discrepancies
volume 14, chapter 1, “Administrative Control         including inappropriate invoicing, payment
of Funds and Antideficiency Act Violations,”          receipts, and fund account allocation. Accurate,
January 2009, requires recorded obligations           complete, and timely reimbursement processing
be supported by valid contractual documents.          is necessary to ensure compliance with lease
While Headquarters Air Force Resource                 provisions and to avoid potential fiscal law
Management financial managers improved                violations. Finally, personnel did not perform or
overall MORDs management, internal controls           monitor all duties in accordance with Air Force
needed strengthening. Specifically, resource          requirements and lease provisions, including
advisors properly established MORDs and               fire hydrant maintenance, background checks,
supported MORD payments. Resource advisors            and establishing police rules of engagement.
maintained sufficient documentary evidence            Strengthening these areas would improve
to support the establishment of MORDs and             protection of Air Force personnel and avoid
subsequent MORD payments. However, resource           unnecessary legal liabilities.
advisors did not effectively validate unliquidated    Report No. F-2011-0007-FD1000
MORD balances. As of September 2010,
resource advisors deobligated balances totaling
over $10.7 million that could be used for other
critical mission requirements. Effective controls

                                                                                                      OCTOBER 1, 2010 TO MARCH 31, 2011 79
Services



                               Operating Materials and Supplies – Aircraft           redundant medical care costing approximately
                               Engines and Missile Motors                            $6 million over six years (execution year and the
                               Operating materials and supplies are tangible         Future Years Defense Program). Completing
                               personal property, excluding goods acquired           all program administration requirements at 11
                               for constructing real property, stockpiling           military treatment facilities reviewed would
                               materials, and inventory. The Air Force uses          provide a more standardized approach to case
                               the Consolidated Engine Management System             managed patient care; satisfy Case Management
                               and Integrated Missile Database to account            Society of America standards; improve workload
                               for aircraft engines and missile motors,              reporting accuracy; and provide the visibility
                               respectively. The two systems reported values         needed to properly assess case management
                               of $9.2 billion for aircraft engines and $2 billion   workloads, budgeting and position requirements
                               for missile motors as of September 30, 2009.          against patient demands.
                               Audit determined aircraft engine and missile          Report No. F-2011-0001-FD2000
                               motor managers correctly reported operating
                               materials and supplies - aircraft engines and         Disability Evaluation System Internal Controls
                               missile motors in FY 2009 financial records.          To maintain a fit and vital force, the secretary of
                               Specifically, managers correctly recorded and         the Air Force relies on the disability evaluation
                               properly supported aircraft engines and missile       system to identify airmen who are unable to
                               motors reviewed, valued at $806.8 million and         reasonably perform their duties due to a service-
                               $75 million, respectively. Maintaining accurate       incurred or service-aggravated mental or
                               financial records and supporting documents            physical disability. Disability evaluation begins
                               for mission critical assets helps enhance asset       when examination, treatment, hospitalization,
                               accountability and ensure financial record            or duty performance results in a referral to
                               accuracy.                                             a medical evaluation board by the attending
                               Report No. F-2011-0003-FB3000                         provider. The medical evaluation board is the
                                                                                     first step in the disability evaluation system
                               Health Care                                           process to determine whether an airman is
                                                                                     unfit for duty. This process continues with
                               Medical Case Management                               the physical evaluation board to evaluate the
                               Medical case management is a collaborative            nature, origin, degree of impairment, and
                               process designed to improve patient                   probable permanence of the physical or mental
                               outcomes and focus awareness on the three             condition. In accordance with Public Law 109­
                               to five percent of military beneficiaries who         364, the undersecretary of defense (personnel
                               consume an inordinate amount of resources.            and readiness) established policy in May 2007
                               Through utilization reviews and other analysis        for service IGs to conduct a review of disability
  AFAA reviewed medical case
  management.                  techniques, patients who appear to over­              evaluation system compliance requirements
                               utilize medical resources based on frequent           and internal controls every three years. While
                               admissions, chronic disease treatments, or            improvements were made since the previous
                               other special healthcare needs are identified         audit, medical officials did not process medical
                               and recommended for case management. To               evaluation board determinations within
                               improve case management services, military            30 days as required; 28 percent of the time
                               treatment facility officials could increase the       medical evaluation board processing exceeded
                               number of case managed patients and improve           the standard by an average of 22 days. Timely
                               program administration for patients enrolled in       medical evaluation board processing is necessary
                               case management. Increasing patient caseloads         to minimize the impact on unit readiness and to
                               at nine of 11 locations reviewed could increase       quickly identify members able to return to duty
                               overall program enrollment by at least 568 cases;     or no longer able to perform their duties (repeat
                               or an average of 15 additional patients per case      condition). In addition, only 132 (8 percent) of
                               manager. Increasing caseloads could enable            1,628 medical evaluation board cases adjudicated
                               military treatment facility officials to improve      from October 1, 2009, through March 31, 2010,
                               patient outcomes and reduce unnecessary or            were completed within the standard 40 days. As

80 SEMIANNUAL REPORT TO THE CONGRESS
a result, over 1,433 cases were awaiting disability      funds no longer needed. Audit identified Air
determination as of April 20, 2010. Reducing             Force personnel did not effectively manage
processing time to meet the 40-day standard              equipment orders and associated funding.
will allow the Air Force to expedite airmen              Specifically, personnel did not effectively follow-
separations/retirements and achieve a potential          up on equipment orders or timely deobligate
monetary benefit of approximately $172 million           remaining funds on over 90 percent of orders
over six years (execution year and the Future            reviewed. Proper follow up on orders results in
Years Defense Program).                                  medical facilities receiving mission equipment
Report No. F-2011-0002-FD2000                            in a timely manner, positively affecting the
                                                         quality of patient care. Deobligating unnecessary
Air Force Central Area of Responsibility Patient         medical equipment obligations resulted in a
Safety Program                                           one-time monetary benefit to the Air Force of
Air Force military treatment facility personnel          almost $1 million.
deployed to Air Forces Central area of                   Report No. F-2011-0004-FD2000
responsibility installations are responsible for
providing safe, quality health care to their patients.   Nuclear Enterprise                                       “The Air Force manages
Congress underscored this responsibility in
the 2001 National Defense Authorization Act
                                                                                                                      a worldwide supply
                                                         Nuclear Weapons Related Materiel Inventories
requiring DoD health care organizations to                                                                           chain supporting di-
                                                         The Air Force manages a worldwide supply chain
establish a system for identifying, analyzing,           supporting diverse nuclear-capable weapons                 verse nuclear-capable
and reporting medical events that occur in the           systems and related materiel. Air Force inventory            weapons systems...”
provision of health care. Medical events are             teams validate accountability by conducting
actions or inactions that lead to deviations from        physical inventories of nuclear weapons related
intentions or expectations and include problems          materiel at both organic Air Force locations and
in medical practice, procedures, products, or            at non-organic locations such as contractor and
systems. Audit determined medical officials at           Department of Energy facilities. Air Force teams
all three military treatment facilities reviewed         inventoried assets and reconciled results at 11
did not fully implement patient safety programs          organic locations to verify Air Force records
necessary to identify medical events, analyze            accuracy. In addition, all items on Air Force
patient mishaps and risk, or report potential            accountability records were physically on hand
problem areas for resolution. Fully implemented          during the inventory at non-organic locations.
patient safety programs, associated medical              However, not all nuclear weapons related
event identification, analysis, and reporting            materiel items were on Air Force accountability
processes ensures Air Forces central officials           records and inventory teams could not always
properly identify patient care risks and mitigate        verify whether accountability records were
as required by law.                                      complete. As a result, at least 86 nuclear weapons
Report No. F-2011-0003-FD2000                            related materiel assets were not included in the
                                                         worldwide inventory. Accurate accountability
Medical Equipment Orders and Funding                     of nuclear weapons related materiel assets at
Air Force medical equipment includes patient             contractor facilities are important for ensuring
care items such as ultrasound and dental                 the security of assets outside physical control of
screening equipment. Depending on the dollar             the Air Force.
amount and installation budgets, requirements            Report No. F-2011-0002-FC4000
levels and purchases for these items are managed
by installation military treatment facility or Air       Air Force Management of Nuclear Expertise
Force Medical Operations Agency officials.               Reinvigorating the nuclear enterprise remains
Medical logistics personnel monitor equipment            the Air Force’s highest priority. The Air Force
purchases from requisition until item receipt,           Nuclear Task Force, in the October 24, 2008,
and Resource Management Office personnel                 Nuclear Roadmap, concluded identifying
manage associated funding including reviewing            nuclear expertise and addressing education
obligation balances and timely deobligating              and training were necessary to improve nuclear

                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 81
“Although Air Force             functions within the Air Force. Additionally,          dispose 1,300 of 53,000 nuclear assets planned
officials developed a           the Nuclear Task Force directed the Air Force          for disposal during FY 2010. In addition, the
                                to identify all key nuclear billets and verify         AFNWC financial and nuclear demil managers
comprehensive list of           that these positions were the highest priority         did not align costs with disposal actions outlined
key nuclear billets, 27         for assigning experienced airmen. Formal               in the Nuclear Enterprise Demil/Disposal Plan.
of 221 military and             schoolhouse and unit-level programs provide            Consequently, nuclear demil managers reported
civilian personnel as-          key nuclear billets personnel training and             incomplete data and understated FY 2010 demil
signed to these billets         should be accurately reflected in the Military         requirements and costs by $14 million.
                                Personnel Data System. A candidate’s nuclear           Report No. F-2011-0003-FB1000
have not received any           training history should be easily accessible so
position-specific nucle-        assignments personnel can use that data when           Recovery Act
ar training.”                   selecting airmen and civilians for key nuclear
                                billets. Although Air Force officials developed a      The American Recovery and Reinvestment Act
                                comprehensive list of key nuclear billets, 27 of 221   of 2009 was signed into law February 17, 2009.
                                military and civilian personnel assigned to these      The purpose of the law was to create and save
                                billets had not received any position-specific         jobs, jump-start the economy, and create a
                                nuclear training. Additionally, the Military           foundation for long-term economic growth. The
                                Personnel Data System inaccurately indicated           Act allowed the Air Force to address unfunded
                                172 (86 percent) of the 201 military members           facility requirements. AFAA conducted the
                                assigned to key nuclear billets had not received       following four audits evaluating the use of
                                nuclear training. Although DoD IG did not find         Recovery Act funds.
                                instances where nuclear personnel improperly
                                performed assigned duties, inadequate training         American Recovery and Reinvestment Act of
                                unnecessarily increases Air Force exposure to          2009 Project Execution - Facilities Sustainment,
                                this potential risk. Further, accurate nuclear         Restoration and Modernization
                                training data facilitate selecting appropriately       Air Force approved 1,705 Recovery Act
                                trained personnel and help preclude erroneously        projects at an estimated cost of $1.2 billion.
                                excluding trained individuals from consideration       As of February 2010, 1,603 projects, valued at
                                for key nuclear billets assignments.                   $1 billion, were awarded. Air Force personnel
                                Report No. F-2011-0002-FD3000                          properly awarded projects to qualified small
                                                                                       businesses and administered Recovery Act
                                Nuclear Demilitarization Program Funds                 funds. However, contractor’s progress schedules
                                In 2006, the Air Force established the Air             were late, inadequate or not submitted for 87 (51
                                Force Nuclear Weapons Center at Kirtland               percent) of 169 projects. In addition, contracting
                                AFB, N.M. to ensure safe, secure and reliable          personnel did not review and verify accuracy
                                nuclear weapon systems and serve as the single         of the contractor quarterly reports. As a result,
                                Air Force manager for nuclear sustainment. To          reported data was not accurate. For instance,
                                reinvigorate the nuclear sustainment enterprise,       data in 126 (50 percent) of 251 reports did not
                                AFNWC led the Air Force Comprehensive                  match the Federal Procurement Data System,
                                Assessment of Nuclear Sustainment study in             project status was inaccurate for 34 (14 percent)
                                2008 followed by a second assessment in 2009           of 251 reports, and final reports were inaccurate
                                reporting on nuclear safety, security, reliability,    for 26 (33 percent) of 78 completed projects.
                                and accountability issues. These two assessments       Report No. F-2011-0003-FD1000
                                identified a significant backlog of nuclear
                                assets requiring demilitarization actions such         American Recovery and Reinvestment Act of
                                as the Minuteman I missile. While the Air              2009, Naval Facilities Engineering Command
                                Force nuclear community developed a plan               Southeast, Military Construction Part 2
                                for disposing of surplus nuclear assets, nuclear       Naval Facilities Engineering Command was the
                                logistics personnel located at SPOs did not            contracting agent for one military construction
                                efficiently execute nuclear demil funds. As a          Recovery Act project valued at $14 million.
                                result, SPO nuclear demil managers could only          Navy personnel met the following Recovery

 82 SEMIANNUAL REPORT TO THE CONGRESS
Services



Act goals: quickly awarded contracts and
distributed funds, competed contracts, validated    Air Force Office of
jobs created, and ensured all personnel could
rely on the information to determine success.       Special Investigations
In addition, personnel met most transparency
requirements. However, subcontractors were not      Counterthreat Operations
fully informed of commercial item requirements
and could potentially have been unable to fulfill   Iraq Theater of Operations
or adhere to requirements.                          AFOSI members stationed in the vicinity of
Report No. F-2011-0004-FD1000                       Kirkuk Regional Air Base, Iraq, developed
                                                    information that led to the safe capture of four
American Recovery and Reinvestment                  Jaysh Rijal al-Tariq al Naqshabandi fighters. All
Act of 2009, Air National Guard, Military           four of the JRN fighters were responsible for
Construction Part 2                                 emplacing improvised explosive devices in the
Air National Guard approved 10 Recovery             local area targeting Iraqi government officials
Act projects at an estimated cost of $50            and U.S./coalition forces.
million. Air National Guard personnel met the
following Recovery Act goals: quickly awarded       As part of a multi-national and multi-service
contracts and distributed funds, competed           effort near Kirkuk RAB, AFOSI collected critical
contracts, validated jobs created, and ensured      counterintelligence information used to obtain
all personnel could rely on the information to      a warrant in Iraqi court for the apprehension of
determine Recovery Act success. However, Air        a known terrorist. As a result of the warrants’
National Guard personnel did not completely         execution, he and a second terrorist were arrested
meet transparency requirements. Specifically,       for producing and employing improvised
contracting personnel did not properly report       explosive devices and indirect fire attacks
contract information to the public. As a result,    against coalition forces. Through additional             AFOSI special agents performing
the public was unable to provide informal           counterintelligence activity, AFOSI was able to          counterterrorism operations in Kirkuk.
oversight of projects.                              provide information regarding a weapons cache
Report No. F-2011-0006-FD1000                       to the Iraqi police who in turn acted on the
                                                    information seizing over 400 rocket fuses that
American Recovery and Reinvestment Act of           were destined for nefarious forces near Kirkuk.
2009, U.S. Army Corps of Engineers, Military        This seizure disrupted indirect fire operations.
Construction Part 2
The U.S. Army Corps of Engineers was the            Other investigative activities performed in
contracting agent for six Recovery Act projects     the vicinity of Bagdad led AFOSI to discover
valued at $62 million. USACE personnel met the      information revealing connections between
following Recovery Act goals: quickly awarded       Iraqi government officials working on Bagdad
contracts and distributed funds, competed           International Airport and known members of
contracts, validated jobs created, and ensured      foreign intelligence agencies.
all personnel could rely on the information
to determine Recovery Act success. However,
personnel did not meet all transparency             Bagram Air Base, Afghanistan
requirements, include necessary Federal             In investigative activity conducted near Bagram
Acquisition Regulation clauses in contracts,        Air Base, Afghanistan, AFOSI discovered and
or inform contractors of Recovery Act unique        cultivated counterintelligence information
contract requirements.                              regarding a specific indirect fire threat planned
Report No. F-2011-0010-FD1000                       against coalition forces. After coordination with
                                                    the local task force, direct action units were able
                                                    to eliminate the enemies’ ability to carry out the
                                                    attack.



                                                                                                      OCTOBER 1, 2010 TO MARCH 31, 2011 83
Services
Services



                                         Additional investigative activity at Bagram Air       the movement of 80-100 Taliban fighters. This
                                         Base, led AFOSI to discover threat information        information enabled the synchronization of
                                         as to the location of the mortar firing points used   blocking actions and disruption of enemy
                                         during a ground assault on Bagram AB. The             operations. Provided with this information,
                                         information gained identified the location of five    direct actions teams were able to seize the tactical
                                         enemy bodies, previously unknown, who were            advantage, engage, and inflict heavy damages
                                         neutralized during the assault.                       to the Taliban in the local area rendering them
                                                                                               combat ineffective.
                                         Information collections in and around Bagram
                                         Air Base enabled AFOSI to locate a local              The following are significant investigative cases:
                                         Taliban supporter who housed the insurgents
                                         who participated in the ground assault against        Company Agrees to a $3 Million Settlement
                                         Bagram Air Base Based on AFOSI’s information,         Overview: This case was initiated on a Qui Tam
                                         U.S. forces conducted an operation to neutralize      suit filed in the Western District of Tennessee,
                                         the Taliban supporter. During the exploitation        citing violations of the False Claims Act, 31
                                         of the supporters’ compound, grenades, anti­          USC 3729. The relator, a former company vice
AFOSI special agents meeting with        personnel mines, weapons, and U.S. military           president, alleged that the company and its
locals in Afghanistan.                   clothing items were found and seized.                 corporate entities fraudulently conspired to
                                                                                               mislead the government in order to collect
                                         Investigative activity near Bagram Air Base           unearned profits. Specifically, the company
                                         revealed information regarding 10 improvised          misrepresented critical cost and pricing data in
                                         explosive devises in transport that were to be        its official proposal during contract negotiations
                                         delivered to a local Taliban commander. As a          for the procurement of F-22 shipsets (infrared
                                         result, the shipment was intercepted and the          decoy flares and impulse cartridges). The
                                         devices were removed from the battle space.           government entered into a sole source, firm fixed
                                                                                               price contract of $18.5 million for a deliverable
                                         Kandahar Air Field, Afghanistan                       quantity of 4459 F-22 shipsets. Without notifying
                                         As a result of AFOSI counterintelligence              the government negotiation team, the company
                                         operations, U.S. forces, International Security       solicited and accepted a significantly lower per-
                                         Assistance Forces for Afghanistan, and ISAF           unit quote from a subcontractor, resulting in
                                         military police conducted a joint counter threat      increased profits. Members of the U.S. Attorney’s
                                         operation leading to the neutralization of a          Office, Air Force Materiel Command, DCAA and
                                         known insurgent targeting U.S. and coalition          AFOSI, presented evidence which demonstrated
                                         forces in the vicinity of Kandahar Air Field,         breaches of the Truth in Negotiations Act. This
                                         Afghanistan. The terrorist was also known             investigation was conducted jointly with FBI
                                         for procuring improvised explosive devices            and ICE.
                                         and facilitating suicide attacks. Materials used      Result: The company entered into a civil
                                         to make improvised explosive devices were             settlement agreement to resolve these allegations,
                                         discovered and seized during the neutralization.      agreeing to pay $3.07 million, 20 percent of
                                                                                               which will be paid to the relator pursuant to the
                                         AFOSI investigative activity led to a joint ISAF      Qui Tam provisions of the False Claims Act.
                                         and Afghani National Police operation targeting
                                         five Taliban members responsible for recent           Sexual Predator Gets Life
                                         indirect fire attacks on Kandahar Air Field.          Overview: This investigation was initiated upon
                                         During the execution of the operation, items          receiving information that a child told her parents
                                         found on one of the Taliban members revealed          of seeing the staff sergeant’s privates when he
                                         a plot to assassinate and intimidate members of       babysat her. The staff sergeant was apprehended
                                         a nearby village.                                     and a search of his residence and vehicle was
                                                                                               conducted during which computers, hard drives,
                                         Positive results also evolved from the information    digital cameras, and media cards were seized, as
                                         obtained as a result of AFOSI efforts regarding       well as a child’s personal items and toy. Analysis

84 S E MIAN NU AL RE P ORT TO T H E CO NG RE SS
of the seized digital and media evidence revealed     He was sentenced to eight years of confinement,
2,846 images of suspected child pornography,          reduction to E-1, forfeiture of all pay and
of which 137 were suspected to have been              allowances, and a dishonorable discharge.
manufactured by the staff sergeant. Additionally,
while working the investigation, the Michigan         Other Significant Initiatives
State Police contacted AFOSI stating they were        Since December 2010, AFOSI has been providing
working a case of child sexual assault of a family    law enforcement and counterintelligence support
member against the staff sergeant prior to his        to AF Global Strike Command to enhance the
entering the USAF. The staff sergeant confessed       overall security of Air Force Protection level 1         AFOSI special agents with a weapons
to possessing child pornography and molesting         resources. In executing this mission, AFOSI
                                                                                                               cache uncovered near Bagram Air Base.

several victims.                                      agents have been conducting extensive liaison
Result: At general court-martial the staff            with key local, state and federal law enforcement
sergeant was found guilty of Article 120 – Rape,      agencies, collecting intelligence, providing threat
Sexual Assault, and Other Sexual Misconduct,          briefings, and applying AFOSI special skill sets
and Article 134 – General Article. He was             with the intent of identifying and neutralizing
sentenced to life in prison without the possibility   threats to USAF intercontinental ballistic missile
of parole, reduction to E-1, and a dishonorable       operations.
discharge.
                                                      As of October 2010, AFOSI established its first
Sergeant Receives Eight Year Prison Sentence          Strategic Language and Culture Program to
for having Unprotected Sex                            streamline language coded positions, language
Overview: This investigation was initiated            training, and language program budget. Since
upon receiving information from a sergeant’s          its inception, the program has launched AFOSI
wife who reported her husband was positive            first enhancement training initiative with agents
for human immunodeficiency virus and had              occupying language coded positions attending
engaged in unprotected sexual contact with            a training event of formal instruction and in-
numerous partners over the past several years.        country immersion for two to five weeks. This
Investigation revealed the sergeant was an            enhancement program is intended to preserve
active member of a swinger’s community and            the initial training investment and hone existing
participated in numerous sexual contacts              language skills, thereby aiding in the success
without informing his partners of his illness.        of liaison activities abroad. The program also
Interviews of over 100 individuals and searches       established a strategic focus for the long term
of the sergeant’s off-base home, automobile,          health of AFOSI’s language capability. Defining
military office space and government computer         “strategic” languages and career-long proficiency
systems and mail files were conducted. Twelve         training for selected agents will add vigor to this
were identified as victims with no knowledge of       critical skill set.
the sergeant’s HIV status. Specialists from AFOSI
and the Defense Computer Forensic Laboratory
analyzed computers and related media seized
from the Sergeant. These examinations disclosed
                                                      Air Force Inspector
evidence of the sergeant’s participation with
numerous adult oriented websites, with only one
                                                      General
mentioning a “virus;” and numerous sexually
explicit photographs of the sergeant with             Intelligence Oversight
identified victims. As of January 2011, no victim
has reported being infected by HIV.                   United States Air Force Semiannual Report to
Result: At general court-martial the sergeant         the Intelligence Oversight Board
was found guilty of Article 92 – Failure to Obey      Overview: USAF Major Commands and Field
Order or Regulation; Article 120 – Rape, Sexual       Operating Agency Inspector General Teams
Assault, and Other Sexual Misconduct; Article         conducted 26 intelligence oversight inspections
128 – Assault; and Article 134 – General Article.     between October 1, 2010, and December 31,

                                                                                                        OCTOBER 1, 2010 TO MARCH 31, 2011 85
Services



                                 2010, in accordance with Air Force Instruction        Operational Readiness Inspections between
                                 14-104, Oversight of Intelligence Activities,         October 1, 2010, and December 31, 2010, in
                                 dated April 16, 2007. This report is a summary        accordance with Air force Instruction 90-201,
                                 of the results of those inspections.                  “Inspector General Activities,” dated June 2009.
                                 Result: Inspections assessed unit compliance          The report is a summary of the results of those
                                 with the rules and procedures pertaining              inspections. Nuclear Operational Readiness
                                 to collecting, retaining and disseminating            Inspections are performance-based readiness
                                 intelligence on U.S. persons, and the adequacy        evaluations of nuclear-tasked units which
                                 of the intelligence oversight program. All unit       support United States Strategic Command and
                                 intelligence oversight programs were assessed as      Joint Chief of Staff-directed Operational Plans.
                                 “In Compliance” or “Satisfactory.”                    These inspections require units to demonstrate
                                                                                       their operational capability of nuclear and
                                 United States Air Force Annual Report to the          nuclear-support      in    a    time-constrained
                                 Intelligence Oversight Board (January 1, 2010 –       environment.
                                 December 31, 2010)                                    Result: Six units underwent a Nuclear
                                 Overview: There were no intelligence,                 Operational Readiness Inspection during
                                 counterintelligence, or intelligence-related          this reporting period and earned a rating of
                                 activities that violated law, regulation, or policy   “Outstanding,” “Excellent,” or “Satisfactory.”
                                 during CY 2010. There was a complaint alleging
                                 three potential intelligence oversight violations     United States Air Force Semi-Annual Report to
                                 that was investigate by USSTRATCOM.                   Congress on Inspector General Reports on the
                                 The allegations were determined to be                 Nuclear Enterprise (January 1, 2011 – March
                                 unsubstantiated and the case was closed.              31, 2011)
                                 Result: The Air Force has 519 units that require      Overview: USAF Major Commands conducted
                                 annual Intelligence Oversight inspection. In CY       five Nuclear Surety Inspections and two Nuclear
                                 2010, the Major Commands and the Assistant            Operation Readiness Inspections between
                                 to the Secretary of Defense for Intelligence          January 1, 2011, and March 31, 2011, in
                                 Oversight accomplished 122 unit inspections and       accordance with Air Force Instruction 90-201,
                                 the remaining units completed a self-inspection.      “Inspector General Activities,” dated June 17,
                                 The inspections assessed unit compliance with         2009. The report is a summary of the results of
                                 the rules and procedures pertaining to collecting,    those inspections.
                                 retaining and disseminating intelligence on           Result: Nuclear Operational Readiness
                                 U.S. persons, and the adequacy of intelligence        Inspections are performance-based readiness
                                 oversight programs. During unit compliance            evaluations of nuclear-tasked units which
                                 self-inspection, two units, the 31st Operations       support United States Strategic command and
                                 Group, Aviano Air Base, Italy and the 149th           Joint chief of Staff-directed Operational Plans.
                                 Fighter Wing, Kelly Field Annex, Lackland Air         The inspections require units to demonstrate
                                 Force Base, Texas reported critical discrepancies     their operational capability of nuclear and
                                 concerning unit training requirements which           nuclear-support      in    a   time-constrained
                                 were immediately corrected. The remaining             environment. Two units underwent a Nuclear
                                 395 unit intelligence oversight programs were         Operational Readiness Inspection during this
                                 assessed as “In Compliance.”                          reporting period and earned “Excellent” ratings.

                                 Nuclear Enterprise
                                 United States Air Force Semi-Annual Report
                                 to Congress on Inspector General Reports
                                 on the Nuclear Enterprise (October 1, 2010 –
                                 December 31, 2010)
                                 Overview: USAF Major Commands conducted
                                 five Nuclear Surety Inspections and six Nuclear

  86 SEMIANNUAL REPORT TO THE CONGRESS
              5


Appendices

Appendix A




Audit, Inspection, and
Evaluation Reports Issued
Copies of reports may be obtained from the appropriate issuing office by contacting:

           DoD IG                                                                 Army Audit Agency
           (703) 604-8937                                                         (703) 693-5679
           http://www.dodig.mil/PUBS                                              http://www.hqda.army.mil/aaaweb

           Naval Audit Service                                                    Air Force Audit Agency
           (202) 433-5525                                                         (703) 696-7904
           http://www.hq.navy.mil/navalaudit                                      https://www.afaa.af.mil

                                                                                           DoD IG                   Military Depts.                 Total
  Joint Warfighting and Readiness                                                             11                             42                      53
  Information Assurance, Security, and Privacy                                                1                              19                      20
  Acquisition Processes/Contract Management                                                   17                             34                      51
  Financial Management                                                                        20                             32                      52
  Health Care                                                                                 5                              10                      15
  American Recovery and Reinvestment Act                                                      26                             10                      36
  Nuclear Enterprise                                                                          0                               3                      3
  Other                                                                                       5                               6                      11
   Total                                                                                     85                              156                    241


Joint Warfighting and Readiness

 Agency            Report Number        Report Title                                                                                   Date
 DoD IG            D-2011-033           DoD Needs to Improve Management and Oversight of Operations at the Defense Reutilization       01/12/2011
                                        and Marketing Office-Camp Arifjan, Kuwait (FOUO)
 DoD IG            D-2011-036           Competition Should Be Used for Instructor Services for the Mine Resistant Ambush Protected     02/03/2011
                                        Vehicles
 DoD IG            D-2011-037           Marine Corps Response to Nonlethal Laser Dazzler Urgent Request                                02/09/2011
 DoD IG            D-2011-051           DoD Needs Synchronized Communication Activities and an Integrated Information Operations       03/21/2011
                                        Capability in Afghanistan (Classified)
 DoD IG            D-2011-6-005         External Quality Control Review of the Defense Logistics Agency Audit Organization             03/16/2011
 DoD IG            11-INTEL-01          Inspection of DoD Detainee Transfers and Reliance on Assurances                                12/03/2010
 DoD IG            11-INTEL-03          Assessment of the Defense Intelligence Coordination Center                                     12/06/2010
 DoD IG            11-INTEL-05          Inspection of an Office of the Under Secretary of Defense Program Number 3: Phase Two          02/18/2011
 DoD IG            11-INTEL-06          Assessment of Intelligence Community Whistleblower Protection Act Allegations                  03/07/2011
 DoD IG            SPO-2011-001         Assessment of U.S. Government Efforts to Develop the Logistics Sustainment Capability of the   11/17/2010
                                        Iraq Security Forces
 DoD IG            SPO-2011-003         Assessment of U.S. Government Efforts to Train, Equip and Mentor the Expanded Afghan           03/03/2011
                                        National Police


 88 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                     Date
USAAA       A-2011-0009-IEO      Energy Savings Performance Contracts, U.S. Army Garrison Fort Eustis                             10/20/2010
USAAA       A-2011-0004-IEO      Energy Savings Performance Contracts, U.S. Army Garrison Picatinny Arsenal                       10/15/2010
USAAA       A-2011-0003-IEO      Energy Savings Performance Contracts, U.S. Army Garrison Aberdeen Proving Ground                 10/15/2010
USAAA       A-2011-0085-IEU      Management of Offpost Housing in Romania (FOUO)                                                  03/30/2011
USAAA       A-2011-0047-ALL      Container Management in Iraq, Condition and Contents                                             12/22/2010
USAAA       A-2011-0036-FFP      Contract Administration of Fort Richardson Energy Savings Performance Contract, U.S. Army        01/06/2011
                                 Garrison, Fort Richardson
USAAA       A-2011-0054-ALM      Contracts for Maintenance Support - TACOM life Cycle Management Command, TACOM                   02/01/2011
                                 Contracting Center
USAAA       A-2011-0021-FFS      Critical Dual Use Equipment (FOUO)                                                               11/15/2010
USAAA       A-2011-0075-FFT      Digital Training Management System                                                               03/10/2011
USAAA       A-2011-0039-IEO      Energy Savings and Performance Contracts, Summary Report                                         12/17/2010
USAAA       A-2011-0025-FFP      Equipment Maintenance - Alaska, U.S. Army Garrison Fort Wainwright                               11/30/2010
USAAA       A-2011-0048-ALL      Excalibur Accountability Gap, United States Forces - Iraq (FOUO)                                 12/17/2010
USAAA       A-2011-0032-IEU      Follow-up Audit of Organizational Clothing and Individual Equipment, U.S. Army, Europe and       12/02/2010
                                 Seventh Army
USAAA       A-2011-0035-ALS      Follow-up Audit of Procurement Lead Times--Missiles, U.S. Army Aviation and Missile Life Cycle   12/14/2010
                                 Management Command
USAAA       A-2011-0058-ALM      Follow-up Audit on M88A1 Recovery Vehicle FY 2009 Reset Maintenance Requirements                 02/16/2011

USAAA       A-2011-0071-FFS      Impact of the Grow the Army Initiative on the Table of Distribution and Allowances Workforce     03/10/2011
                                 (FOUO)
USAAA       A-2011-0044-IEO      Installation Facilities and Operations Support, U.S. Army Garrison Fort Meade                    02/08/2011
USAAA       A-2011-0005-FFP      Installation Master Plan: U.S. Army Garrison Humphreys, U.S. Forces Korea and Eighth U.S. Army   11/22/2010
                                 (FOUO)
USAAA       A-2011-0013-FFS      Life-Cycle Management of Logistics Officers                                                      11/09/2010
USAAA       A-2011-0084-IEU      Management of Offpost Housing in Romania (FOUO)                                                  03/28/2011
USAAA       A-2011-0060-ALM      Mi-17 Helicopter Airworthiness and Flight Safety (FOUO)                                          02/11/2011
USAAA       A-2011-0061-ALM      Operational Readiness Floats, Office of the Deputy Chief of Staff, G-4                           03/15/2011
USAAA       A-2011-0063-ALL      Redistribution Property Assistance Teams, United States Forces - Iraq                            02/14/2011
USAAA       A-2011-0015-ALS      Review of Army’s Actions to Close Material Weakness: Logistics Asset Visibility and              10/29/2010
                                 Accountability (FOUO)
USAAA       A-2011-0083-ALM      Time-Sensitive Issue--M113 Family of Vehicles FY 2011 Reset Maintenance Requirements             03/23/2011
                                 (FOUO)
USAAA       A-2011-0033-ALS      Workload Planning on Army’s Transportation Mission (FOUO)                                        12/03/2010
USAAA       A-2011-0042-IEO      Workload Survey of Installation Operations Program                                               12/20/2010
NAVAUDSVC   N2011-0005           Reporting of Marine Corps Equipment Mishaps                                                      11/10/2010
NAVAUDSVC   N2011-0006           Marine Corps Traffic Safety Program at I and II Marine Expeditionary Force and Marine Corps      11/30/2010
                                 Installations East and West
NAVAUDSVC   N2011-0012           Navy’s Traffic Safety Program at Naval District Washington and Commander, Navy Region Mid-       12/22/2010
                                 Atlantic Regions
NAVAUDSVC   N2011-0019           Organizational-Level Maintenance of U.S. Navy Aegis-Equipped Ships                               01/27/2011
NAVAUDSVC   N2011-0021           Marine Corps Equipment Accountability at II Marine Expeditionary Force                           02/16/2011
NAVAUDSVC   N2011-0027           Marine Corps Equipment Accountability at I Marine Expeditionary Force                            03/31/2011
AFAA        F-2011-0001-FC2000   Temporary Modifications                                                                          11/22/2010
AFAA        F-2011-0001-FC4000   Additive Management                                                                              10/29/2010
AFAA        F-2011-0003-FC4000   Management of Vehicle Requirements                                                               01/04/2011
AFAA        F-2011-0005-FC4000   Due-Out Validation                                                                               03/14/2011
AFAA        F-2011-0009-FD1000   Air Force Real Property Outgrants                                                                02/01/2011
AFAA        F-2011-0001-FD3000   Implementing Combat Air Forces Total Force Integration                                           10/21/2010


                                                                                                                 OCTOBER 1, 2010 TO MARCH 31, 2011 89
Appendix A
Agency          Report Number           Report Title                                                                                  Date
AFAA            F-2011-0001-FD4000      Air Force Officer Accessions and Training                                                     12/01/2010
AFAA            F-2011-0003-FD4000      Joint Expeditionary Taskings                                                                  01/27/2011
AFAA            F-2011-0005-FD4000      Post-9/11 GI Bill Transfer Program                                                            02/09/2011


Information Assurance, Security, & Privacy

Agency           Report Number         Report Title                                                                                   Date
DoD IG           D-2011-020            Controls Over Information Placed on Publicly Accessible Web sites Require Better Execution     11/24/2010
USAAA            A-2011-0001-FFD       Antiterrorism Exercises, Office of the Provost Marshal General (FOUO)                          10/13/2010
USAAA            A-2011-0051-FFD       Audit of the Military Working Dog Program                                                      01/04/2011
USAAA            A-2011-0081-ALA       Body Armor Requirements Determination, Office of the Deputy Chief of Staff, G-3/5/7            03/21/2011
USAAA            A-2011-0019-IET       Expeditionary Video Teleconferencing Requirements (FOUO)                                       01/19/2011
USAAA            A-2011-0006-IET       Followup of Information Technology Asset Authorizations for Tactical Units                     11/15/2010
USAAA            A-2011-0016-IET       Global Network Enterprise Construct Aggregation Validation--Contract Review                    11/15/2010
USAAA            A-2011-0053-IET       Global Network Enterprise Construct Aggregation Validation--Personnel, U.S. Army Network       01/13/2011

                                       Enterprise Technology Command/9th Signal Command (Army)

USAAA            A-2011-0045-ZBI       Hazardous Duty Incentive Pay for Demolition Duty, U.S. Army Special Operations Command         12/17/2010
                                       (FOUO)
USAAA            A-2011-0023-FFD       Vulnerability Assessments and Risk Mitigation for Non-U.S. Army Installation Management        11/22/2010
                                       Command within U.S. Army Materiel Command Sites, U.S. Army Materiel Command (FOUO)
NAVAUDSVC        N2011-0017            Navy Reserve Southwest Region Annual Training and Active Duty for Training Orders              01/19/2011
NAVAUDSVC        N2011-0020            Unnecessary Collection of Personally Identifiable Information in the Department of the Navy    01/28/2011
NAVAUDSVC        N2011-0024            Effectiveness of the Department of the Navy’s Denial Process for Interim Security Clearances   03/11/2011
                                       at Selected Activities
AFAA             F-2011-0001-FB2000    LeaveWeb Accounting Conformance                                                                01/04/2011
AFAA             F-2011-0002-FB2000    Enterprise Environmental Safety and Occupational Health - Management Information System        02/15/2011
                                       Application Controls
AFAA             F-2011-0003-FB2000    Next Generation Information Technology Accounting Conformance Requirements - Request           03/08/2011
                                       for Proposal
AFAA             F-2011-0001-FB4000    Voice Over Internet Protocol Implementation                                                    12/20/2010
AFAA             F-2011-0002-FB4000    Information Assurance Workforce Improvement Program                                            01/26/2011
AFAA             F-2011-0002-FC2000    Software Maintenance and Modifications                                                         02/08/2011
AFAA             F-2011-0004-FC4000    Accountability and Control of Communications Security Assets                                   02/28/2011


Acquisition Processes/Contract Management

Agency          Report Number          Report Title                                                                                   Date
DoD IG          D-2011-001             Marine Corps Systems Command’s Use of Undefinitized Contractual Actions                        10/27/2010
DoD IG          D-2011-014             Weaknesses in Awarding Fees for the Broad Area Maritime Surveillance Contract                  11/02/2010
DoD IG          D-2011-018             FY 2008 and FY 2009 DoD Purchases Made Through the General Services Administration             11/30/2010
DoD IG          D-2011-021             More DoD Oversight Needed for Purchases Made Through the Department of Energy                  12/03/2010
DoD IG          D-2011-024             Air Force Space and Missile Systems Center’s Use of Undefinitized Contractual Actions          12/16/2010
DoD IG          D-2011-028             Contract Oversight for the Broad Area Maritime Surveillance Contract Needs Improvement         12/23/2010
DoD IG          D-2011-032             Logistics Civil Augmentation Program Support Contract Needs to Comply With Acquisition         01/07/2011
                                       Rules
DoD IG          D-2011-042             Lean Six Sigma Project – Defense Logistics Agency/Honeywell Long-Term Contract Model           02/18/2011
                                       Using One-Pass Pricing for Sole-Source Spare Parts
DoD IG          D-2011-043             Improvements Needed on the Fleet and Industrial Supply Center, Sigonella, Ship Maintenance     02/22/2011
                                       Contracts in Southwest Asia
DoD IG          D-2011-044             Reimbursable Fees at Four Major Range and Test Facility Bases                                  02/23/2011



90 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title	                                                                                   Date
DoD IG      D-2011-047           Improvements Needed in Contract Administration of the Subsistence Prime Vendor Contract         03/02/2011
                                 for Afghanistan (FOUO)
DoD IG      D-2011-049           Competition Issues and Inherently Governmental Functions Performed by Contractor                03/15/2011
                                 Employees on Contracts to Supply Fuel to U.S. Troops in Iraq (FOUO)
DoD IG      D-2011-6-002         Report on Quality Control Review of the Deloitte & Touche, LLP and Defense Contract Audit       10/29/2010
                                 Agency FY 2008 Single Audit of The Aerospace Corporation
DoD IG      D-2011-6-004         Report on Quality Control Review of the PricewaterhouseCoopers, LLP and Defense Contract        02/28/2011
                                 Audit Agency FY 2008 Single Audit of the Charles Stark Draper Laboratory, Incorporated
DoD IG      D-2011-6-006         Hotline Allegation Regarding the Failure of Defense Contract Management Agency                  03/22/2011
                                 Philadelphia to Settle and Audit of a Significant Cost Accounting Change
DoD IG      11-INTEL-02          Report of the National Security Agency Cryptologic Center Construction Project                  12/03/2010
DoD IG      11-INTEL-04          Audit of the Missile Defense Agency Special Programs Base Realignment and Closure Planning      02/07/2011
USAAA       A-2011-0073-IEU      Agreed-Upon Procedures Attestation of Transportation Tenders at the Frankfurt Gateway           03/10/2011
                                 Reception Center (FOUO)
USAAA       A-2011-0068-ALL	     Agreed-Upon Procedures Attestation to Determine if Payments Were Made to Host Nation            02/25/2011
                                 Trucking Contractors for Potentially Fraudulent or Inaccurate Transportation Movement
                                 Releases, Afghanistan (FOUO)
USAAA       A-2011-0069-ALL      Agreed-Upon Procedures Attestation to Determine the Accuracy of Host Nation Trucking            02/28/2011
                                 Contractor’s Invoices, Afghanistan (FOUO)
USAAA       A-2011-0040-ALA      Army Rapid Acquisition Processes - Capabilities Development for Rapid Transition                12/14/2010
USAAA       A-2011-0067-ALL      Audit of Controls Over Vendor Payments - Afghanistan - Southwest Asia (Phase II)                02/22/2011
USAAA       A-2011-0080-IEO      Audit of the Comprehensive Soldier Fitness Program Contracts	                                   03/17/2011
USAAA       A-2011-0030-ALL      Audit of the Management and Visibility of Government Property Provided to the Contractor        12/01/2010
                                 Performing Base Support Operations in Kuwait
USAAA       A-2011-0027-ALA	     Audit of the Research, Development, Test and Evaluation Cost Estimate for the Ground Combat     11/23/2010
                                 Vehicle (NOTE: The report was accidentally published with A-2011-0127-ALA as the report
                                 number.) (FOUO)
USAAA       A-2011-0017-ALC      Contract Closeout Controls for BRAC-Affected Activities, Fort McPherson, Georgia and Fort       11/10/2010
                                 Monmouth, New Jersey
USAAA       A-2011-0018-ALC      Contract Closeout Controls for BRAC-Affected Activities, Mission and Installation Contracting   11/09/2010
                                 Command Center-Fort Bragg, North Carolina
USAAA       A-2011-0041-ALC      Contract Type Selection	                                                                        12/15/2010
USAAA       A-2011-0050-ALA      Distributed Common Ground System - Army, Office of the Project Manager, Distributed             12/22/2010
                                 Common Ground System - Army (FOUO)
USAAA       A-2011-0002-ALC      Extent of Competition in Army Contracting	                                                      10/12/2010
USAAA       A-2011-0010-ALL      Fuel Farm operations, Camp Buehring, Kuwait (FOUO)	                                             11/16/2010
USAAA       A-2011-0031-ALA      Managing Acquisition-Related Modeling and Simulation Capabilities, Office of the Deputy         12/01/2010
                                 Chief of Staff, G-8
USAAA       A-2011-0043-ALC      Reasonableness of Contract Prices, U.S. Military Academy and Fort Benning	                      12/15/2010
USAAA       A-2011-0022-FFT      Selected Contracts Supporting the Army’s Flight School XXI Training Program                     11/15/2010
USAAA       A-2011-0074-IEU      Structure of Planned Base Maintenance Contracts in Germany, U.S. Army Installation              03/14/2011
                                 Management Command, Europe Region (FOUO)
USAAA       A-2011-0024-FFP      Time-Sensitive Report, Audit of Contracting Incentives, U.S. Army, Pacific	                     12/16/2010
NAVAUDSVC   N2011-0002           Open Market Corridor Procurements	                                                              10/08/2010
NAVAUDSVC   N2011-0007           Introductory Flight Screening Program	                                                          12/03/2010
NAVAUDSVC   N2011-0009           Naval Sea Systems Command General Fund Military Interdepartmental Purchase Requests             12/16/2010
NAVAUDSVC   N2011-0011           Reporting of Sponsor-Owned Material and Government-Owned Material	                              12/22/2010
AFAA        F-2011-0001-FC1000   Advisory and Assistance Services Contracts	                                                     11/30/2010
AFAA        F-2011-0002-FC1000   Procurement Accountability Processes	                                                           01/18/2011
AFAA        F-2011-0003-FC1000   Air Force Small Business Program Execution at Installations	                                    03/08/2011
AFAA        F-2011-0001-FC3000   Reaper MQ-9 Acquisition Management	                                                             11/02/2010


                                                                                                                  OCTOBER 1, 2010 TO MARCH 31, 2011 91
Appendix A
Agency          Report Number          Report Title                                                                                 Date
AFAA            F-2011-0002-FC3000     Combat Survivor Evader Locator Program Management                                            12/07/2010
AFAA            F-2011-0003-FC3000     Interim Report of Audit, Acquisition Improvement Plan Implementation, Initiative 4           03/07/2011
AFAA            F-2011-0004-FC3000     Interim Report of Audit, Acquisition Improvement Plan Implementation, Initiative 5           03/08/2011
AFAA            F-2011-0005-           Environmental Restoration Task Order Management                                              01/03/2011
                FD1000
AFAA            F-2011-0011-           Green Procurement Program: Contract Purchases                                                03/02/2011
                FD1000
AFAA            F-2011-0012-           Iraq Reconstruction Task Order Management                                                    03/14/2011
                FD1000
AFAA            F-2011-0004-           Air Force In-Sourcing Program                                                                02/02/2011
                FD4000


Financial Management

Agency          Report Number          Report Title                                                                                 Date
DoD IG          D-2011-002             Independent Auditor’s Report on the National Security Agency FY 2010 and FY 2009 Basic       11/02/2010
                                       Financial Statements
DoD IG          D-2011-003             Independent Auditor’s Report on the Army General Fund FY 2010 and FY 2009 Basic Financial    11/09/2010
                                       Statements
DoD IG          D-2011-004             Independent Auditor’s Report on the Department of the Army Working Capital Fund FY 2010      11/09/2010
                                       and FY 2009 Basic Financial Statements
DoD IG          D-2011-005             Independent Auditor’s Report on the Department of the Navy General Fund FY 2010 and FY       11/09/2010
                                       2009 Basic Financial Statements
DoD IG          D-2011-006             Independent Auditor’s Report on the Department of the Navy Working Capital Fund FY 2010      11/09/2010
                                       and FY 2009 Basic Financial Statements
DoD IG          D-2011-007             Independent Auditor’s Report on Air Force General Fund FY 2010 and FY 2009 Basic Financial   11/09/2010
                                       Statements
DoD IG          D-2011-008             Independent Auditor’s Report on Air Force Working Capital Fund FY 2010 and FY 2009 Basic     11/09/2010
                                       Financial Statements
DoD IG          D-2011-009             Independent Auditor’s Report on the United States Marine Corps General Fund FY 2010 and      11/08/2010
                                       FY 2009 Combined Statement of Budgetary Resources
DoD IG          D-2011-010             Endorsement of the Unqualified Opinion on the FY 2010 DoD Military Retirement Fund Basic     11/09/2010
                                       Financial Statements
DoD IG          D-2011-011             Independent Auditor’s Report on the DoD Agency-Wide FY 2010 and FY 2009 Basic Financial      11/11/2010
                                       Statements
DoD IG          D-2011-012             Independent Auditor’s Report on the U.S. Army Corps of Engineers, Civil Works, FY 2010 and   11/15/2010
                                       FY 2009 Basic Financial Statements
DoD IG          D-2011-013             Independent Auditor’s Report on the Department of Defense Special-Purpose Financial          11/15/2010

                                       Statements for Fiscal Years Ending September 30, 2010 and 2009

DoD IG          D-2011-015             Insufficient Governance Over Logistics Modernization Program System Development              11/02/2010
DoD IG          D-2011-016             Endorsement of the Disclaimer of Opinion on the DoD Medicare-Eligible Retiree Health Care    11/09/2010
                                       Fund FY 2010 Basic Financial Statements
DoD IG          D-2011-017             Endorsement of the Disclaimer of Opinion on the TRICARE Management Activity’s Contract       11/09/2010
                                       Resource Management FY 2010 Basic Financial Statements
DoD IG          D-2011-022             Improving the Accuracy of Defense Finance and Accounting Service Columbus 741 and 743        12/10/2010
                                       Accounts Payable Reports
DoD IG          D-2011-034             U.S. Central Command Headquarters’ Use of the Government Purchase Card                       01/25/2011
DoD IG          D-2011-035             Independent Auditor’s Report on the DoD FY 2010 Detailed Accounting Report of the Funds      01/31/2011
                                       Obligated for National Drug Control Program Activities
DoD IG          D-2011-050             DoD Needs to Improve High Dollar Overpayment Review and Reporting                            03/16/2011
DoD IG          11-INTEL-07            Audit of a Classified Program                                                                03/04/2011
USAAA           A-2011-0062-FFM        Agreed-Upon Procedures Attestation, Investigative Support to the California Army National    02/28/2011
                                       Guard Incentive Payments Case (FOUO)


92 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                       Date
USAAA       A-2011-0078-FFM      Arlington National Cemetery Budget Execution                                                       03/23/2011
USAAA       A-2011-0059-FFM      Army CONUS Cash and Other Monetary Assets, Deputy Assistant Secretary of the Army                  02/09/2011
                                 (Financial Operations)
USAAA       A-2011-0052-IEM      Attestation Examination of External Audit Services: Armed Forces Recreation Center Funds           01/04/2011
                                 Group, U.S. Army Family and Morale, Welfare and Recreation Command
USAAA       A-2011-0020-ALL      Commander’s Emergency Response Program, U.S. Forces - Afghanistan (FOUO)                           11/16/2010
USAAA       A-2011-0007-FFM      Examination of Army Working Capital Fund Inventory Valuation, U.S. Army Aviation and Missile       10/20/2010
                                 Life Cycle Management Command
USAAA       A-2011-0012-FFR      Examination of Federal Financial Management Improvement Act of 1996 Compliance--                   10/29/2010
                                 Business Processes, Global Combat Support System-Army Release 1.1
USAAA       A-2011-0028-IEM      FY 2008 Funding Execution for Army Family Programs, Office of the Assistant Chief of Staff for     11/26/2010
                                 Installation Management
USAAA       A-2011-0011-FFR      Independent Auditor’s Report, American Red Cross FY 10 Financial Statements                        10/26/2010
USAAA       A-2011-0026-FFM      Memorandum Report on the Inventory of Military Interdepartmental Purchase Requests, Audit          12/07/2010
                                 of Arlington National Cemetery Budget Execution
USAAA       A-2011-0086-FFM      Other Revenue, Arlington National Cemetery                                                         03/31/2011
USAAA       A-2011-0029-IEU      Severity Allowance Compensation for Local National Employees in Germany, U.S. Army                 12/02/2010
                                 Installation Management Command, Europe Region
USAAA       A-2011-0079-IEU      Support for AFRICOM FLINTLOCK 10                                                                   03/16/2011
USAAA       A-2011-0064-FFR      The Army Managers’ Internal Control Program for FY 10, Office of the Assistant Secretary of the    02/22/2011
                                 Army for Acquisition, Logistics and Technology
USAAA       A-2011-0038-FFR      The Army Managers’ Internal Control Program for FY 10, U.S. Army Training and Doctrine             12/22/2010
                                 Command
NAVAUDSVC   N2011-0001           Navy Enterprise Resource Program – Purchase Card Capabilities                                      10/01/2010
NAVAUDSVC   N2011-0003           Reimbursable Funding Process for Navy Medical Research and Development Activities                  10/21/2010
NAVAUDSVC   N2011-0004           Management of Navy Unit Identification Codes                                                       10/22/2010
NAVAUDSVC   N2011-0015           Government Commercial Purchase Card Transactions at Naval District Washington                      01/14/2011
NAVAUDSVC   N2011-0018           Internal Controls Over Naval Base Coronado, CA Galleys                                             01/24/2011
NAVAUDSVC   N2011-0022           Wide Area Work Flow Implementation in the Navy                                                     02/28/2011
AFAA        F-2011-0001-FB1000   Headquarters Air Force Resource Management Miscellaneous Obligation/Reimbursement                  01/18/2011
                                 Documents
AFAA        F-2011-0002-FB1000   Miscellaneous Obligation Reimbursement Document Management                                         03/01/2011
AFAA        F-2011-0001-FB3000   Follow-up Audit, Military Equipment Baseline - Electronic Pods                                     10/18/2010
AFAA        F-2011-0002-FB3000   General Fund Reimbursements                                                                        10/21/2010
AFAA        F-2011-0003-FB3000   Materials and Supplies - Aircraft Engines and Missile Motors                                       11/02/2010
AFAA        F-2011-0004-FB3000   Internal Controls Over Financial Reporting                                                         11/15/2010
AFAA        F-2011-0001-         Fiscal Year 2010 Utilities Privatization Economic Analysis                                         10/25/2010
            FD1000
AFAA        F-2011-0002-         Interim Report of Audit, McGhee-Tyson ANG TN Electric Utilities Privatization Economic             11/23/2010
            FD1000               Analyses
AFAA        F-2011-0007-         Privatized Housing Fire and Police Service                                                         01/24/2011
            FD1000
AFAA        F-2011-0008-         Dormitory and Family Housing Furnishings Management                                                01/26/2011
            FD1000
AFAA        F-2011-0002-         Military Housing Allowance                                                                         01/19/2011
            FD4000


Health and Safety

Agency       Report Number        Report Title                                                                                     Date
DoD IG       D-2011-019           Live Fire Testing of Light Tactical Wheeled Vehicles was Effective for the Portions Completed    11/24/2010



                                                                                                                  OCTOBER 1, 2010 TO MARCH 31, 2011 93
Appendix A


Agency            Report Number         Report Title	                                                                               Date
DoD IG            D-2011-030            Ballistic Testing and Product Quality Surveillance for the Interceptor Body Armor - Vest    01/03/2011
                                        Components Need Improvement
DoD IG            SPO-2011-004          Assessment of DoD Wounded Warrior Matters - Ft Sam Houston	                                 03/17/2011
DoD IG            SPO-2011-005          Assessment of Allegations Concerning Traumatic Brain Injury Research Integrity in Iraq      03/31/2011
DoD IG            SPO-2011-002          Evaluation of DoD Contracts Regarding Combating Trafficking in Persons: U.S. Central        01/18/2011
                                        Command
USAAA             A-2011-0008-IEM       Army Warrior Care and Transition Program	                                                   10/21/2010
USAAA             A-2011-0066-IEM       Followup Audit of Acquisitions Made Using Military Interdepartmental Purchase Requests      02/25/2011
                                        U.S. Army Medical Command
USAAA             A-2011-0088-IEO       Time-Sensitive Report for the Audit of the Army Traffic Safety Training Program             03/31/2011
NAVAUDSVC         N2011-0010            Post-Deployment Health Reassessment at the Marine Corps: Fiscal Years 2008 and 2009         12/17/2010
                                        Data Analysis, and Future Monitoring Recommendations
NAVAUDSVC         N2011-0013            Marine Corps Exceptional Family Member Program	                                             01/14/2011
NAVAUDSVC         N2011-0016            Management and Implementation of the Marine Corps Hearing Conservation Program              01/14/2011
AFAA              F-2011-0001-FD2000 Medical Case Management	                                                                       11/03/2010
AFAA              F-2011-0002-FD2000 Disability Evaluation System Internal Controls	                                                12/03/2010
AFAA              F-2011-0003-          Air Force Central Area of Responsibility Patient Safety Program                             01/28/2011
                  FD2000
AFAA              F-2011-0004-          Medical Equipment Orders and Funding                                                        02/09/2011
                  FD2000


American Recovery and Reinvestment Act

Agency            Report Number          Report Title	                                                                              Date
DoD IG            D-2011-RAM-001         American Recovery and Reinvestment Act of 2009−Constructing a Child Development            11/04/2010
                                         Center and Repairing Building 422 – Fort Hood, Texas
DoD IG            D-2011-RAM-002         American Recovery and Reinvestment Act of 2009 Funds Properly Used to Repair the C-5       11/09/2010
                                         Aircraft Ramp and Perimeter Drainage at Westover Air Reserve Base, Massachusetts
DoD IG            D-2011-RAM-003         American Recovery and Reinvestment Act—Modernization of Third Floor Utilities—Center 11/22/2010
                                         for Health Promotion and Preventative Medicine, Aberdeen Proving Ground, Maryland
DoD IG            D-2011-RAM-004         American Recovery and Reinvestment Act Projects—Georgia Army National Guard                11/29/2010
DoD IG            D-2011-RAM-005         American Recovery and Reinvestment Act Projects—Family Housing Renovations at Fort         11/29/2010
                                         Myer Military Community
DoD IG            D-2011-RAM-006	        American Recovery and Reinvestment Act Projects to Replace the Fort Buchanan               11/29/2010
                                         Substation and Repair the Roof and Exterior at the Army Reserve Center Aguadilla, Puerto
                                         Rico
DoD IG            D-2011-RAM-007         Recovery Act Hospital Alteration at Naval Air Station Jacksonville	                        12/07/2010
DoD IG            D-2011-RAM-008         American Recovery and Reinvestment Act-Execution of Aberdeen Proving Ground                12/07/2010
                                         Projects to Replace Boilers and Repair Interior
DoD IG            D-2011-023             American Recovery and Reinvestment Act Project to Construct a Child Development            12/13/2010
                                         Center at Fort Belvoir, Virginia
DoD IG            D-2011-025             Dugway Proving Ground, Utah-American Recovery and Reinvestment Act Project to              12/20/2010
                                         Repair Power Plant and Replace Failed Generators
DoD IG            D-2011-026             American Recovery and Reinvestment Act Project to Design and Construct a Child             12/21/2010
                                         Development Center at Fort Carson, Colorado
DoD IG            D-2011-027             American Recovery and Reinvestment Act Projects to Renovate Barracks Buildings 816,        12/21/2010
                                         817, 818, and 1028 at Fort Leonard Wood, Missouri
DoD IG            D-2011-029             Projects to Replace Pumping Station and Repair Landscape at Ellsworth Air Force Base,      12/22/2010
                                         South Dakota Generally Complied with the American Recovery and Reinvestment Act
DoD IG            D-2011-031             Upgrade/Renovate Clinic Project at Ellsworth Air Force Base, South Dakota Generally        01/06/2011
                                         Complied with the American Recovery and Reinvestment Act


94 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title	                                                                             Date
DoD IG      D-2011-038           American Recovery and Reinvestment Act Project to Design and Build a Child                02/08/2011
                                 Development Center at Hill Air Force Base, Utah
DoD IG      D-2011-039           American Recovery and Reinvestment Act Projects at the California Army National Guard     03/11/2011
                                 and the Wisconsin Army National Guard
DoD IG      D-2011-040           Defense-Wide Research and Development Near Term Energy-Efficient Technologies             02/18/2011
                                 Projects
DoD IG      D-2011-041           American Recovery and Reinvestment Act of 2009 Funds Used to Repair and Renovate          02/18/2011
                                 Building 216 at Fort Riley, Kansas
DoD IG      D-2011-045           American Recovery and Reinvestment Act Project – Solar and Lighting at Naval Station      02/25/2011
                                 Norfolk, Virginia
DoD IG      D-2011-046           Improving Planning for Military Construction of Army Child Development Centers            03/01/2011
DoD IG      D-2011-048           American Recovery and Reinvestment Act Projects-“Facility Energy Improvements” and        03/07/2011
                                 “Wind Turbine and Photovoltaic Panels” at Fort Wainwright, Alaska
DoD IG      D-2011-052           American Recovery and Reinvestment Act-DoD Data Quality Review Processes for the          03/23/2011
                                 Period Ending December 31, 2009, Were Not Fully Implemented
DoD IG      D-2011-053           American Recovery and Reinvestment Act Projects—Air Force Research Laboratory             03/24/2011
                                 Projects Need Improvement
DoD IG      D-2011-054           U.S. Army Corps of Engineers, Civil Works, Vicksburg, Generally Met the Recovery Act      03/23/2011
                                 Requirements
DoD IG      D-2011-055	          American Recovery and Reinvestment Act-U.S. Army Corps of Engineers’ Data Quality         03/25/2011
                                 Review Processes of Civil Works Funding for the Period Ending December 31, 2009, Were
                                 Not Effective
DoD IG      D-2011-057           American Recovery and Reinvestment Act Project – Repair and Modernization of Training     03/31/2011
                                 Center in Anchorage, Alaska, Generally Met Recovery Act Goals
USAAA       A-2011-0057-IEE      American Recovery and Reinvestment Act of 2009, Joint Base Langley-Eustis                 02/03/2011
USAAA       A-2011-0034-IEE      American Recovery and Reinvestment Act of 2009, Oregon Army National Guard                12/13/2010
USAAA       A-2011-0055-IEE      American Recovery and Reinvestment Act of 2009, U.S. Army Corps of Engineers Kansas       01/13/2011
                                 City District
USAAA       A-2011-0014-IEE      American Recovery and Reinvestment Act of 2009, U.S. Army Corps of Engineers St. Louis    11/01/2010
                                 District
USAAA       A-2011-0046-IEE      American Recovery and Reinvestment Act of 2009, U.S. Army Corps of Engineers,             12/22/2010
                                 Pittsburgh District
USAAA       A-2011-0070-IEE      American Recovery and Reinvestment Act of 2009, Pennsylvania Army National Guard          03/25/2011
AFAA        F-2011-0003-FD1000   American Recovery and Reinvestment Act of 2009 Project Execution - Facilities             12/02/2010
                                 Sustainment, Restoration, and Modernization
AFAA        F-2011-0004-FD1000   American Recovery and Reinvestment Act of 2009, Naval Facilities Engineering Command      12/27/2010
                                 Southeast, Military Construction Part 2
AFAA        F-2011-0006-FD1000   American Recovery and Reinvestment Act of 2009, Air National Guard, Military              01/12/2011
                                 Construction Part 2
AFAA        F-2011-0010-FD1000   American Recovery and Reinvestment Act of 2009, U.S. Army Corps of Engineers, Military    02/08/2011
                                 Construction Part 2


Nuclear Enterprise

Agency      Report Number        Report Title	                                                                             Date
AFAA        F-2011-0003-FB1000   Nuclear Demilitarization Program Funds	                                                   03/01/2011
AFAA        F-2011-0002-FC4000   Nuclear Weapons Related Materiel Inventories	                                             11/03/2010
AFAA        F-2011-0002-FD3000   Air Force Management of Nuclear Expertise	                                                01/19/2011




                                                                                                              OCTOBER 1, 2010 TO MARCH 31, 2011 95
Appendix A


Other

 Agency          Report Number          Report Title                                                                              Date
 DoD IG          D-2011-6-001           Hotline Allegations Involving Management Harassment of a Complainant in the Defense       10/29/2010
                                        Contract Audit Agency Western Region
 DoD IG          D-2011-6-003           Hotline Complaint Regarding Allegations of Abusive Behavior by a Supervisor in the        02/10/2011
                                        Defense Contract Audit Agency Northeastern Region
 DoD IG          IPO2010E002            Review of Matters Related to the Death of Hospitalman Christopher Purcell, U.S. Navy      10/27/2010
 DoD IG          IPO2010E003            Evaluation of Post-Trial Reviews of Courts-Martial within the Department of the Navy      12/10/2010
 DoD IG          SPO-2011-005           Evaluation of the DoD Federal Voting Assistance Program                                   03/22/2011
 NAVAUDSVC       N2011-0008             Selected Department of the Navy Military Construction Projects Proposed for Fiscal Year   12/14/2010
                                        2012
 NAVAUDSVC       N2011-0014             Department of the Navy Proposed Fiscal Year 2012 Military Construction Projects Related   01/14/2011
                                        to the Relocation of U.S. Marine Corps Forces from Okinawa to Guam
 NAVAUDSVC       N2011-0023             Internal Controls Over Department of the Navy Energy Funding and Financing Tools          03/04/2011
 NAVAUDSVC       N2011-0025             Navy/Marine Corps Intranet Internal Controls Over Computers During Turn-In Process        03/18/2011
 NAVAUDSVC       N2011-0026             Navy Fuel Storage Facilities and Farms – Southwest Region                                 03/25/2011
 NAVAUDSVC       N2011-0028             Followup of Management of Privacy Act at the Navy Recruiting Command                      03/31/2011



▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6).




 96 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                            Appendix B


                                                          Reports Containing Potential 

                                                                   Monetary Benefits
                                                                                                      Potential Monetary Benefits
                                                                                                                     Funds Put to Better
                                Reports Issued                                                    Disallowed Costs
                                                                                                                            Use
  D-2011-RAM-003 American Recovery and Reinvestment Act-Modernization of
  Third Floor Utilities-Center for Health Promotion and Preventative Medicine,    11/22/2010            N/A              $15,700,000
  Aberdeen Proving Ground, Maryland

  D-2011-036 Competition Should Be Used for Instructor Services for the Mine
                                                                                  02/03/2011            N/A              $23,000,000
  Resistant Ambush Protected Vehicles
  D-2011-042 Lean Six Sigma Project - Defense Logistics Agency/Honeywell Long-
                                                                                  02/18/2011            N/A              $22,226,317
  Term Contract Model Using One-Pass Pricing for Sole-Source Spare Parts
  D-2011-047 Improvements Needed in Contract Administration of the
                                                                                  03/02/2011            N/A             $124,300,000
  Subsistence Prime Vendor Contract for Afghanistan
  D-2011-048 American Recovery & Reinvestment Act Projects- "Facility Energy
  Improvements" and "Wind Turbine & Photovoltaic Panels" at Fort Wainwright,      03/07/2011            N/A               $1,500,000
  Alaska
  D-2011-6-006 Hotline Allegation Regarding the Failure of Defense Contract
  Management Agency Philadelphia to Settle an Audit of a Significant Cost         03/22/2011            N/A               $6,400,000
  Accounting Change


  Total                                                                                                                 $193,126,317

▶ Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6) (See Appendix
A).




                                                                                                     OCTOBER 1, 2010 TO MARCH 31, 2011 97
Appendix C




Follow-up Activities
Decision status of DoD IG issued audit reports and dollar value of recommendations that funds be put to better use.

                                                                                                                 Funds Put
                                        Status                                        Number                  To Better Use 1
                                                                                                             ($ in thousands)
  A.    For which no management decision had been made by the
        beginning of the reporting period.                                              352                     $96,057
  B.    Which were issued during the reporting period.                                  77                      186,726
        Subtotals (A+B)                                                                 112                     282,783
                                                                                                                133,886

  C.   For which a management decision was made during the reporting period.
       (i) dollar value of recommendations that were agreed to by management.
            - based on proposed management action
            - based on proposed legislative action
       (ii) dollar value of recommendations that were not agreed to by
            management.
                                                                                        87                     133,8863

  D.   For which no management decision has been made by the
       end of the reporting period.                                                     25                     $148,897
        Reports for which no management decision was made within six months of
        issue (as of March 31, 2011).                                                    14                       97

1.	 DoD IG issued no audit reports during the period involving “questioned costs.”
2.	 Adjusted to include inspection and evaluation reports.
3.	 On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary benefits
    cannot be determined until those actions are completed.
4.	 DoD IG Report No. D-2010-083, “Construction of New Kabul Compound Lacked Planning and Coordination,” September 30,
    2010, had no decision as of March 31, 2011, but action to achieve a decision is in process.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(8),(9), & (10).




 98 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                    Follow-up Activities
Status of action on central internal audits period ending March 31, 2011


                                                                                                                 Funds Put to Better Use 1
                                          Status                                              Number                ($ in thousands)


  DoD IG
    Action in Progress - Beginning of Period                                                    1052                      $43,036

    Action Initiated - During Period                                                             87                       133,886

    Action Completed - During Period                                                             89                       571,9053

    Action in Progress - End of Period                                                           103                       43,0364

  Military Departments
    Action in Progress - Beginning of Period                                                     593                     5,119,253

    Action Initiated - During Period                                                             157                     2,099,515

    Action Completed - During Period                                                             241                      397,428

    Action in Progress - End of Period                                                           509                     4,432,713

1.	 There were DoD IG audit reports opened for followup during the period involving “questioned costs” of $29.6 million.
2.	 Adjusted to include inspection and evaluation reports.
3.	 Included are recouped “questioned costs” of $1.9 million. In addition, $640 million of funds put to better use from earlier years
    were reported during the current period.
4.	 On certain reports (primarily from prior periods) with audit estimated monetary benefits of $1,009 million, we agreed that the
    resulting monetary benefits can only be estimated after completion of management action, which is ongoing.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(2) & (3).




                                                                                                       OCTOBER 1, 2010 TO MARCH 31, 2011 99
Appendix D




Contract Audit Reports Issued1

                                                                          Dollars
                                                                        Examined              Questioned
  Type of audit2                                 Reports Issued       ($ in millions)           Costs3            Funds Put to Better Use

  Incurred Costs, Ops Audits, Special Audits          1,974             $12,900.2               $633.4                     $7.044

  Forward Pricing Proposals                           1,456             $52,202.3                  ---                   $4,532.75

  Cost Accounting Standards                            372                $102.4                  $8.8                       --­

  Defective Pricing                                    19                (Note 6)                 $4.6                       --­

  Totals                                              3,821             $65,204.9               $646.8                    $4,539.7

1. This schedule represents Defense Contract Audit Agency contract audit reports issued during the six months ended March 31, 2011.
     This schedule includes any audits that DCAA performed on a reimbursable basis for other government agencies and the associated
     statistics may also be reported in other DoD IG Semiannual Reports to Congress. Both “Questioned Costs” and “Funds Put to Better
     Use” represent potential cost savings. Because of limited time between availability of management information system data and legis­
     lative reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of reported data. Accordingly, submit­
     ted data is subject to change based on subsequent DCAA authentication. In prior semiannual reporting periods, DCAA reported the
     total number of assignments completed. The total number of assignments completed during the six months ended March 31, 2011
     was 5,767. Some completed assignments do not result in a report issued because they are part of a larger audit or because the scope of
     the work performed does not constitute an audit or attestation engagement under generally accepted government auditing standards,
     so the number of audit reports issued is less than the total number of assignments completed.
2. 	This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
     Incurred Costs – Audits of direct and indirect costs charged to government contracts to determine that the costs are reasonable, al­
     locable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation Supplement, and
     provisions of the contract. Also included under incurred cost audits are Operations Audits, which evaluate a contractor’s operations
     and management practices to identify opportunities for increased efficiency and economy; and Special Audits, which include audits
     of terminations and claims.
     Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders, costs for
     redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
     Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed practices, failure
     to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS regulation.
     Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing data (the
     Truth in Negotiations Act).
3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws, and/or contrac­
     tual terms.
4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds could be used
     more effectively if management took action to implement cost reduction recommendations.
5. Represents potential cost reductions that may be realized during contract negotiations.
6. Defective pricing dollars examined are not reported because the original value was included in the audits associated with the original
     forward pricing proposals.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 8(f)(1).




100 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                   Appendix E




                                                                        Status of Action on Post-
                                                                        Award Contracts1
                                                                                       Costs Questioned
                                                         Number of Reports               ($ in millions)              Disallowed Costs6
      Open Reports:
       Within Guidelines2                                        339                        $672.5                           N/A7
        Overage, greater than 6 months3                          570                        $981.3                           N/A
        Overage, greater than 12 months   4
                                                                  454                      $1,284.0                          N/A
        In Litigation   5
                                                                 173                       $2,315.7                          N/A
      Total Open Reports                                        1,536                      $5,253.5                          N/A
      Closed Reports                                             370                        $461.6                     $246.7 (53.4%)8
      All Reports                                               1,906                      $5,715.1                     $246.7 (4.3%)

1.	       This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable ad­
         justments, accounting and related internal control systems, and noncompliances with the Cost Accounting Standards as reported
         by the Army, Navy, Air Force, Defense Contract Management Agency, Defense Intelligence Agency, Defense Logistics Agency,
         National Geospatial-Intelligence Agency, National Security Agency and TRICARE Management Activity. The status of action on
         significant post-award contract audits is reported in accordance with DoD Instruction 7640.02, “Policy for Follow-up on Contract
         Audit Reports”. Because of limited time between availability of the data and reporting requirements, there is minimal opportunity
         to verify the accuracy of the reported data.
2.	      These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Instruction 7640.02 as
         described in footnotes 3 and 4 below.
3.	      OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is resolved
         when the contracting officer determines a course of action which is documented and approved in accordance with agency policy.
4.	      DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Generally,
         disposition is achieved when the contractor implements audit recommendations, the contracting officer negotiates a settlement
         with the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.
5.	      Of the 173 reports in litigation, 56 are under criminal investigation.
6.	      Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
7.	      N/A (not applicable)
8.	      Contracting officers disallowed $246.7 million (53.4 percent) of the $461.6 million questioned as a result of significant post-award
         contract audits during the period. The contracting officer disallowance rate of 53.4 percent represents an increase from the disal­
         lowance rate of 46.9 percent for the prior reporting period.

▶ Fulfills requirement of DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports,” Enclosure 2, Section (1)(d).




                                                                                                           OCTOBER 1, 2010 TO MARCH 31, 2011 101
Appendix F




Status of Reports with
Action Pending
Report: D-2002-010, Armed Services Blood Program Defense Blood 
              Report: D-2007-043, Controls Over the Army, Navy, and Air Force
Standard System, 10/22/2001
                                                  Purchase Card Programs, 01/10/2007
Description of Action: Commercial-Off-The-Shelf solution to correct 
         Description of Action: The Air Force will revise purchase card guid­
the inventory counting and interface problems has been selected. 
            ance and improve efforts to disseminate and implement guidance.
Efforts continue to award contract for development/implementation/
           Reason Action Not Completed: Continuous coordination delays
deployment of Enterprise Blood Management System. 
                           resulting in extensive time taken to issue policy guidance.
Reason Action Not Completed: Extensive time needed to develop 
               Principal Action Office: AF
and award contract.

Principal Action Office: AF, ASD(HA)
                                         Report: D-2008-002, DoD Salary Offset Program, 10/09/2007
                                                                              Description of Action: Make modifications to existing systems to
Report: D-2005-054, Audit of the DoD Information Technology Secu­             properly compute salary offsets for military members, retirees, and
rity Certification and Accreditation Process, 04/28/2005 
                    annuitants.
Description of Action: Report is FOUO.
                                       Reason Action Not Completed: Extensive time required to make
Reason Action Not Completed: Actions have been ongoing since 
                modifications to existing systems.
July 2005. ASD (NII) is still working to revise guidance, but anticipates 
   Principal Action Office: DFAS
completion in 2nd Quarter FY 2012.

Principal Action Office: ASD(NII)
                                            Report: D-2008-045, Controls Over the TRICARE Overseas Healthcare
                                                                              Program, 02/07/2008
Report: D-2006-043, Financial Management: Report on Army Manage­              Description of Action: ASD (HA) is implementing recommendations
ment of the Army Game Project Funding, 01/06/2006
                            to further control health care costs provided to overseas DoD benefi­
Description of Action: Establish procedures to ensure the appropri­           ciaries.
ate funding of the Army Game Project, determine if there have been 
          Reason Action Not Completed: Delays in coordinating and issuing
any Antideficiency Act violations and report any such violations, as 
        reimbursement policy.
required.
                                                                    Principal Action Office: ASD(HA)
Reason Action Not Completed: The formal investigation was com­
pleted and submitted to the Office of the Secretary of Defense for an 
       Report: D-2008-066, FY 2006 and FY 2007 DoD Purchases Made
advance decision.
                                                            Through the Department of the Interior, 03/19/2008
Principal Action Office: Army
                                                Description of Action: Publish guidance to address deficiencies in
                                                                              interagency acquisitions.
Report: D-2006-077, DoD Security Clearance Process at Requesting 
            Reason Action Not Completed: The Army is not expected to publish
Activities, 04/19/2006
                                                       a guidance addressing problems identified in FYs 2006 and 2007 inter­
Description of Action: Updating policies for the DoD Personnel 
              agency acquisitions until September 2011.
Security Clearance Program to include various information includ­             Principal Action Office: Army
ing program management and investigative responsibilities, security 

clearance systems, submission processes, types and levels of security 
       Report: D-2008-079, Management of Incremental Funds on Air Force
clearances, and training requirements for security personnel.
                Research, Development, Test, and Evaluation Contracts, 0 4/08/2008
Reason Action Not Completed: Despite repeat recommendations to 
              Description of Action: Conduct preliminary Antideficiency Act
revise personnel security program guidance, the current guidance is 
         investigations and clarify the use of Research, Development, Test, and
dated January 1987. Delays continue for revision and coordination of 
        Evaluation funds.
DoD Instruction 5200.2 and DoD Manual 5200.2. Critical and signifi­           Reason Action Not Completed: Management has not responded to a
cant comments to Army guidance are being adjudicated. Air Force has 
         request for current status of the last of four preliminary Antideficiency
not responded to a request for current status of agreed-upon imple­           Act cases.
menting action.
                                                              Principal Action Office: AF
Principal Action Office: USD(I), ARMY, AF





102 SEMIANNUAL REPORT TO THE CONGRESS
Report: D-2008-082, Summary Report on Potential Antideficiency Act      Report: D-2009-028, Organizational Structure and Managers Internal
Violations Resulting From DoD Purchases Made Through Non-DoD            Control Program for the Assistant Secretary of Defense and American
Agencies (FY 2004 Through FY 2007), 04/25/2008                          Forces Information Service, 12/10/2008
Description of Action: Determine why DoD components did not             Description of Action: Expedite the selection of the Defense Media
complete formal investigations into potential Antideficiency Act        Agency key managers; implement a Defense Media Agency-wide
violations within the required timeframes and monitor completion of     personal property program; investigate potential misuse of funds,
investigations.                                                         improper contracting, and statutory violations.
Reason Action Not Completed: The Air Force needs to complete a          Reason Action Not Completed: The formal Antideficiency Act Viola­
third formal investigation.                                             tion Investigation, case number WHS W-03, is ongoing. One senior
Principal Action Office: USD(C)                                         management position has yet to be filled.
                                                                        Principal Action Office: ASD(PA), WHS
Report: D-2008-089, Planning Armor Requirements for the Family of
Medium Tactical Vehicles (FMTV), 05/09/2008                             Report: D-2009-030, Marine Corps Implementation of the Urgent Uni­
Description of Action: Update the capabilities documents for the        versal Needs Process for Mine Resistance Ambush Protected Vehicles,
FMTV to include armor kit requirements. Once these requirements are     12/05/2008
approved, document plans for issuance of the armor kits.                Description of Action: Report is FOUO.
Reason Action Not Completed: Although action was initiated in late      Reason Action Not Completed: Joint Staff has not responded to a re­
2008, Army has yet to establish validated armor kit requirements for    quest for current status of agreed-upon implementing action. Marine
the FMTV.                                                               Corps action is on hold pending completion of Joint Staff corrective
Principal Action Office: Army                                           action.
                                                                        Principal Action Office: JCS, USMC
Report: D-2008-090, Controls Over Reconciling Army Working Capital
Fund Inventory Records, 05/13/2008                                      Report: D-2009-032, Audit of the Formation and Operation of the
Description of Action: The Army is working to update its regulations,   America Supports You Program, 12/12/2008
policies, and procedures for performing the annual and end-of-day       Description of Action: Take appropriate actions to prevent unauthor­
inventory reconciliations.                                              ized use of the DoD trademarked America Supports You Program
Reason Action Not Completed: The Army has coordinated the revi­         name and logo.
sion of policy and guidance, which is in the process of being pub­      Reason Action Not Completed: Management has not responded to a
lished.                                                                 request for current status of the ASD(PA) implementation of a July 12,
Principal Action Office: Army                                           2010 OSD General Counsel opinion.
                                                                        Principal Action Office: ASD(PA)
Report: D-2008-118, Host Nation Support of U.S. Forces in Korea,
08/25/2008                                                              Report: D-2009-037, TRICARE Controls Over Claims Prepared By Third-
Description of Action: Conduct joint reviews of accounting and          Party Billing Agencies, 12/31/2009
disbursing procedures for Labor Cost Sharing funds. Prepare and issue   Description of Action: Code of Federal Regulations Change to obtain
any required updates to current policies and procedures based on        authority to sanction billing agencies that prepare/submit improper
joint review results.                                                   health claims to TRICARE contractors initiated. TRICARE to obtain a
Reason Action Not Completed: Extensive time taken to complete           waiver to Code of Federal Regulations prohibition to send healthcare
coordination between DoD Components to conduct joint reviews            claim payments directly to third party billing agencies.
of accounting and disbursing policy, and update appropriate policy      Reason Action Not Completed: Extensive time required to develop
guidance.                                                               and coordinate the regulation.
Principal Action Office: USD(C)                                         Principal Action Office: ASD(HA)

Report: D-2008-130, Approval Process, Tracking, and Financial Man­      Report: D-2009-051, Controls Over Time and Attendance Reporting at
agement of DoD Disaster Relief Efforts, 09/17/2008                      the National Geospatial-Intelligence Agency, 02/09/2009
Description of Action: Develop a memorandum of understanding            Description of Action: Revise guidance to improve internal controls
with the Federal Emergency Management Agency that establishes           over the time and attendance, especially the use of overtime and
guidelines and requirements for using and being reimbursed for DoD      compensatory time.
equipment used on mission assignments.                                  Reason Action Not Completed: Awaiting the issuance of final ver­
Reason Action Not Completed: The Department is reviewing current        sions of two NGA instructions addressing time and attendance.
procedures to determine if they align with the recently published       Principal Action Office: NGA
DODD 3025.18 and addresses issues identified.
Principal Action Office: USD(C)




                                                                                                          OCTOBER 1, 2010 TO MARCH 31, 2011 103
Appendix F

Report: D-2009-059, Air Force Management of the U.S. Government          Report: D-2009-078, Health Care Provided by Military Treatment Facili­
Aviation Into-Plane Reimbursement Card Program, 03/06/2009               ties to Contractors in Southwest Asia, 05/04/2009
Description of Action: Develop Air Force specific guidance and           Description of Action: USD (AT&L), in coordination with DFAS, is
procedures on the use of the AIR Card. Develop a training program to     working to ensure that contracts for contractor personnel deployed
ensure training for all personnel involved in AIR functions.             outside of the U.S. include terms that adequately address health care
Reason Action Not Completed: Management has not responded to             coverage and reimbursement.
a request for current status of agreed-upon implementing action. A       Reason Action Not Completed: The DFAS Accounts Receivables
response was due March 11, 2011.                                         Office is gathering data and information to draft a plan for all the
Principal Action Office: AF                                              Services.
                                                                         Principal Action Office: USD(AT&L)
Report: D-2009-062, Internal Controls Over DoD Cash and Other Mon­
etary Assets, 03/25/2009                                                 Report: D-2009-086, Controls over the Contractor Common Access
Description of Action: Improve internal controls over cash and other     Card Life Cycle in the Republic of Korea, 06/09/2009
monetary assets by establishing a special control account, developing    Description of Action: U.S. Forces Korea will rewrite Regulation 700­
policies and procedures, and monitoring cash usage. Develop non-         19 to address the issues stated in the recommendations.
cash methods of payment for contingency operations.                      Reason Action Not Completed: U.S. Forces Korea corrective action to
Reason Action Not Completed: Corrective actions cannot be imple­         rewrite Regulation 700-19 is ongoing.
mented until coordination with the Office of Management and Budget       Principal Action Office: USFK
and/or the Department of the Treasury is complete.
Principal Action Office: USD(C) DFAS                                     Report: D-2009-097, Data Migration Strategy and Information Assur­
                                                                         ance for the Business Enterprise Information Services, 07/30/2009
Report: D-2009-064, FY 2007 DoD Purchases Made Through the               Description of Action: Improve internal controls over the Busi­
National Institutes of Health, 03/24/2009                                ness Transformation Agency’s data migration strategy, information
Description of Action: Train contracting personnel, update financial     assurance, and compliance with the Federal Financial Management
records, and improve oversight of potential Antideficiency violations.   Improvement Act of 1996.
Reason Action Not Completed: Developing training, updating               Reason Action Not Completed: Management has not responded to a
financial records, and tracking progress of potential Anti-deficiency    request for current status of agreed-upon implementing action.
investigations takes considerable time to implement.                     Principal Action Office: DCMO
Principal Action Office: USD(AT&L), USD(C)
                                                                         Report: D-2009-098, Status of the Defense Emergency Response Fund
Report: D-2009-066, Marine Corps’ Management of the Recovery and         in Support of the Global War on Terror, 07/30/2009
Reset Programs, 04/01/2009                                               Description of Action: Review the Fund for Global War on Terror
Description of Action: USMC efforts are ongoing to improve inven­        obligations and deobligate all unliquidated obligations, withdraw all
tory visibility and validate existing approved acquisition objectives.   excess funds provided to the DoD Components, and transfer the funds
Improvements resulting from that analyses will be implemented.           to the U.S. Treasury.
Reason Action Not Completed: Time is needed to validate invest­          Reason Action Not Completed: Extensive time needed to coordinate
ment requirements, ensure accurate and supported unit prices are be­     deobligation of unliquidated obligations, withdrawal of excess funds,
ing used, requirements do not exceed approved acquisition objectives     and transference of funds to U.S. Treasury.
and that those requirements are properly prioritized.                    Principal Action Office: USD(C)
Principal Action Office: USMC
                                                                         Report: D-2009-101, Information Assurance and Data Reliability of the
Report: D-2009-067, Report on Controls over Air Force Material           Automated Disbursing System, 09/22/2009
Command Unliquidated Obligations on Department of the Air Force          Description of Action: Update agreement with DISA on security con­
Contracts Supporting the Global War on Terror, 04/03/2009                trols and increase controls over manual payments.
Description of Action: Clarify Defense Finance and Accounting Ser­       Reason Action Not Completed: Improving controls and updating the
vice Denver guidance to establish one code for unliquidated obliga­      security controls agreement takes time to implement.
tions requiring additional research.                                     Principal Action Office: DFAS
Reason Action Not Completed: Upon implementation of the new fi­
nancial management system, DFAS 7220.4-I will be revised to establish    Report: D-2009-104, Sanitization and Disposal of Excess Information
one code for unliquidated obligation requiring additional research.      Technology Equipment, 09/21/2009
Principal Action Office: DFAS                                            Description of Action: ASD (NII) is updating DoDI 8500.02. Navy ac­
                                                                         tion is on hold.
Report: D-2009-072, Monitoring Power Track Payments for DoD              Reason Action Not Completed: Extended time is required for revision
Freight Transportation, 04/09/2009                                       of DoD Instruction 8500.02.
Description of Action: Use data mining to monitor problematic pay­       Principal Action Office: ASD(NII), Navy
ments for duplicate payment indicators.
Reason Action Not Completed: A working group is to provide its rec­
ommendations to the Third Party Payment System Oversight Council
in June.
Principal Action Office: USD(AT&L)

104 SEMIANNUAL REPORT TO THE CONGRESS
Report: D-2009-107, DoD Enterprise Staffing Solution, 09/28/2009
         Report: D-2010-023, Review of Defense Technical Information Center 

Description of Action: Issue specific guidance for the acquisition of 
   Internal Controls, 12/03/2009

software as a service.
                                                   Description of Action: Revise the DoD Financial Management Regula­
Reason Action Not Completed: Management has not responded to a 
          tion to state when charging indirect costs to other DoD organizations 

request for current status of agreed-upon implementing action.
           is permitted. The Defense Technical Information Center establish a 

Principal Action Office: USD(AT&L)
                                       process for accumulating and reporting indirect costs that complies 

                                                                          with theFinancial Management Regulation and DoDI 4000.19, and 

Report: D-2009-108, U.S. Air Forces Central War Reserve Materiel 
        return any fee surpluses to customers. Require separate reporting of 

Contract, 09/23/2009
                                                     reimbursable fees and collect such data.

Description of Action: The Air Force will ensure a qualified contract­    Reason Action Not Completed: DoD continues to revise guidance, 

ing officer reviews award fees and sales of government property and 
     processes and procedures in order to implement the report recom­
closes the old War Reserve Materiel contract. The DCAA will audit 
       mendations.

direct costs under the old War Reserve Materiel contract and perform 
    Principal Action Office: USD(AT&L), USD(C), ASD(NII)

required surveillance of internal controls.

Reason Action Not Completed: The Air Force has not completed cor­         Report: D-2010-024, Contracted Advisory and Assistance Services for 

rective actions on contracting issues and DCAA has not completed its 
    the U.S. Army Future Combat Systems, 11/24/2009

audit work.
                                                              Description of Action: Report is FOUO.

Principal Action Office: AF, DCAA
                                        Reason Action Not Completed: Corrective actions are on schedule.

                                                                          Principal Action Office: USD(AT&L)

Report: D-2009-109, Contracts Supporting the DoD Counter Narcoter­
rorism Technology Program Office, 09/25/2009
                             Report: D-2010-026, Joint Civilian Orientation Conference Program, 

Description of Action: Army instructed the applicable contracting 
       12/09/2009

officers to make numerous corrections and improvements. USD(P) will 
     Description of Action: Update DoDI 5410.19 to clarify how to admin­
issue policy on the use of Operations and Maintenance appropriations 
    ister and manage the Joint Civilian Orientation Conference program. 

for minor military construction. DCAA will review public vouchers sub­    Initiate a preliminary Antideficiency Act review of the use of Joint 

mitted under the DoD Counter Narcoterrorism Technology Program 
          Civilian Orientation Conference fees received since the inception of 

Office contracts.
                                                        the Miscellaneous Receipts Statute.

Reason Action Not Completed: The Army has not completed correc­           Reason Action Not Completed: USD(C) has requested that the 

tive actions on contracting issues. The USD(P) has not finalized new 
    Washington Headquarters Service conduct a preliminary review of the 

guidance. DCAA has not completed recommended reviews.
                    potential ADA violations cited in the report. Guidance revisions are in 

Principal Action Office: Army, USD(P), DCAA
                              process.

                                                                          Principal Action Office: ASD(PA), WHS

Report: 09-INTEL-05,Audit of the Management of Signals Intelligence 

Counterterrorism Enterprise Analysts (U), 03/04/2009
                     Report: D-2010-027, Army’s Management of the Operations and Sup­
Description of Action: Report is Classified.
                             port Phase of the Acquisition Process for Body Armor, 12/08/2009

Reason Action Not Completed: Corrective actions are on-going.
            Description of Action: Update the Defense Reutilization and Market­
Principle Action Office: NSA
                                             ing Service Demil Bulletin to reflect revised Army guidance on body 

                                                                          armor disposition.

Report: D-2010-004, Cost Increases Related to the Producer Price In­      Reason Action Not Completed: After determining that its original 

dex for Titanium Mill Shapes on DoD Multiyear Contracts, 10/29/2009
      agreed-upon action was not appropriate, DLA has reverted to its 

Description of Action: Report is FOUO.
                                   original agreement.

Reason Action Not Completed: Corrective actions are on-going.
            Principal Action Office: DLA

Principal Action Office: USD(AT&L)

                                                                          Report: D-2010-028, Rapid Acquisition and Fielding of Materiel Solu­
Report: D-2010-015, DoD Civil Support During the 2007 and 2008 
          tions by the Navy, 12/15/2009

California Wildland Fires, 11/13/2009
                                    Description of Action: Report is FOUO.

Description of Action: Update joint publication to add clarity to the 
   Reason Action Not Completed: Long-term corrective actions are 

process of staffing Federal Emergency Management Agency mission 
         ongoing.

assignments, on the legal employment of surveillance by DoD assets 
      Principal Action Office: Navy

providing assistance to civil authorities, and on specific events for 

command and control handoff guidance.
                                    Report: D-2010-030, Utility Tax Relief Program in the Netherlands, 

Reason Action Not Completed: Corrective actions are on schedule.
         01/06/2010

Principal Action Office: JCS, USD(C), NORTHCOM
                           Description of Action: Actions needed to operate a utility tax relief 

                                                                          program in the Netherlands that is in compliance with host-nation 

                                                                          requirements.

                                                                          Reason Action Not Completed: Negotiation with utility companies 

                                                                          has delayed implementation of the program. Issue has been elevated 

                                                                          to U.S. Army Installations Management Command-HQ G1.

                                                                          Principal Action Office: Army



                                                                                                             OCTOBER 1, 2010 TO MARCH 31, 2011 105
Appendix F

Report: D-2010-032, DoD Countermine and Improvised Explosive              Report: D-2010-037, Internal Controls Over United States Marine 

Device Defeat Systems Contracts - Husky Mounted Detection System,         Corps Commercial and Miscellaneous Payments Processed Through 

12/31/2009                                                                the Deployable Disbursing System, 01/25/2010

Description of Action: Report is FOUO.                                    Description of Action: Review the Deployable Disbursing System 

Reason Action Not Completed: Management corrective actions on             payments for FY 2006 and FY 2007 for duplicate payments and collect 

schedule.                                                                 the over payments.

Principal Action Office: Army                                             Reason Action Not Completed: The Marine Corps has reviewed more 

                                                                          than half of the identified documents for duplicate payments and 

Report: D-2010-035, Defense Logistics Agency Contracts for M2             the review is ongoing. Changes are being made to the Deployable 

Machine Gun Spare Parts in Support of Operations in Southwest Asia,       Disbursing System.

01/11/2010                                                                Principal Action Office: USMC

Description of Action: Evaluate the metrics used to manage the prod­
uct quality deficiency reporting process and update the DLA product       Report: D-2010-043, Deferred Maintenance and Carryover on the 

quality deficiency reporting instruction.                                 Army Abrams Tank, 03/02/2010

Reason Action Not Completed: Corrective actions are on-going.             Description of Action: Report is FOUO.

Principal Action Office: DLA                                              Reason Action Not Completed: The proposed change is being incor­
                                                                          porated into the Financial Management Regulation.

Report: D-2010-036, Controls Over Navy Military Payroll Disbursed in      Principal Action Office: USD(C)

Support of Operations in Southwest Asia at San Diego-Area Disbursing
Centers, 01/22/2010                                                       Report: D-2010-048, DoD Methodology for the Valuation of Excess, 

Description of Action: Establish procedures to identify geographi­        Obsolete, and Unserviceable Inventory and Operating Materials and 

cally separated units responsible for processing entitlements and         Supplies, 03/25/2010

maintaining supporting documentation, and develop an electronic           Description of Action: Develop methodologies for estimating net 

storage capability.                                                       realizable value of excess, obsolete, and unserviceable inventory, oper­
Reason Action Not Completed: Navy has been converting from the            ating material and supplies, munitions, and missiles.

paper field service record to the Electronic Service Record, which will   Reason Action Not Completed: Developing methodologies for differ­
permit elimination of current stop-gap procedures and allow imple­        ent assets takes time to complete.

mentation of electronic storage capability.                               Principal Action Office: USD(C)

Principal Action Office: Navy


For this reporting period, there were no disallowed costs on reports over 12 months old with final action pending.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(4).




106 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                    Appendix G




                                                                                      Contract Audits with
                                                                                      Significant Findings
DCAA
Report No. 06321-2009H17900005                                           Date: November 17, 2010
Subject: Report on Audit of Subcontract Costs
Prepared For: U.S. Department of State
Report: $32.2 Million Questioned Cost
The audit of the billed subcontract costs resulted in $32.2 million of questioned costs. The questioned costs represent the difference between
the amount billed to the government by the prime contractor using its T&M labor rates in the contract and the actual allowable subcontract cost
incurred by the prime contractor.


Report No. 06151-2007Q10100001                                           Date: November 19, 2010
Subject: Independent Audit of Incurred Costs
Prepared For: Defense Contract Management Agency – Virginia
Report: $18.5 Million Questioned Cost
The audit of the contractor’s incurred cost submission resulted in $43.9 million of questioned costs of which $18.5 million related to govern­
ment contracts. Significant questioned items include unreasonable executive compensation and associated fringe expenses, unallowable travel
costs, and $1.0 million of questioned direct labor and other direct costs.


Report No. 06211-2011C17200001                                           Date: January 12, 2011
Subject: Independent Audit of Statement of Costs for Alleged Government Delay
Prepared For: CECOM Army Contracting Center
Report: $18.3 Million Questioned Costs
The audit of the claim resulted in $18.3 million of questioned costs, including questioned direct, intercompany, and subcontract labor; and de­
preciation and amortization costs due to the lack of adequate support that there were increased costs as the result of the alleged delay.


Report No. 04431-2005W10100005                                           Date: January 14, 2011
Subject: Independent Audit of FY 2005 Incurred Cost Submission
Prepared For: Defense Contract Management Agency – Canoga Park
Report: $10.1 Million Questioned Costs
The audit of the contractor’s incurred cost submission resulted in $19.1 million of questioned costs of which $10.1 million related to government
contracts. Major elements of the questioned costs include of $1.3 million of unallowable environmental remediation costs, $0.5 million of unal­
locable overhead, and $14.9 million for discontinued operations considered unallocable under the terms of a novation agreement.


Report No. 02131-2010R17100004                                           Date: July 14, 2010
Date: January 23, 2011
Subject: Independent Audit of Termination Settlement Proposal
Prepared For: U.S. Army Legal Services Agency
Report: $31.2 Million Questioned Costs



                                                                                                             OCTOBER 1, 2010 TO MARCH 31, 2011 107
Appendix G

The audit of the contractor’s termination settlement proposal resulted in $31.2 million of questioned unallowable, unallocable or unreason­
able costs, including $10.0 million of direct labor, gifts, and bonuses; and $9.9 million of general project expenses and construction equipment
rental or purchases.


Report No. 01751-2010G17900010                                            Date: February 1, 2011
Subject: Independent Audit of Internal Restructuring Proposal
Prepared For: Department of the Navy
Report: $25.3 Million Questioned Costs
The audit of the contractor’s internal restructuring proposal resulted in $23.5 million of questioned costs relating to proposed labor, severance
pay, incentive bonuses, and relocation expenses. Another $284.5 million of proposed costs and the entire $600 million proposed gross savings
are considered unsupported.


Report No. 06211-2011C17200007                                            Date: February 2, 2011
Subject: Independent Audit of Statements of Cost
Prepared For: CECOM Army Contracting Center
Report: $19.6 Million Questioned Cost
The audit of the contractor’s claim resulted in $19.6 million of questioned cost due to lack of adequate support for claimed lost performance
bonuses.


Report No. 09821-2010C17100003                                            Date: February 2, 2011
Subject: Independent Audit of Termination Proposal
Prepared For: Defense Contract Management Agency
Report: $27.0 Million Questioned Costs
The audit of the $403.6 million termination proposal resulted in $27 million of questioned costs. The subject of the audit was to determine if the
proposed costs were acceptable as a basis for negotiation. The significant items of questioned costs related to excessive proposed fee, other
direct termination costs, settlement expenses, and subcontract costs.


Report No. 06211-2011C17200004                                            Date: February 28, 2011
Subject: Independent Audit of Statement of Cost
Prepared For: CECOM Army Contracting Center
Report: $24.8 Million Questioned Cost
The audit of the contractor’s claim resulted in the entire claim being questioned due to the lack of adequate support to substantiate that the
contractor and its subcontractors incurred increased costs as a result of government delay.


Report No. 06211-2011C17200009                                            Date: March 2, 2011
Subject: Independent Audit of Statements of Cost
Prepared For: CECOM Army Contracting Center
Report: $72.4 Million Questioned Cost
The audit of the contractor’s claim resulted in the entire claim being questioned because the contractor claimed the full purchase price of assets,
without reduction for costs it had already recovered or was also claiming through depreciation. The claimed costs were for data center hardware
and software, and profit.


Report No. 03321-2010V10180001                                            Date: March 10, 2011
Subject: Independent Audit of FY2004 Direct Travel Costs
Prepared For: Defense Contract Management Agency Phoenix-Houston
Report: $32.8 Million Questioned Cost



108 SEMIANNUAL REPORT TO THE CONGRESS
 The audit of the claimed travel costs resulted in $32.8 million of questioned cost including $27.2 million of unallowable costs per specific con­
 tract terms and $5.6 million of unallowable airfare due to violation of the Fly America Act (FAR 52.247-63).


 Report No. 06211-2011C17200003                                           Date: March 10, 2011
 Subject: Independent Audit of Statement of Costs
 Prepared For: CECOM Army Contracting Center
 Report: $33.4 Million Questioned Cost
 The audit of the contractor’s price adjustment claim resulted in $33.4 million of questioned costs because the contractor did not provide ad­
 equate support that the claimed costs were reasonable and allocable to the contract or were incurred only for out-of-scope extra-contractual
 activities.


 Report No. 03511-2010M17900003                                           Date: March 16, 2011
 Subject: Independent Audit of Certification and Agreement with Defense Security Agency
 Prepared For: Defense Contract Management Agency – DoD Central Control Point
 Report: $32.3 Million of Noncompliances
 The audit of the contractor’s Certification and Agreement with the Defense Security Cooperation Agency resulted in the identification of
 $32.3M of noncompliances with the agreement including the failure to adequately identify a $28.4 million subcontract procurement as being
 financed with U.S. government funds, and the inclusion of $3.9 million of unapproved non-U.S. content in contract with the foreign govern­
 ment.


 Report No. 06211-2011C17200002                                           Date: March 17, 2011
 Subject: Independent Audit of Statement of Costs
 Prepared For: CECOM Army Contracting Center
 Report: $57.4 Million Questioned Cost
 The audit of the contractor’s price adjustment claim resulted in $57.4 million of questioned costs due to the lack of adequate support for the
 costs.


DoD IG

 Report No. D-2011-036                                                    Date: February 3, 2011
 Subject: Competition Should Be Used for Instructor Services for Mine Resistant Ambush Protected Vehicles
 Report: $23.0 Million of Funds Put to Better Use
 TACOM Contracting Center officials obligated $23 million for Instructor Services that were not a bona fide need for FY 2009 because TACOM
 Contracting Center officials obligated FY 2009 Operations and Maintenance funds against a 6-month option for services that were not going to
 be performed until January 2010.


 Report No. D-2011-047                                                    Date: March 2, 2011
 Subject: Improvements Needed in Contract Administration of the Subsistence Prime Vendor Contract In Afghanistan
 Report: $124.3 Million in Funds Put to Better Use
 Defense Logistics Agency Troop Support personnel potentially overpaid the prime vendor $98.4 million in transportation costs and approxi­
 mately $25.9 million for triwall costs.



▶ Fulfills requirements of the National Defense Authorization Act for FY 2008 Section 845.




                                                                                                              OCTOBER 1, 2010 TO MARCH 31, 2011 109
Appendix H




Results of Peer Reviews
Peer Review of U.S. Department of Labor Office of Inspector General, Office of Labor Racketeering and Fraud Investigations
DCIS conducted a review of the U.S. Department of Labor OIG, Office of Labor Racketeering and Fraud Investigations, in accordance
with guidelines established by the President’s Council on Integrity and Efficiency and the Attorney General’s Guidelines for OIGs with
statutory law enforcement authority. The team reviewed the level of compliance with the system of internal policies and procedures in
place at the DOL OIG/OLRFI for the period ending September 2007. The investigative function of DOL OIG was found to be in full
compliance with the quality standards established by the PCIE and the AGG. After review, the only recommendation suggested by DCIS
for improvement of DOL OIG operations was for OLRFI to memorialize the results of its periodic weapons qualifications scores for the
criminal investigators as “Pass” or “Fail” and to discontinue the practice of recording numeric scores.

Peer Review of DCIS operations by the U.S. Department of Agriculture Office of Inspector General
The U.S. Department of Agriculture OIG conducted an external peer review of DCIS’s system of internal safeguards and management
procedures in effect for the period ending September 30, 2008. Since DCIS does not derive its statutory law enforcement authority from
the attorney general or the Inspector General Act, it is not subject to the Council of the Inspectors General on Integrity and Efficiency
thus DCIS’s participation in this peer review was voluntary. After completing its review of DCIS, the USDA OIG issued a final report
dated July 1, 2009, and concluded that the system of internal safeguards and management procedures for DCIS was in full compliance
with the quality standards established by CIGIE. These safeguards and procedures provide reasonable assurance that DCIS is conforming
to the professional standards for investigations established by CIGIE.

Peer Review of Department of Defense IG Office of Audit by Department of Health and Human Services OIG
The Department of Health and Human Services OIG conducted an external peer review of DoD IG Office of Audit and issued a final
report on December 2, 2009. DoD IG received a peer review rating of pass. There are no outstanding recommendations. A copy of the
external quality control review report can be viewed on at www.dodig.mil/audit.

Peer Review of U.S. Postal Service OIG Audit Organization by Department of Defense IG
DoD IG conducted an external quality control review of the United States Postal Service OIG audit organization and issued a final re­
port on March 31, 2010. USPS OIG received a peer review rating of pass. All outstanding recommendations have been implemented as
of March 31, 2011. A copy of the external quality control review report in its entirety can be viewed on the USPS OIG website at www.
uspsoig.gov.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(14),(15),(16).




110 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                         Appendix I




                                                                                        Acronyms
A&AS       Advisory and Assistance Services              DCAA       Defense Contract Audit Agency
AB         Air Base                                      DCIS       Defense Criminal Investigative Service
ADA        Antideficiency Act                            DCMA       Defense Contract Management Agency
AFAA       Air Force Audit Agency                        DFAS       Defense Finance and Accounting Service
AFAA/FS    Air Force Audit Agency Financial Systems      DFIP       Detention Facility in Parwan, Afghanistan
           Audits Directorate                            DISA       Defense Information Systems Agency
AFAA/QL    Air Force Audit Agency Acquisition and        DLA        Defense Logistics Agency
           Logistics Audits Directorate                  DMA        Defense Media Agency
AFAA/SP    Air Force Audit Agency Support and            DNA        Deoxyribonucleic Acid
           Personnel Audits Directorate                  DoD        Department of Defense
AFB        Air Force Base                                DoDD       Department of Defense Directive
AFNWC      Air Force Nuclear Weapons Center              DoD IG     Department of Defense Inspector General
AFOSI      Air Force Office of Special Investigations    DOE        Department of Energy
AFRICOM    United States Africa Command                  DOJ        Department of Justice
AIR        Aviation Into-Plane Reimbursement             DOL        Department of Labor
AGI        American Grocers, Inc.                        DoN        Department of the Navy
AMSO       Army Modeling and Simulation Office           DoS        Department of State
ANG        Air National Guard                            DPEM       Depot Purchased Equipment Maintenance
ANP        Afghan National Police                        DRMO       Defense Reutilization and Marketing Office
Army CID   Army Criminal Investigation Command           DSS        Defense Security Service
ARRA       American Recovery and Reinvestment Act        DTIC       Defense Technical Information Center
ATEC 	     United States Army Test and Evaluation        EFMP       Exceptional Family Member Program
           Command                                       ERP        Enterprise Resource Planning
ATS        Advanced Topcoat System                       ESPC       Energy Savings and Performance Contracts
BAMC       Brooke Army Medical Center                    FAR        Federal Acquisition Regulation
BRAC       Base Realignment and Closure                  FBI        Federal Bureau of Investigation
CAF        Central Adjudication Facility                 FDA        Food and Drug Administration
CCG        Capital Consortium Group                      FIAR       Department of Defense Financial
CDRT       Capabilities Development for Rapid                       Improvement and Audit Readiness Plan
           Transition                                    FMTV       Family of Medium Tactical Vehicles
CERP 	     Commander’s Emergency Response                FOB        Forward Operating Base
           Program                                       FOIA       Freedom of Information Act
cGMP       current Good Manufacturing                    GEAE       General Electric Aircraft Engines
           Procedures                                    GMO        Greater Metropolitan Orthopedics, P.A.
CHESS 	    Computer Hardware, Enterprise Software        GNEC       Global Network Enterprise Construct
           and Solutions                                 GSA        General Services Administration
CIGIE 	    Council of Inspectors General for Integrity   GSK        GlaxoSmithKline
           and Efficiency                                GWOT       Global War on Terror
CNTPO 	     Counter Narcoterrorism Technology            HCP        Hearing Conservation Program
           Program Office                                HHS        Health and Human Services
CODIS      Combined DNA Index System                     HIV        Human Immunodeficiency Virus
COIN       Counterinsurgency                             HMMWV      High Mobility Multi-Purpose Wheeled
COMSEC 	   Communications Security                                  Vehicle
CONUS      Continental United States                     ICE U.S.   Immigration and Customs Enforcement
CPO        Chief Petty Officer                           IJC        ISAF Joint Command
CTIP       Combating Trafficking in Persons              INSURV     Inspection and Survey


                                                                                 OCTOBER 1, 2010 TO MARCH 31, 2011 111
Appendix I



IO                    Information Operations                     PM SEQ     Project Manager Soldier Equipment
IPBO                  Installation Property Book Office          PQDR       Product Quality Deficiency Reporting
IRS                   Internal Revenue Service                   RAB        Regional Air Base
ISAF                  International Security Assistance Force    ROTC       Reserve Officers’ Training Corps
ISF                   Iraq Security Forces                       RPAT       Redistribution Property Assistance Teams
JCIU                  Joint Counterintelligence Unit             SIGAR      Special Inspector General for Afghanistan
JCOC                  Joint Civilian Orientation Conference                 Reconstruction
JRN                   Jaysh Rijal al-Tariq al Naqshabandi        SIGIR      Special Inspector General for Iraq
LBG                   Louis Berger Group, Inc.                              Reconstruction
LOGCAP                Logistics Civil Augmentation Program       SMC        Air Force Space and Missile Systems
M&S                   Army Modeling and Simulation Office                   Center
MA                    Master at Arms                             SORAP      Source of Repair Assignment Process
MCSC                  Marine Corps Systems Command               SSG        Staff Sergeant
MEDCOM                United States Army Medical Command         SSN        Social Security Number
MoD                   Ministry of Defense                        TCC        TACOM Contracting Center
MoI                   Ministry of Interior                       TDS        Towed Decoy System
MORD                  Miscellaneous Obligation/Reimbursement     UAV        Unmanned Aerial Vehicles
                      Documents                                  UCA        Undefinitized Contractual Actions
MRAP                  Mine Resistant Ambush Protected Vehicles   UIC        Unit Identification Codes
MRT                   Master Resilience Training                 USAAA      U.S. Army Audit Agency
MSPB                  Merit Systems Protection Board             USACE      U.S. Army Corps of Engineers
MSS                   Military Services Support, LLC             USACIL     United States Army Criminal Investigation
mTBI                  Mild Traumatic Brain Injury                           Laboratory
NAC                   n-Acetylcysteine                           USAF       U.S. Air Force
NASB                  Naval Air Station Brunswick                USFK       United States Forces Korea
NATO                  North Atlantic Treaty Organization         USAID      United States Agency for International
NAVAUDSVC             Naval Audit Service                                   Development
NCIS                  Naval Criminal Investigative Service       USCENTCOM U.S. Central Command
NDIS                  National DNA Index System                  USCYBERCOM United States Cyber Command
NEXGEN IT             Next Generation Information Technology     USDA       United States Department of Agriculture
NGA                   National Geospatial Intelligence Agency    USF-I      United States Forces- Iraq
OCO                   Overseas Contingency Operations            USFOR-A    United States Forces- Afghanistan
OIG                   Office of Inspector General                USMC       United States Marine Corps
OLRFI                 Office of Labor Racketeering and Fraud     USN        United States Navy
                      Investigations                             USPS       United States Postal Service
OMB                   Office of Management and Budget            USSGL      United States Government Standard
ORF                   Operational Readiness Float                           General Ledger
OSD                   Office of the Secretary of Defense         USSTRATCOM United States Strategic Command
P&O                   Policy and Oversight                       UUT        Unit Under Test
PEO                   Program Executive Officer                  WESS       Web Enabled Safety System
PDHRA                 Post Deployment Health Reassessment        WRM        War Reserve Materiel
PM                    Program Manager                            WTU        Warrior Transition Unit




112 S EMIAN N UAL REPOR T TO TH E CON G R E S S
